<html>
<title> - SERVICES FOR VETERANS IN ALASKA: FIELD HEARINGS IN ANCHORAGE AND FAIRBANKS</title>
<body><pre>[Senate Hearing 111-658]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-658
 
   SERVICES FOR VETERANS IN ALASKA: FIELD HEARINGS IN ANCHORAGE AND 
                               FAIRBANKS

=======================================================================



                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                        FEBRUARY 16 AND 17, 2010

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate




                  U.S. GOVERNMENT PRINTING OFFICE
61-710                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON VETERANS' AFFAIRS

                   Daniel K. Akaka, Hawaii, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Patty Murray, Washington             Lindsey O. Graham, South Carolina
Bernard Sanders, (I) Vermont         Johnny Isakson, Georgia
Sherrod Brown, Ohio                  Roger F. Wicker, Mississippi
Jim Webb, Virginia                   Mike Johanns, Nebraska
Jon Tester, Montana                  Scott P. Brown, Massachusetts\1\
Mark Begich, Alaska
Roland W. Burris, Illinois
Arlen Specter, Pennsylvania
                    William E. Brew, Staff Director
                 Lupe Wissel, Republican Staff Director



----------
\1\ Hon. Scott P. Brown was recognized as a minority Member on March 
24, 2010.
                            C O N T E N T S

                              ----------                              

                      February 16, 2010--Anchorage
                                SENATORS

                                                                   Page
Begich, Hon. Mark, U.S. Senator from Alaska......................     1

                               WITNESSES

Carroll, Timothy Patrick, CMSgt, USAF (Ret)......................     3
    Prepared statement...........................................     4
Davidge, Ric, MPA, Alaska State Council President, Vietnam 
  Veterans of America; Board Member, Alaska Disabled Veterans 
  Business Alliance..............................................     7
    Prepared statement...........................................     8
Fierros, Gabriel, OIF Veteran....................................     9
Owens, Rich, Alaska State Chairman, National Committee for 
  Employer Support of the Guard and Reserve......................    10
Jefferson, Hon. Raymond M., Assistant Secretary of Veterans' 
  Employment and Training Service, U.S. Department of Labor......    18
    Prepared statement...........................................    19
Finn, Belinda J., Assistant Inspector General for Audits and 
  Evaluations, Office of Inspector General, U.S. Department of 
  Veterans Affairs; accompanied by Brent Arronte, Director, 
  Benefits Inspections Division, Office of Audits and 
  Evaluations, Office of Inspector General.......................    23
    Prepared statement...........................................    24
Bilosz, Mark M., Director, Anchorage Regional Office, Veterans 
  Benefits Administration, U.S. Department of Veterans Affairs; 
  accompanied by Willie C. Clark. Sr., Western Area Director; and 
  Patrick Kelley, Veterans Service Center Manager, Anchorage 
  Regional Office................................................    26
    Prepared statement...........................................    28
Katkus, Brig. Gen. Tom, Adjutant General, Alaska National Guard..    30
    Prepared statement...........................................    32
Myers, Jan, Director, Family Programs, Alaska Department of 
  Military & Veterans Affairs....................................    33
    Prepared statement...........................................    34
    Addendum.....................................................    36

                                APPENDIX

Clapp, Steven, AFGE National Representative; comments filed at 
  hearing........................................................    53
Simmons, Zulene, Chugiak, Alaska; comments filed at hearing......    54
Kell, Russell N., Vietnam Veterans of America; letter............    58
                              ----------                              

                      February 17, 2010--Fairbanks
                                SENATORS

                                                                   Page
Begich, Hon. Mark, U.S. Senator from Alaska......................    61

                               WITNESSES

Boisseau, Linda, Department Service Officer, Disabled American 
  Veterans.......................................................    63
    Prepared statement...........................................    65
        Attachment...............................................    68
Roof, SPC Robert L., USA (Ret.), OIF Veteran.....................    69
    Prepared statement...........................................    71
Sheehan, Joe, LTC, USA (Ret), Chairman, Northern Alaska Military 
  Retiree Council................................................    76
    Prepared statement...........................................    78
Woolf, Ron, Unit Representative, Employer Support, Guard and 
  Reserve........................................................    79
    Prepared statement...........................................    82
Jefferson, Hon. Raymond M., Assistant Secretary of Labor for 
  Veterans' Employment and Training, U.S. Department of Labor....    91
    Prepared statement...........................................    93
Finn, Belinda J., Assistant Inspector General for Audits and 
  Evaluations, Office of Inspector General, U.S. Department of 
  Veterans Affairs; accompanied by Brent Arronte, Director, 
  Benefits Inspections Division, Office of Audits and 
  Evaluations, Office of Inspector General.......................    96
    Prepared statement...........................................    98
    Response to request arising during the hearing by Hon. Mark 
      Begich.....................................................   120
Bilosz, Mark M., Director, Anchorage Regional Office, Veterans 
  Benefits Administration, U.S. Department of Veterans Affairs; 
  accompanied by Willie C. Clark. Sr., Western Area Director; and 
  Patrick Kelley, Veterans Service Center Manager, Anchorage 
  Regional Office................................................   100
    Prepared statement...........................................   102
    Response to request arising during the hearing by Hon. Mark 
      Begich...................................................122, 131
Pendergrass, Susan, DrPH, Network Director, VISN 20, Veterans 
  Health Administration, U.S. Department of Veterans Affairs; 
  accompanied by Alex Spector, Director, Alaska VA Health Care 
  System.........................................................   104
    Prepared statement...........................................   106
    Addendum.....................................................   112
    Response to request arising during the hearing by Hon. Mark 
      Begich...................................................125, 129
Bowen, Verdie, Administrator, Office of Veterans Affairs, 
  Department of Military and Veterans Affairs for the State of 
  Alaska.........................................................   114

                                APPENDIX

McBride, Ladd, Veteran, USA (Ret.), and a geriatric nurse 
  practitioner; comments filed at hearing........................   135
Davis, Charlotte M., Vietnam Veteran; comments filed at hearing..   137
McDonald, Col. William, USAF (Ret.); comments filed at hearing...   139
Tordoff, Hugh Twig; questions/comments filed at hearing..........   141


                    SERVICES FOR VETERANS IN ALASKA

                              ----------                              


                       TUESDAY, FEBRUARY 16, 2010

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                     Anchorage, AK.
    The Committee met, pursuant to notice, at 10:30 a.m., 
Anchorage Assembly Chambers, Hon. Mark Begich, Member of the 
Committee, presiding.
    Present: Senator Mark Begich.

            OPENING STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. This hearing, the Field Hearing on Services 
for Veterans' Affairs in Alaska is called to order. I first 
want to thank all the people that are here. I appreciate the 
opportunity to have this field hearing. We are having multiple 
opportunities for veterans. One will be this field hearing 
which is a chance for us to talk with different presenters 
about some of their issues and concerns. We also have folks 
from the VA to address some of these concerns. Along with that, 
we will be in Wasilla this afternoon for a roundtable, which is 
more of a kind of free discussion with folks. Then we will be 
in Fairbanks, as well as in Kotzebue.
    So, those that are wondering how these work: field hearings 
designed like this are an opportunity for a Congressional 
record to be created based on information that will be 
presented by, for example, our first panel and our second 
panel. It is not a process that you're normally used to. There 
is no testifying and so forth; there are panels in the field 
hearings. The roundtables that we have are more of an open 
discussion. Again, those are in Wasilla, Kotzebue, and 
Fairbanks. But, again, we appreciate all the folks that are 
here. This is an opportunity for us to hear and to ask some 
questions.
    Along with that, for folks that are in the audience, this 
is an opportunity, again, for questions and comments, during 
the meeting, after the meeting or even before. If you have some 
issues that you want to make sure are raised, please put those 
down on this form and staff will be in the back to collect 
them.
    I have a statement that I'll read into the record here, and 
then we'll open with our first panel of individuals. Again, 
thank you all for being here. For the folks from Washington, 
DC, I thank you for arriving to a warmer climate and less snow 
than you left. We can also show you how to move snow. It's a 
skill here.
    This hearing will focus on the state of services for 
veterans in Alaska, support for returning veterans, job 
opportunities for veterans, benefits for veterans, and a 
December audit by the VA office of the Inspector General on the 
VA Regional Office in Anchorage. The Committee has held 
multiple hearings on VA benefits, health care, and services. 
However, this is the first time we are specifically focusing on 
the unique challenges confronting returning Alaska veterans of 
Operations Iraqi and Enduring Freedom.
    I'm pleased that the Committee is joined today by Assistant 
Secretary of Labor, Ray Jefferson, who will speak to some of 
the services that the Department of Labor offers to veterans, 
in particular, those transitioning from military to civilian 
life. In addition, I hope to hear more about some of the 
Department of Labor's core functions: conducting employment and 
training programs; enforcing relevant Federal laws and 
regulations; and providing transition services.
    Alaska is one of the few States with a growing veteran 
population--70,000 within our State. Alaska has the highest per 
capita veteran population in the Nation. The Anchorage RO has 
the highest proportion of compensation claims in the total 
workload of any regional office. Compensation workload grew by 
82 percent in the last 5 years. According to a 2009 VA State 
Summary Report of Alaska, in 2008 nearly 1,500 veterans from 
the conflicts in Iraq and Afghanistan sought treatment in our 
VA facilities.
    I applaud the efforts of VA employees in Alaska. These men 
and women work hard to help veterans who seek their assistance. 
There are many things the VA does well in Alaska. However, 
there is always room for improvement, as evidenced by the 
recent VA IG report dated December 7, 2009, that showed that 
the Anchorage VA Regional Office failed to meet requirements in 
13 of 14 areas covered during the inspection. This concerns me 
deeply because providing accurate, timely, and comprehensive 
services to our veterans is one of my top priorities in the 
U.S. Senate.
    More work needs to be done. I hope that both of our panels 
will shed some light on the issues such as: why we continue to 
hear veterans are not aware of their eligibility for VA 
benefits and services; why some veterans are not receiving 
appropriate VA services; and why veterans struggle finding 
employment. I hope to discuss these and other important issues 
with our panels today.
    Indeed, our unique geography, diversity, and way of life 
require that the VA develop a unique strategy to care for our 
veterans, especially those who reside in rural areas. Back in 
Washington, we have worked hard to ensure that VA has the 
resources to provide the best care possible. Congress has 
provided record-breaking funding increases for the VA. Last 
year I supported the Veteran Health Care Budget Reform and 
Transparency Act to secure funding for veterans' health care 1 
year in advance of the regular appropriations process. This 
bill was signed into law in October, 2009. We have followed up 
that success with passage in the Senate of a Caregivers' Bill, 
which will help wounded warriors and the families who care for 
them. This bill also improves care for women veterans who 
reside in rural areas and those who are homeless. It has been 
sent to the House of Representatives. We expect to finalize 
this bill in the coming months.
    Finally, I note that there are many veterans here today who 
would like to testify. While we cannot accommodate everyone's 
request to speak, we do want to hear your views. The Committee 
is accepting, as I said, written testimony or other documents 
you may want to present for the record.
    In addition, Committee staff is joined by VA staff who can 
respond to the questions, concerns and comments that you raise. 
Once again, thank you all for being here. What I would like to 
do is introduce the first panel of four individuals. First, 
I'll just read their names in Alaskan. I'll call on each one 
separately to give their testimony. We'd like to keep the 
testimony close to 5 minutes, though unlike the Assembly, we 
have no clock that ticks away. I will tell you when you're 
close. Please bear with me.
    Tim Carroll, is a retired U.S. Air Force Commander 
Sergeant. Ric Davidge, MPA, is the Alaska State Council 
President, of the Vietnam Veterans of America, and Board member 
of the Alaska Disabled Veterans Business Alliance. Gabriel 
Fierros, is an OIF veteran. Rich Owens, is the Alaska State 
Chairman, and National Committee for Employer Support of the 
Guard and Reserve.
    Thank you all for being here. What I would like to do is 
have you testify in the order that I read your names. If I can 
have retired Commander Chief Tim Carroll first. Thank you very 
much for being here. There's a button, just push it down, which 
should activate the mic. As long as you've got a green light, 
you're good.

  STATEMENT OF CHIEF MASTER SERGEANT TIMOTHY PATRICK CARROLL, 
                         USAF (RETIRED)

    Chief Carroll. First off, Senator Begich, thank you for 
taking the time to come out to----
    Senator Begich. You have to move that mic a little closer.
    Chief Carroll. Can you hear now? Better?
    Senator Begich. Move that mic a little, pretend you're like 
Mick Jagger.
    Chief Carroll. Put it all the way in my throat here.
    Senator Begich. We'll ask the technician, Mike, to adjust 
the mic.
    Chief Carroll. Senator Begich, I want to thank you for 
taking the time to listen to our veterans and for committing 
yourself to helping those who dedicated their service to this 
country.
    A Speaker. We still can't hear you.
    Chief Carroll. You, too, are servants of this great Nation 
and I for one----
    Senator Begich. I apologize. I don't know if we can adjust 
that volume a little bit more. I'm looking for the tech person. 
You have to hug it like this [indicating].
    Chief Carroll. How is that?
    A Speaker. Still can't hear back here.
    Senator Begich. We have to go with what we have while the 
tech guy works on the volume. Go ahead.
    Chief Carroll. I won't do the can-you-hear-me-now thing. 
I'll try to speak up a little bit.
    First off, Senator Begich and members of the traveling team 
with you, thank you for taking the time to listen to our 
veterans and for committing yourself to helping us who 
dedicated our lives to service to this country. You too are 
servants of this great Nation and I for one thank you for your 
tireless efforts on our behalf. I am retired Chief Master 
Sergeant Tim Carroll, a 28-year veteran of the U.S. Air Force; 
the son of an Air Force veteran; and now the father of an 
active-duty Air Force airman. I am honored to be given this 
opportunity to provide testimony on my experiences with the 
transition from active duty to veterans status of the U.S. Air 
Force. I retired from active duty in October 2008. While on 
active duty, I was the command chief master sergeant for the 
third wing at Elmendorf Air Force Base. In this role I had lots 
of opportunity to hear and to experience those who were 
transitioning out of the Air Force, but had little opportunity 
to hear of their transition once they hit the VA system.
    On a scale of 1 to 10, with 10 being perfectly satisfied, 
my personal transition would rate at a 9.0. This is due in 
large part to the professionals at the Elmendorf Air Force 
Base, third mission support squadron, the third medical group, 
and the staff of the Anchorage Veterans Administration, who 
were attentive to my needs and very much helped me and my 
family as we managed our expectations for retirement.
    I believe those who transitioned alongside me found the 
same experience. I do know that there are a large number of 
veterans that had different experiences, and I was able to help 
some of those people with what we could on the active-duty 
side. Again, I did not see them once folks went into the 
Veterans Administration; therefore, when I made the transition 
myself, it was a first-time experience that I relied on a lot 
of people to help with. The staff at the Anchorage Veterans 
Administration helped in every way that they could, but we did 
deal, of course, with the Salt Lake City Regional Office on 
issues that were related to the medical transition. My number 1 
issue as I retired was finding adequate employment, and as you 
very well know, the timing when transitioning between careers 
whether military or otherwise, is very crucial to maintaining a 
quality-of-life and a standard of living for our families. With 
two teenage daughters under my roof, retirement is a relative 
term and it was absolutely essential that I secured employment. 
The timing that it took to get the DD-214 to marry up to the 
compensation disability rating did cause a gap in my ability to 
seek a government job. I find myself now in the private sector 
and it's working very well.
    Again, I would rank my personal experience a 9 on a scale 
of 1 to 10.
    I look for your questions, Senator Begich. And in closing, 
again, I want to thank you for the efforts you are putting 
forth to take care of our veterans.
    [The prepared statement of Chief Carroll follows:]
    Prepared Statement of CMSgt Timothy Patrick Carroll, USAF (Ret.)
    Honorable Senators and Distinguished Members of the U.S. Senate 
Committee on Veterans' Affairs, Thank you for taking the time to listen 
to our Veterans and for committing yourself to helping those who 
dedicated their service to this country. You too are servants of this 
great Nation; I for one thank you for your tireless efforts on our 
behalf.
    I am retired Chief Master Sergeant Timothy Patrick Carroll, a 28-
year veteran of the United States Air Force, the son of an Air Force 
veteran, and now the father of an Air Force Airman. I am honored to be 
given this opportunity to provide testimony on my experience with the 
transition from active duty to veteran status of the United States 
Armed Forces.
    I retired from active duty in October 2008. On a scale of 1-10 with 
10 being perfectly satisfied, I would rate my transition experience at 
9.0. The professionals of Elmendorf Air Force Base's 3rd Mission 
Support Squadron, the 3rd Medical Group, and the staff of the Anchorage 
Veterans' Administration were attentive to my needs and very much 
helped my family and me manage our expectations for retirement. I 
believe those who were transitioning at the same time as me found the 
same experiences. Of course, with two teenage daughters still under my 
roof, retirement is a relative term.
    Overall, I am pleased and satisfied with the outreach and support I 
have received from the Veterans Administration. I address specific 
programs and my experiences below.
                               job search
    One of the greatest challenges I believe military members have in 
entering the civilian workforce is effectively communicating their 
skills to prospective employers. The Transition Assistance Program was 
very helpful in opening my mind to the realities of retirement and did 
equip me with many tools necessary to prepare for the transition; but 
the reality of communicating my skills was a greater challenge than I 
ever anticipated. Fortunately for me, it worked out well, as I am now 
the CEO of a small business in Anchorage.
                               education
    I was one of the fortunate young Airmen who had a supervisor that 
cared enough to threaten me with bodily harm if I failed to open a 
Veterans' Education Assistance Program (VEAP) account before the 
program ended. I complied and deposited the minimum required twenty-
five dollars to open the account. Many of my colleagues were not so 
fortunate and failed to open the account. We were repeatedly told what 
a bad deal the VEAP was, thus it is not surprising to me that so many 
did not buy into the program. Many years later, when Congress opened 
the window for those of us with a VEAP account to join the Montgomery 
GI Bill program, I made the required payments and converted. Over the 
course of my career, I took advantage of the USAF Tuition Assistance 
program and obtained my Bachelor's Degree here at the University of 
Alaska Anchorage. Today, with the aid of the Post-9/11 GI Bill, I am 
pursuing my Masters Degree with Wayland University in Anchorage. I have 
heard many complaints about the backlog in processing Post-9/11 GI Bill 
claims and at this point am pleased with the response I have received 
from the Veteran's Administration in producing my eligibility 
certificate. I begin classes this month and anticipate filing for 
benefits payment in the coming weeks. I did receive an unsolicited 
phone call from a Veterans Administration official inquiring if I knew 
of the education benefit, and how to proceed with the program. I found 
this call very informative and helpful, and again appreciate both the 
Congress and the Veteran's Administration for enabling me to pursue 
higher education.
                              medical care
    I am currently enrolled in the TRICARE Prime program and receive 
care at the Elmendorf Air Force Base hospital. I found the transition 
from Active Duty to Retiree was seamless in the quality and 
accessibility of care for my family and me. I am also enrolled in the 
TRICARE Retiree Dental Program and am satisfied that the benefits we 
receive are sufficient to care for my needs. When I first joined the 
Air Force in 1980, my recruiter told me that my medical care would be 
free for life. This was not a major point in my decision to serve or 
continue serving, and the premiums I pay today are acceptable. After 
having three children in orthodontics braces, I do wish the coverage 
for orthodontics provided a higher expense coverage rate.
    I have not yet sought medical care from the Veteran's 
Administration and can therefore not comment on that quality. I do know 
that the VA has again extended a helping hand to make sure I am aware 
of the process to access care in the VA facility.
               service connected disability compensation
    When the time came to retire, I received assistance from the 
American Legion in submitting my claim for service-connected disability 
compensation. I submitted my claim under the Benefit Due at Discharge 
program (also known as Fast Track) on June 28, 2008, in advance of my 
October 1, 2008 retirement. The medical staff at the Anchorage VA 
medical Center evaluated my claim items in August 2008. I received my 
rating decision from the VA Regional Office in Salt Lake City on Jan 
26, 2009. I am currently appealing the rating decision I received based 
on inconsistencies in the report I received along with the rating 
decision, and my experiences in the exam room in Anchorage. All in all, 
I am satisfied with the timing and attention I received from the VA 
throughout this claim process.
                                housing
    During the course of my active duty career, I moved too frequently 
to enjoy the benefits of home ownership. During the last half of my 
career, I was in key and essential designated positions, which required 
me to live in government provided housing on-base. When I retired, I 
was faced with the task of finding a home that maintained my family's 
standard of living without having any equity in a home to cash in for 
down payment. I used the VA Home Loan Guarantee program to purchase my 
home in Eagle River without a down payment.
    Throughout my transition period, no one told me that if I had been 
assigned a compensable disability rating, the VA funding fee would be 
waived on my mortgage application. Rather, I stumbled on this benefit 
while comparing on-line mortgage rates using a lender's on-line 
calculating tool. When I inquired of other retiring members if they 
knew or had been told of this benefit, no one had.
    Timing was not in my favor in that upon my retirement, I had to 
vacate government housing, yet my disability rating had not been 
determined and thus the funding fee was in place. Thankfully, I 
encountered a seller and real estate agent who were very patient and we 
deferred closing the loan for as long as we could. Ultimately, we 
closed on the house and rolled the $12,000 funding fee into our 
mortgage. Upon receipt of my compensable disability rating, I applied 
to the VA for a refund of the funding fee, which was approved and 
applied to the principle of my loan in a timely manner.
                         survivor benefit plan
    Being an enlisted member, I found myself living paycheck to 
paycheck for the bulk of my career. This made investment options very 
difficult. The Air Force Casualty Affairs representative at Elmendorf 
AFB was very helpful and informative in assisting my wife and I in the 
decision to enroll into the Survivor Benefit Plan. This decision had to 
be made at the most stressful and uncertain time we had ever 
encountered in our lives as we truly did not know where we would be 
living, what my employment would be or what our financial situation 
would look like. Having an open window at the two-year point to opt out 
of the plan made making this decision less risky. Ultimately, we 
decided to enroll and I am presently paying a monthly premium into the 
Survivor Benefit Plan. Knowing that my wife will receive some 
continuing benefit should I precede her in death brings great peace of 
mind to me.
                             death benefits
    The VA provided end of life care for my father through a terminal 
illness and into death. I saw first hand the care and comfort the VA 
provided to my mother during this difficult time and I rest well 
knowing that should my wife need the same help, the VA will be there.
                             life insurance
    I converted my Active Duty Serviceman's Group Life Insurance to the 
Veterans Group Life Insurance program. I am not a fan of term life 
insurance, however, the premiums are affordable and the term will allow 
me to be sufficiently covered while my children are still under our 
care. I would have preferred to make a similar contribution to a whole 
life policy during the course of my career, which I did with a private 
carrier.
                    joint federal travel regulation
    In my situation, my family chose to remain in Alaska for a number 
of reasons, mostly to allow my high school daughters to complete their 
schooling in the same high school where they started. My children 
endured frequent moves throughout their school experience and we chose 
to offer them some measure of stability at the end. Unfortunately, 
children school is not a qualifying reason to extend household goods 
shipment authority beyond one year after effective retirement date. I 
would like to see this changed in the JFTR.

    In closing, I again thank you for your efforts to take care of our 
Veterans and their families. I urge you to continue to support these 
programs that bring comfort and peace of mind to the small segment of 
our population that donned a uniform in selfless and untiring service 
to our great Nation.
    Thank You!

    Senator Begich. Thank you very much. Let me move down the 
panel. I'll have questions for each one of you afterwards.

STATEMENT OF RIC DAVIDGE, MPA, ALASKA STATE COUNCIL PRESIDENT, 
  VIETNAM VETERANS OF AMERICA; BOARD MEMBER, ALASKA DISABLED 
                   VETERANS BUSINESS ALLIANCE

    Mr. Davidge. Senator, first thing I'd like to point out, 
the Alaskan Congressional Delegation, including former Senator 
Ted Stevens, is the only State congressional delegation that 
unanimously supported advanced funding. Thank you. Most 
Alaskans don't know that. We are the only State delegation that 
unanimously supported advanced funding. The highest legislative 
priority funding for all nine national weapons service 
organizations over 5 years and we finally got it passed.
    One of the things that surprises me, and I shouldn't be 
surprised at my age, but having worked for Senator Stevens, 
having worked for President Reagan, having worked in 
Washington, DC, off and on for many, many years and now as an 
advocate for veterans in the State of Alaska, I'm constantly 
amazed at how Federal agencies disregard acts of Congress.
    As you know from my written testimony, I gave you some 
evidence of that, particularly with respect to service-disabled 
veteran-owned businesses and veteran-owned businesses. A law 
was passed in 1999, executive orders have been signed, 
directives have been issued, strategic plans are in place. It 
is not discretionary under existing strategic plans, executive 
orders, and hopefully the change in law that's being put 
forward by the House Veterans' Affairs Committee and we look 
forward to the Senate doing the same thing. It will no longer 
be discretionary to provide a 3 percent set-aside for service-
disabled veterans all for business and all Federal services. As 
you know we have a resolution in the State Legislature of 
Alaska calling for congressional oversight hearings in Alaska 
dealing with the refusal or inability of Federal agencies to 
meet that 3 percent set-aside goal. It's currently in House 
Rules. It should be on the House floor this week for passage, 
and we don't expect any negative votes. The bottom line is, 
Senator, the law is the law is the law is the law. And why 
Federal agencies seem to feel, quote, ``you know I just don't 
have time for this; it's just too much work; you know what I'd 
have to do to find service-disabled veterans who own businesses 
and qualify them to get them a procurement opportunity. I just 
don't have the time.'' Or ``I've been directed not to comply.''
    The only Federal agency in Alaska in our opinion--which I'm 
speaking on behalf of the Veterans Business Alliance and I have 
testimony from the president that I've provided to you, 
Senator--is the Corps of Engineers. The Corps of Engineers does 
a lot of work in Alaska; thank God for their efforts. The Air 
Force, no. The Army, no. The VA is making an effort nationally. 
They've met their requirement, not in this State. The Forest 
Service, the National Parks Service, all other Federal agencies 
in Alaska that were involved actively in doing things and 
spending money up here and issuing contracts, except for the 
Corps of Engineers, have effectively said that it's just not 
something that's important to them.
    Again, Congress passed a law; the President of the United 
States signed an executive order; there are strategic plans in 
place at every Federal agency. The only way, Senator, that you 
could ensure as a former Federal manager that these people will 
do what they're supposed to do under law is to put it in their 
evaluation criteria. If you have a senior Federal official that 
has procurement under their responsibility, and they are 
specifically evaluated based on their compliance on the 3 
percent set-aside, guess what, it will get done. Thank you.
    [The prepared statement of Mr. Davidge follows:]
  Prepared Statement of Ric Davidge, Chairman, National Committee on 
   Economic Opportunities, Vietnam Veterans of America; Alaska State 
Council President, VVA; and Member, Board of Directors, Alaska Veterans 
                           Business Alliance
    Mr. Chairman:

    ``It's just too much work.''
    ``First I have to find those guys, then I have to qualify them, and 
then I have to notify them of these opportunities.'' ``I just don't 
have the time.''
    Or how about: ``We've been directed not to follow Public Law 109-
461.''

    That is the attitude in almost every Federal agency approached by 
the Alaska Veterans Business Alliance over the past two plus years, 
even with Congressional staff in attendance. There are exceptions, and 
let me make those clear to you: The Army Corps of Engineers has made 
the effort and has met with success. Hoorah!

    <bullet> The US Forest Service? NO
    <bullet> How about the National Park Service? NO
    <bullet> The Veterans Administration? NO
    <bullet> The US Air Force? NO
    <bullet> The US Army? NO
    <bullet> And so it goes.

    Representatives of the Alaska Veterans Business Alliance 
accompanied by a staff member of our Congressman, in a meeting with the 
Alaska Contracting office of Veterans Affairs, then located in 
Anchorage, were told that they were directed not to follow Public Law 
109-461 which contracts out of the VA set-aside for SDVOB. Now the 
Veterans Affairs Contracting Office has moved out of Anchorage and all 
contracting is done in Seattle. Not easy for Alaskan SDVOB to meet 
with.
    We even have a state legislative joint resolution (HJR16) that 
passed the House without objection and is now under consideration in 
the Senate calling for Congress to hold joint committee oversight 
hearings in Alaska to ask the heads of each of these Federal agencies 
why? Why do Federal agencies in Alaska refuse to comply with the law, 
with the Executive Order, or even with their own regulations and agency 
specific strategic plans requiring conformance?
    The original law Public Law 106-50 passed in August 1999 allowed an 
easier opportunity for a Service-Disabled Veteran-Owned Company to go 
into business for themselves by bidding on Federal Contracts. Three 
percent (3%) of all federally Budgeted dollars are to be set-aside for 
SDVOB's. In October 2004 President Bush signed an Executive Order 
(E.O.) 13360 mandating that Federal Contracting Officers achieve the 3% 
``goal.'' To date this ``goal'' is no where near being met as the law 
intended for it to be--certainly not in Alaska.
    According to the Small Business Administration, of the 2008 goals 
and achievements out of a total of 24 Federal Agencies only 4 agencies 
were meeting or exceeding their ``goals.'' Meeting their goals were DOL 
at 4.34% for a SDVOB, VA had their goal up to 11.76% for a SDVOB, EPA 
had their goal up to 3.66% for a SDVOB, and GSA had their goal up to 
3.93% for a SDVOB.
    The embarrassment and slap in the face to all Veterans comes from 
their own of DOD. DOD had their goal at 1.00% which as adjusted and was 
1.04% for a SDVOB. These numbers reflect nation wide numbers--certainly 
not our Alaskan experience.
    Out of these 24 Federal Agencies there were a total of 92 Funding 
Departments that achieved a 1.4862% with a total of $6,450,206,999.20. 
These numbers are prime contracts, again according to the Small 
Business Administration's 2008 goals and achievements report.
    When it came to subcontracting opportunities for the SDVOBs, based 
on the SBA 2008 report, forty-four (44) reporting agencies (or funding 
departments) achieved only 0.9% of the 3% goal with a total of 
$2,250,720,437.00.
    It is time for both the House and Senate Small Business Committees 
to introduce legislation that:

    (1) Changes the language from ``may'' to ``shall'' in Public Law 
106-50
    (2) Provides enforcement to ensure that the 3% ``goal'' is being 
achieved by all Federal Agencies
    (3) And not just on a ``nationwide'' basis as the Contracting 
Officers are always saying, but specifically in Alaska.
    (4) If the agency can't meet their 3% goal then they should lose 
something--can we suggest putting achieving these goals in the 
standards for performance for all contract officers and other 
decisionmakers?

    The Senate Veterans' Affairs Committee also needs to introduce 
companion legislation that the House Veterans' Affairs Committee 
introduced last December to fix the Veterans Affairs Acquisition 
process and changes the wording from ``may'' to ``shall.'' H.R. 3719, 
H.R. 4220, and H.R. 4221.
    Veterans of Modern Warfare (VMWUSA) along with the Vietnam Veterans 
of America (VVA) are two Veteran Service Organizations Nationally 
standing together to make sure the laws for SDVOB work as they were 
intended by Congress back in 1999.
    If the Members of Congress want to get serious and get this done, 
they have to make compliance a part of the performance evaluation of 
every procurement officer and other key decisionmaker in the Federal 
Government. We also recommend it be part of the performance evaluation 
of every senior Federal administrator in every Federal agency 
responsible for procurement.

    It is an honor.

    Senator Begich. Thank you very much, Mr. Davidge.
    Gabriel Fierros, thank you for your service, too. I 
appreciate you being here today.

           STATEMENT OF GABRIEL FIERROS, OIF VETERAN

    Mr. Fierros. Thank you very much for inviting me to speak 
today. I'm just going to get right down to it. I joined the 
Army right after high school. I served 10 years and 9 months. 
During that time, I had four deployments. My first deployment 
was 6 months to Kosovo in March 2001; my second deployment was 
in support of OIF for 12 months starting in February 2003. I 
was injured for approximately 6 weeks due to a grenade blast, 
but remained in-country. My third deployment was in support of 
OIF for 4 months starting December 2004. My last deployment was 
also in support of OIF and was planned for 12 months starting 
October 2006.
    I was injured in April 2007, in a helicopter crash outside 
of Baghdad. Eventually I was transferred to Walter Reed for 
approximately 6 months for injuries to my left eye and 
treatment for a TBI. Then I was transferred to the Warrior 
Transition Brigade until my temporary medical retirement in May 
2009. Since the accident in April 2007, some of the continuous 
medical treatments I have received both at Walter Reed and Fort 
Richardson are speech therapy, occupational therapy, mental 
health, neurology, physical therapy, and ophthalmology. I 
started my medical proceedings in December 2008. If I had a 
choice, I probably would have stayed in for a full 20 years. 
But I was told by medical personnel that they would be 
initiating my med board because my medical condition was not 
improving.
    I received my disability rating from the Army of 70 
percent, and was unsure whether or not I wanted to get out. So, 
I applied for continuation on active duty. The application was 
lengthy, and it was taking way too long for the process, so in 
the long run I withdrew my application, decided to accept my 
medical board findings and retired temporarily. I filed for my 
VA compensation claim in May 2009 for 13 different service-
connected health problems. As of today I've been notified twice 
that my claim has been delayed for vague reasons. I have been 
told because I am under the old system, my claim will take 
longer to process. There are way too many delays and just as I 
think I've fulfilled my obligation, I am told that I have one 
more appointment, one more appointment, and one more 
appointment.
    In fact, soldiers that have retired after me on the new 
pilot program have already received both their VA and their 
Army claims at the same time. It's also very difficult to 
obtain accurate information about the VA claim process. When I 
started, I was not told of the long delays and tedious process. 
I feel that the best source of information regarding my claim 
process was older veterans. I found many veterans were very 
eager to give advice, recall their experiences, and recommend 
people that could help out. That's the end of my testimony.
    Senator Begich. Thank you very much, Mr. Fierros.
    Mr. Fierros. You're welcome.
    Senator Begich. Rich Owens.

   STATEMENT OF RICH OWENS, ALASKA STATE CHAIRMAN, NATIONAL 
    COMMITTEE FOR EMPLOYER SUPPORT OF THE GUARD AND RESERVE

    Mr. Owens. Thank you, Senator Begich, for this opportunity 
to address the Field Committee Hearing. As a State chairman, 
I'm very proud to represent the 40-plus volunteers spread 
across Alaska which compose the Alaska State ESGR Committee. 
Since ESGR interfaces with and has responsibility for both 
military air members as well as employers, I'd like to address 
three points today. First, the length and frequency of 
deployments have caused more stress by employers especially the 
small business owners which are the bulk of the employers of 
our soldiers. Many of these business owners who hired our 
reserve members are few and far between. Times have changed and 
the frequency and length of deployments may start to have a 
negative effect on hirability of reserve component members. The 
unstable job market is in difficult economic times and does not 
really have an answer. If the business goes under or is forced 
to downsize in order to survive, they legitimately may not have 
the ability to put reserve members returning from deployments 
back to work. This is not a reflection on the quality of our 
soldiers, but rather the grim reality that no one can say when 
we'll have enough growth in our economy to get all of our 
reserves back to work. The funding issues for our Alaska ESGR 
committee are not unique. I'm sure that other States are 
feeling the pinch as well. Where we are unique, however, is our 
geographic separation. Each of our four ESGR regional 
committees cover areas larger than most States. Only the 
Anchorage region can travel to most of its service area by 
road. The southwest region must travel by plane, boat, or snow 
machine; the southeast region by boat or plane; and the 
northern region by plane or car. It is difficult to train five 
major job positions within each committee when we only have 
funding to bring one or occasionally two volunteers to our 
steering committee meetings or State meetings.
    Not only does this make it difficult for them to perform 
their duties, but it also creates additional turnover when they 
get frustrated. What we do as volunteers is not hard once you 
have the training. Volunteers need to be confident in their 
position whether they're working with soldiers or employers. 
This confidence comes with training. The national ESGR office 
has been helpful in trying to accommodate our special needs. 
But with the tight budget we are now operating under, doing 
more with less will be the order of the day. Thank you.
    Senator Begich. Thank you very much, Mr. Owens. Thanks to 
all the panel for the diverse views on some of the work of the 
VA. I'm going to ask a few questions. First, Gabriel, if I can 
ask you a couple of questions. Your thoughts were very 
interesting to me regarding the time it took you to kind of go 
through the process and try to get back into the military, but 
that did not work out well because of the timeline. Can you 
describe that a little bit more to me? What happened at that--
--
    Mr. Fierros. At the initial time of my application for the 
coed, I had filled out the application, sent it in through my 
pueblo--it got down there pretty quick--but just seemed to 
stall once it got to the coed side of the Army. And it stalled 
and stalled while it was getting closer to my retirement date. 
So, I kind of panicked and withdrew my application. So, it was 
just a tedious process, so much waiting and waiting, and there 
wasn't really any answers as to why it was taking so long 
either. So----
    Senator Begich. Did you have communication with them--I 
mean, would you be calling them? Or how did you----
    Mr. Fierros. All my information came from the pueblo there 
on Fort Richardson; and he did a fine job of getting the 
information for me, though it seemed like he just wasn't 
getting the information either.
    Senator Begich. He wasn't going to?
    Mr. Fierros. Yeah. Something was going on there, but I'm 
not sure what.
    Senator Begich. In that process, is there a time table of 
response that they have to have it by, or do they have to 
respond to you by so many days?
    Mr. Fierros. I'm not too sure about that. I couldn't tell 
you.
    Senator Begich. Tell me, if you can, just on the claim 
process--I note that you had several related disabilities when 
you were going through the process. When they took action, were 
there some of those disabilities that they clearly had no 
question of and some they did or how did that work?
    Mr. Fierros. All of them shouldn't really be questioned. 
They're all documented through the military. They're in my 
medical records so I didn't see the reason why--sleep studies 
that I had already done before, you know, or neurology 
appointments that I go to every 3 months anyway, so--and 
there's a lot of repeats and a lot of stuff that--you know, I 
just recently got out, so I don't understand why there was such 
a need to send me back through all that. I understand they need 
their own information, but there is just--it's tedious on my 
part. I'm trying to--you know, support my family and I have to 
take off work to go, you know, to appointments all day long. I 
spend pretty much the 3 days that I have off--because I work a 
four/ten shift--going to appointments for the VA, for the Army. 
It's hard on family life.
    Senator Begich. When you said there are repetitives, some 
of the work that was already done already was happening or you 
already had certain tests, you already had certain medical 
documentation within your file; but you were applying for 
disability. There were requirements of additional visits, which 
were basically duplicates?
    Mr. Fierros. Yes.
    Senator Begich. Is that what you tought--they were 
duplicates?
    Mr. Fierros. Yeah, they were duplicating. Actually, more 
recently they signed me up for another sleep study and I told 
them, no, because I just actually had a checkup at the sleep 
study clinic--same thing they wanted but for some reason they 
were saying that it wouldn't work in the VA system.
    Senator Begich. Same study you already did?
    Mr. Fierros. Yeah, which it was done, you know, for the 
Army, not for the VA. I thought they were about sharing 
information, but I guess not.
    Senator Begich. I have a feeling the next panel will 
hopefully have a question or two from what you've just laid out 
to see how that works. Thank you, Gabriel, that was very good.
    Mr. Fierros. OK.
    Senator Begich. Ric, your testimony has all around good 
detail in some of the issues around the 3 percent set-aside. I 
mean, you're right about the Corps. I've seen some of their 
documentation. They do a pretty good job. We've talked multiple 
times on it. But what I'm reading in your testimony and hearing 
in your verbal testimony is that many of the departments are 
not fulfilling the 3 percent set-aside for disabled veterans in 
any form. They're just kind of putting the paper out there. So, 
how do you--I guess I'm asking you: How do you see it from your 
perspective? Are they trying to process--nothing really comes 
back, because of the way the process is set up, or they're not 
even trying that?
    Mr. Davidge. Let's take for example, the statement: How do 
I find these guys? Well, there's a list that's available on the 
Internet of over 300 service-disabled veteran-owned businesses 
in Alaska. But the procurement officer was unaware of that. We 
have legislation in Juneau now that deals with veterans 
preferences for veteran-owned businesses in Alaska--a 7 percent 
preference on State procurements. Our effort there is also to 
get a State registry, so that any State veteran-owned business 
that would want to apply for State procurement, which would 
include other additional points for Purple Heart disability, et 
cetera, et cetera, would be available on the Internet. The day-
to-day life of a procurement officer is an interesting 
experience. The bottom line is, in my opinion, and I think this 
is a shared opinion of the board of directors of the Veterans 
Business Alliance in Alaska, is that they have a relationship 
with certain contractors. They like that relationship. It's an 
easy relationship, and for them to find new contractors or 
subcontractors or partners, et cetera, is just a lot of work. 
The bottom line is they're not held to any accountability for 
not just effort, but for success. Now, we have a number of 
service-disabled veteran-owned businesses who have begun to 
have success, but it's in response to being rather nasty and 
getting in the face of certain managers to say, ``You just let 
out this contract; you let it out for the same guy. This is not 
a service-disabled veteran. They won't even sub with me. This 
is exactly what I do. I've been doing it for 5 years 
successfully up here. Why can't I get consideration?''
    My point is: If you don't put it in the performance 
evaluation, you have no hammer. Again, the House Veterans' 
Affairs Committee has two bills that will now, in the VA--
hopefully, another bill is being put together--do it 
nationally. The set-aside is not discretionary, it is 
mandatory. And even in those bills at your meetings with the 
Committee staff, they're looking at specific language requiring 
performance requirements for supervisors and procurement 
officers.
    Senator Begich. Should it--if I can add a comment--should 
it be not only the supervisor, but the division or the 
department as a unit?
    Mr. Davidge. Yes, any supervisor, any individual all the 
way up to a director of an agency that has procurement 
requirements under them should have this evaluation in their 
performance evaluation criteria. It should be written into 
their personnel contract.
    Senator Begich. Does the Association feel that it's readily 
available for you--I know the Corps did a pretty good job with 
the presentation to me on what they've done. I've not 
necessarily seen that from our agencies. This may be a pretty 
leading question: Is there a need for uniformity in how they 
report this? Doesn't seem like I see it, maybe you see it. 
Maybe I'm missing that.
    Mr. Davidge. Well, yes and no. When you look at 
procurements they're all different----
    Senator Begich. Sure.
    Mr. Davidge [continuing]. In many ways, particularly in 
Alaska.
    Senator Begich. I guess their percentage-- in other words, 
if they're actually reaching their target.
    Mr. Davidge. Some of them are exceeding their targets; the 
Corps of Engineers is a great example.
    Senator Begich. Yes, a great example.
    Mr. Davidge. As we like to say in management, certain 
organizations take on the corporate culture, unless that 
culture is shifted. People are beginning to see how difficult 
that is. One of the problems we faced when I worked for the 
Reagan Administration is taking management directives from 
members of the Cabinet down to the ground and actually getting 
those guys on the ground to actually do something. The only way 
to do that is to put it in their performance evaluation.
    Let me offer a comment with respect to our new veteran 
here. Let me say the VA clinic here is one of the best in the 
country. One of the problems we've seen is--which you have 
testimony from our nationally-accredited VSO--the VA, both in 
benefits and services is not in the habit of notifying the 
veteran's service officer who has filed a claim for that 
veteran. I have a son who is here in the audience today, 4 
years in Iraq, IEDs, et cetera, et cetera, et cetera, has brain 
problems. Getting him to make an appointment is a difficult 
problem. Not notifying the VSO when the VSO specifically 
requested to be notified so they can ensure that this veteran 
comes and attends those meetings would be a very good thing to 
do. There is no reason, given the agreement between the veteran 
and VSO with the power of attorney, that the VA cannot notify 
that VSO to help this veteran get to a meeting. It is not just 
veterans with mental problems or brain damage problems, it's 
veterans that are going through the transition of being a 
warrior to being a civilian.
    Senator Begich. Is there--if I can just stay on this with 
you, Ric. Is there one single thing to help fix this, that you 
believe could fix that problem, make that connection?
    Mr. Davidge. I think there is a very solid, easy way to get 
the VSO to help the new veteran get to their appointments, get 
their claims processed, et cetera. If you've got a veteran who 
has Traumatic Brain Injury who is not making a mental health 
appointment, there may be a reason other than the simple fact 
that they're not remembering it, but that should go for all 
veterans. When the veteran is notified of the appointment, the 
VSO should be notified of it. And if my VSO doesn't take care 
of that veteran, he's not going to be my VSO very long.
    Senator Begich. OK. Very good. Tim, I want to ask you, 
because you rated your experience pretty high in your 
relationship with at least transitioning. That's why we wanted 
this panel, so we could get a sense, a diverse viewpoint. Tell 
me now that you've gone through it, what made it easier for 
you? You rated it pretty high. You almost had a 10. It's pretty 
good. So, I'm trying to take from your perspective and 
Gabriel's over here, what did it, do for you to move through 
that system in an easier or faster fashion?
    Chief Carroll. It's hard to put a finger on exactly what 
would have made a difference. I was pretty aggressive in trying 
to understand the system myself.
    Senator Begich. Can I interrupt? When you say 
``aggressive,'' tell me what you mean by that. I know when I'm 
aggressive what it means, but everyone has a different 
perspective, please.
    Chief Carroll. I stayed on the phone; I stayed on the 
Internet; I was asking the questions of: What do I need to do 
to meet the timing? What are the things that I need to provide? 
What can I do? Be it printed, be it online, be it via the 
phone, I was a squeaky wheel trying to make sure that I was 
armed with the right information for what my responsibilities 
were. Even still, the reason it's not a 10 is that there are a 
couple of things that I didn't know. I'll tell you, the VA, the 
Transitional Assistance Program, the TAP, that's run through 
the military family readiness centers, is absolutely essential, 
I believe, to transiting or transitioning veterans. The VA 
representative who presented that briefing did a fantastic job 
of running down the litany of benefits of making sure that we 
were armed with what it was that we had available. Even still, 
there were things that I didn't get from there, and things 
that--I'll point to one specifically. The VA funding fee on 
home loans----
    Senator Begich. VA funding fees on home loans?
    Chief Carroll. On a home loan, correct, using the VA 
mortgage guaranty program. With a compensable disability, the 
VA funding fee, the upfront cash fee is waived. I think you 
know each time you use a VA loan the percentage goes up, up, 
up. With a compensable disability, that fee is waived. Nobody 
told me that. The only way I found it was I was doing some on-
line search for home loans and USAA, a great organization out 
there, takes good care of us, they have an on-line calculator. 
And one of the questions on their on-line calculator was 
compensable disability and I clicked ``no'' because I didn't 
know yet, and it showed the bottom line of what the mortgage 
was going to be. Just for the grins of it, I went back up and 
clicked ``yes'' to see what that would do, and it made a 
$12,000 difference in my mortgage. What is that all about? Then 
I went asking questions. No one told me that. I couldn't find 
that information anywhere, and I was looking pretty hard for 
things. I know someone will tell me, Tim, it was printed right 
there on the top line and you missed it. But, I'm telling you, 
I didn't know. I circled back to a lot of folks that were 
retiring at the same time and nobody knew that. I couldn't find 
anyone who knew that. Now, OK. That's one little thing, but 
that's an instant cash, instant effect. My mortgage, because we 
closed it, was $12,000 higher than it needed to be.
    Now to the VA's defense, once the disability rating was 
determined, I made application to the VA, and very timely, it 
was not slow-rolled by any stretch of any imagination, they 
refunded the funding fee and it went against my mortgage. So, 
instantly, we got some equity on our loan. So, the VA responded 
well to that piece once I made that application. However, I 
would not have even known it on the front end if not by 
accident.
    Senator Begich. Very good.
    Chief Carroll. I asked the questions of veteran services 
organizations who were very helpful. I used the American 
Legion, all of the service organizations were more than 
accommodating for outreach to try to help us. The VA was very 
good about making sure we knew what resources were available to 
us to help do it. I guess I'll throw it in here now. The 
downside, the unintended consequence, is when the VA is telling 
us to go to the service organizations to file our claim, when 
the VA tells us in virtually every written document that I've 
gotten that you can get a legal representative to represent 
you, it automatically creates an air of adversarial 
relationship. And, you know, hearing ``you can bring a gun to 
the fight if you want,'' tells me, well, what kind of fight is 
it that I need to bring a gun? What kind of fight is it that I 
need to have the service organization representing me? What 
kind of fight is it that I need to have a lawyer represent me? 
If the system is so cumbersome--which it is--that I need to 
have that kind of help, then there's something wrong with the 
system.
    Gabriel is a perfect example: the repeated proof and the 
repeated evidence that he has to provide over and over and over 
again for something that's painfully obvious, come on. Can't we 
skinny that down just a bit and make it not so burdensome that 
we have to have legal representation to get the rights and the 
benefits that we deserve?
    Senator Begich. Thank you very much. Before we bring on the 
next panel, I want to ask Ric: Is there something that we can 
do through our jobs efforts to make a difference in regards to 
making sure that those employers who are really pulling the 
weight here, making sure they rehire when soldiers come back? 
Is there something we can do within our jobs agenda that can 
help? It's a pretty broad question, but is there something that 
you sense would make a difference? One target?
    Mr. Owens. I think that, you know, the way they started to 
schedule the deployments, so you know further out, that 
definitely helps the employers to plan or to know in advance 
when their employees will be gone. But I think that for the 
small employer, by the time someone goes out for their second 
or third deployment, if you've only got three plumbers in your 
company and you pull one of them out, then by the third time 
you pull that one person out, it became, you know--they do it. 
I think the fact that within Alaska, if you look at the cases 
that we have and the situations that come up, 95 percent of the 
questions that we get are resolved with phone calls. They very 
seldom actually have to go to the Department of Labor or 
beyond. So the level of support is still there, but what I fear 
is that as business stretches out longer and longer--
subconsciously some of these employers, all things being 
equal--when someone comes in looking for work, they don't have 
to tell the business that they're in the Guard or Reserve in 
advance. But I think it's a small town and you know when 
someone is in the Guard or Reserve. Subconsciously they may 
have a bias against the soldiers, and it's not very apparent 
right now, but, I mean every now and then--more often now than 
when I started with ESGR, I hear a comment out there that's--
the predictability of deployments, you know, when it's going to 
happen, how long it's going to be. I don't want that to enter 
into, you know, the employability of the soldiers.
    Senator Begich. Right.
    Mr. Owens. And I think that, we realize that our budget for 
ESGR has been has been trimmed down considerably from when I 
started as well. So on one hand we've got a smaller budget, on 
the other hand the demand for ESGR services is tenfold.
    Senator Begich. Probably one of the peak times now?
    Mr. Owens. That's one of the things we're struggling with. 
When we pulled all of the soldiers out of western Alaska, we 
deployed a crew out there. He's got an Army out in western 
Alaska that he couldn't fly to, or float to, or snow machine 
to, but we can only bring one person in to train them for 
either ombudsman services or employer outreach, military 
outreach.
    Senator Begich. Very good. Thank you, Rich.
    Mr. Davidge. Senator, I have one quick thing I'd like to 
add.
    Senator Begich. Very quick.
    Mr. Davidge. I think it's time to look at how we use our 
National Guard and Reserves. We work with Guard and Reserve 
people that are coming back. This is not what they signed up 
for. That does not mean they shouldn't serve. I'm simply 
saying, when you sign up to be in the National Guard, you want 
to serve in your State or at least in your region, and the 
whole motivation of joining the Guard and being involved in 
that kind of thing is different than joining the active 
service. Our reliance on the Guard and Service Reserve, in my 
personal opinion and as a contact medic in Vietnam, is beyond 
the concept of how it was originally set up. Nationally we need 
to look at expanding active duty as opposed to relying on Guard 
and Reserve because we're destroying families; we're destroying 
economies, we're destroying businesses as an unintentional 
consequence to the way in which we're deploying those men and 
women.
    Senator Begich. Thank you very much, Ric. Thank you all 
very much for your testimony. Again, for the audience, if 
you're not familiar with field hearings, all of this enters 
into the Congressional Record. It helps us determine what 
efforts we should make for the veterans when we go back to 
Washington. So, again, to all four of you, thank you very much 
for your testimony and your participation today.
    Let's bring the next panel up. The next panel as they get 
up here, we're reminding folks that if you have additional 
questions or comments please utilize the document that we have 
available in the back at the table. Please feel free to fill 
out the comments. Again, we will have a roundtable in Wasilla. 
We will have a roundtable meeting in Fairbanks, and then we're 
going out to Kotzebue to hear from rural Alaskans about the 
delivery of jobs and health care. Please have a seat. I'm just 
biding time, that's what I'm doing as you get situated.
    Thank you very much. We're going to do a quick test on the 
mics. Let's try your table over here. Just talk into the mic to 
see how we're doing.
    [Pausing.]
    We have five panelists in this next panel. What we'll try 
to do--to the people in the audience, as you hear the testimony 
from this next panel you may have questions, individual 
comments, or information that you want to offer them. What 
we'll try to do is allow a little flexibility as we finish this 
hearing. There will be a couple of us that have to attend to 
other issues, but we ask that if you have questions on the way 
out of here these people can have conversations, but very 
limited because today is a field hearing. But, again, there is 
opportunity.
    Let me introduce the five panelists then we'll go right 
through the list. As I read these, it's not necessarily the 
order you'll be called. I just want to forewarn you.
    The Honorable Ray Jefferson, Assistant Secretary of Labor 
for Veterans' Employment and Training. Brigadier General Tom 
Katkus, Adjutant General, Alaska National Guard. Mark Bilosz, 
director, Anchorage Regional Office, Veterans Benefits 
Administration, Department of Veterans Affairs. You have a 
couple of folks accompanying you. Belinda Finn, Assistant 
Inspector General for Audits and Evaluations, Office of 
Inspector General, Department of Veterans Affairs. Jan Myers, 
Director, Family Programs, Alaska Department of Military and 
Veterans Affairs.
    The order will be, just so people will know and prepare 
mentally, the Honorable Ray Jefferson, then it will be Belinda 
Finn, Mark Bilosz, Brigadier General Katkus, and then Jan 
Myers.
    Let's start with Ray Jefferson. Again, thank you very much 
for attending and taking up my offer so fast. It was only a 
month and one-half ago when I ended by asking you to come to 
Alaska. I'm not sure what you expected. I think you picked the 
right week to be here.

STATEMENT OF HON. RAYMOND M. JEFFERSON, ASSISTANT SECRETARY OF 
 VETERANS' EMPLOYMENT AND TRAINING SERVICE, U.S. DEPARTMENT OF 
                             LABOR

    Secretary Jefferson. Aloha, Senator. Senator Begich, 
veterans, citizens of Alaska, members of the Anchorage 
community, I'm thrilled and honored to be here today. I call 
Hawaii home. This is my first time in Alaska. I'm really 
excited for being here this week and learning as much as I can. 
Let me talk about three things: Who we are, what we do, and how 
we're serving the veteran community in Alaska. Who we are? 
Myself a veteran served with the rangers and special forces, 
lost my hand to a grenade in the line of duty, went through the 
VA program and now I have the privilege of serving as your 
Assistant Secretary for Veterans and Employment.
    As an agency we have 240 people around America. Our mission 
essentially is that we proudly serve these men and women behind 
me today, these veterans and transitioning services members in 
America. We prepare them in their quest for meaningful careers, 
maximize their employment opportunities, and we protect their 
employment rights. We have five primary aspirations.
    The first is serving as a national focal point for 
veterans' employment. That involves ensuring we serve all 
communities with unique needs. Homeless veterans, women 
veterans, veterans in rural areas, veterans who have been 
wounded, ill, or injured, and veterans who are members of the 
National Guard and Reserve. We also want to increase awareness 
of access to and participation in our programs and to do what 
we're doing today, which is convening, collaborating, and 
communicating with all of our stakeholders. We work in 
partnership with Congress, sir, as you know, and also the 
Department of Defense, Veterans Affairs, private sector, 
nonprofits, the VSOs, ESGR, who is here today, as well, and 
other government agencies. So, what are some of the things that 
we're doing?
    In addition to serving as a national focal point, we also 
want to increase our second aspiration: Engagement with 
employers, particularly the private sector. We want to provide 
meaningful employment with particular emphasis on green jobs 
and find seamless transition for our transition services 
members.
    A fourth major aspiration is boosting the impact of USERRA, 
by increasing awareness of it and commitment to it.
    And the fifth is providing excellent service to our 
veterans and transitioning servicemembers. So, how will these 
five aspirations translate to what's happening on the ground 
here in Alaska? Let me start with one of our programs--jobs for 
veterans State grants. We have 2000 employment representatives 
around America; 13 of those are here in Alaska. Eight are 
accessible through the Anchorage and Fairbanks communities. 
Some of these employment representatives we call local veteran 
employment representatives and they connect veterans with 
employment opportunities. We also have disabled veteran 
outreach program specialists who provide intensive services to 
disabled veterans. With our homeless veteran integration 
program we have one standdown that we handle every year in 
Anchorage. We also want to do a much better job of serving our 
Native American veterans. Thus far we've met and convened a 
gathering of tribal leaders. We're launching and completing a 
study to identify best practices to serve Native American 
veterans and we're also going to major convening events of 
Native American tribal leaders and tribal veterans this year. 
What we want to learn from the Native American veterans is what 
they need and how we can do a better job serving them.
    USERRA, employment rights. Alaska has five to six 
complaints a year. There's tremendous support for the veteran 
community here. We want to make sure the process of submitting 
these complaints is more efficient and more effective; we're 
moving to an electronic case management system and we're 
implementing quality and process control measures there.
    Finally, the Transitional Assistance Program. In Alaska, we 
have about 60 employment workshops a year, and we have roughly 
1500 servicemembers who transition out of the military in 
Alaska each year as well. We have a two-and-a-half-day 
employment workshop and for the first time in 17 years we're 
going through a complete transformation. We want to make it 
more economically relevant, immediately useful, and engaging 
for participants. We're going to shift it from the current 268 
slide show PowerPoint presentation to something which is much 
more dynamic and high energy with higher quality facilitation; 
prepared templates so veterans don't need to restart their 
cover letter and resume every time they prepare one; life and 
career planning; resiliency training; stress reduction 
techniques; and also new best practice assessments. So let me 
conclude, sir----
    Senator Begich. You're sending that to Congress?
    Secretary Jefferson. Maybe we can do a demonstration 
project. [Laughter.]
    In conclusion, sir, I'd like to say this: We met last time 
on November 18. You invited me out to Alaska and I called your 
office the very next day. I don't want to assume that we're 
doing the right things in Washington. We're grateful and 
honored to be here with you this week to learn from you, to 
learn from the men and women seated behind me and also on this 
panel to make sure that we're asking the right questions, we're 
developing the best programs, and what we're doing is valuable 
and will provide veterans and transitioning servicemembers with 
the excellent service that they've earned and deserve. Thank 
you, sir.
    [The prepared statement of Secretary Jefferson follows:]
  Prepared Statement of Raymond M. Jefferson, Assistant Secretary for 
      Veterans' Employment and Training, U.S. Department of Labor
    Senator Begich and Distinguished Members, thank you for inviting me 
to appear before you today to discuss the employment assistance and 
outreach services provided to the Veterans in Alaska.
    The mission of the Veterans' Employment and Training Service (VETS) 
is to provide Veterans and transitioning Servicemembers with the 
resources and services to succeed in the workforce by maximizing their 
employment opportunities, protecting their employment rights, and 
meeting labor market demands with qualified Veterans.
    We accomplish our mission through three distinct functions: 1) 
conducting employment and training programs; 2) enforcing relevant 
Federal laws and regulations; and 3) providing transition assistance 
services.
                             vets' programs
    VETS administers a formula grant program to States that directly 
meets the goals of its mission. The Jobs for Veterans State Grants 
(JVSG) program funds two occupations, the Disabled Veterans Outreach 
Program specialist (DVOP) and the Local Veterans Employment 
Representatives (LVER). DVOP specialists provide outreach services, and 
intensive employment assistance to meet the employment needs of 
eligible Veterans. LVER staff conducts outreach to employers and 
engages in advocacy efforts with hiring executives to increase 
employment opportunities for Veterans, encourages the hiring of 
disabled Veterans, and generally assists Veterans to gain and retain 
employment. In Alaska, VETS funds six LVERs and seven DVOPs. Of these 
13 individuals, eight are accessible in Anchorage and Fairbanks.
    To meet the needs of homeless Veterans and help reintegrate them 
into the workforce, VETS administers the Homeless Veterans' 
Reintegration Program (HVRP). In Alaska, VETS sponsors one stand-down 
each year in Anchorage for homeless Veterans. The stand-down provides 
basic services, medical care, food and clothing for Alaska's homeless 
population. Veterans with significant barriers to employment or 
service-connected disabilities are also served through the Veterans' 
Workforce Investment Program (VWIP)--a focused and innovative training 
program that coordinates services available through other VETS 
administered programs.
    Both the homeless and workforce investment Veterans programs are 
funded through a competitive grant process. This year, for the first 
time ever, VETS will issue a Solicitation for Grant Applications (SGA) 
for homeless women Veterans. We also will soon issue an SGA to 
reinstitute the Incarcerated Veterans Transition Program (IVTP) to 
assist Veterans who will be transitioning back to society from 
incarceration. Additionally, we are in the process of developing an SGA 
for both HVRP and VWIP. Service providers for these deserving 
populations in Alaska are encouraged to apply for these competitive 
grants.
                        native american veterans
    To meet the needs of Native American Veterans, especially those on 
tribal lands, Secretary Solis hosted--and VETS participated in--a 
Summit of Tribal Leaders at the Department of Labor late last year. We 
discussed the challenges facing Native American Veterans and potential 
solutions. This event began the process of better serving this 
community. VETS will also participate in a number of major Native 
American outreach events in 2010. Furthermore, we are conducting a 
study on the employment needs of Native American Veterans living on 
tribal lands to identify best practices for serving this population.
                                 userra
    Our compliance programs investigate an average of five or six 
complaints per year filed by Veterans and other protected individuals 
in Alaska under the Uniformed Services Employment and Reemployment 
Rights Act (USERRA). We also assess complaints alleging violations of 
statutes requiring Veterans' Preference in Federal hiring, and 
implement and collect information regarding Veteran employment by 
Federal contractors.
    One of our commitments to Veterans is to increase awareness of 
USERRA, thereby increasing our ability to protect vulnerable 
populations. To improve USERRA's impact, VETS recently completed a 
Lean-Six-Sigma quality enhancement and process efficiency assessment of 
USERRA, with a view toward streamlining, improving quality, and 
increasing responsiveness to our Veteran clients. The goals of the 
assessment were to: 1) identify ways of ensuring a consistent, high 
standard of investigations; and 2) determine other steps to improve the 
program and its outcomes. We have begun work on identifying an 
electronic case management system to eliminate the paper-centric aspect 
of investigations and improve efficiency. Access to this system will be 
shared with our Federal enforcement partners. We are also working 
closely with the Office of Personnel Management (OPM) to ensure that 
the Federal Government serves as a role model for honoring USERRA.
                     transition assistance program
    VETS' transition assistance services are offered through the 
Transition Assistance Program (TAP), which provides employment 
workshops and direct services for separating military members, 
including those who are seriously wounded and injured.
    TAP is a Department of Defense (DOD) program that partners with the 
Department of Labor (DOL), the Department of Veterans Affairs (VA), and 
the Department of Homeland Security (DHS). TAP has four components:

    1. Pre-separation counseling--this is mandatory for all 
transitioning Servicemembers and is provided by the military services;
    2. TAP employment workshops--these are voluntary on the part of the 
transitioning Servicemember and are administered through DOL and its 
state partners;
    3. VA benefits briefing--these briefings are also voluntary and 
administered by the VA; and
    4. Disabled Transition Assistance Program--also voluntary and 
administered by the VA.
                        tap employment workshops
    Since 1991, when DOL began providing employment workshops pursuant 
to section 502 of the National Defense Authorization Act for Fiscal 
Year 1991 (P.L. 101-510), we have provided employment and job training 
assistance and other transitional services to more than one million 
separating and retiring military members and their spouses. DOL was 
further directed to provide these services at overseas locations by 
section 309 of the Veterans Benefits Act of 2003 (P.L. 108-183).
    VETS began facilitating TAP workshops at overseas military 
installations where, by previous interagency agreement, the DOD had 
provided TAP workshops since the program's inception. We are currently 
conducting TAP employment workshops at 55 sites overseas, including 
Germany, Japan, Italy, Korea, Guam and the United Kingdom. Our mission 
is to provide TAP at every location requested by the Armed Services or 
National Guard and Reserve Components.
    VETS provides employment search workshops based on projections made 
by each of the Armed Services and DHS, for the U.S. Coast Guard. DVOPs 
and LVERs are the primary source for TAP Employment Workshop 
facilitation stateside. However, because of the distance between many 
state employment offices and the military installations, as well as the 
rapid increase in Workshop participants, contract facilitators were 
added in early FY 1992 and supplemented by Federal staff in FY 1996. 
Alaska currently does not use contract facilitators.
    DOD recently set a goal for TAP Employment Workshop participation 
of 85 percent of separating servicemembers. Eighty-one percent of 
active-duty transitioning Servicemembers currently attend the DOL TAP 
employment workshops, a 30 percent increase in participation since 
2001. TAP employment workshop participation is expected to increase 
over the next year, and we plan to target workshop delivery to spouses 
and family members of separating Servicemembers, including those with 
limited English proficiency.
    VETS is committed to ensuring a consistently high level of 
instruction, service and quality for all Servicemembers and spouses 
attending TAP Employment Workshops. Therefore, VETS requires that all 
TAP facilitators receive training conducted by the National Veterans 
Training Institute (NVTI) at the University of Colorado in Denver. NVTI 
provides competency-based training to further develop and enhance the 
professional skills of Veterans' employment and training service 
providers throughout the United States.
    An Alaska DVOP or LVER representative attends each TAP workshop 
session here to discuss their respective roles and responsibilities in 
providing job search assistance. Since most transitioning 
Servicemembers return to some other state, this information is provided 
to help the Servicemember contact the DVOP and LVER representative in 
their respective states to assist them directly with their re-
integration into the local job market in their areas.
    Alaska averages more than 60 TAP employment workshops annually with 
approximately 1,500 transitioning Servicemembers in attendance. This 
includes about one work shop per quarter with the Coast Guard. There 
are four major TAP sites, encompassing all military service branches 
plus the U.S. Coast Guard with an additional four sites that vary in 
size and frequency according to need.
    National Guard and Reserve personnel in Alaska are informed that 
they can attend TAP for up to 180 days after they complete their active 
duty commitment. An individual DVOP or LVER can facilitate a TAP 
employment workshop, or they may do so as a unit.
    The Alaska DVET (Director of Veterans' Employment and Training) 
meets annually with the DVOPs and LVERs who facilitate the TAP 
employment workshops to discuss transitioning Servicemember's feedback 
and curriculum updates based on the input provided by these TAP 
recipients.
    In addition to presently reviewing TAP's performance and impact, we 
are also working to modernize the workshop, increase its effectiveness 
and improve participants' employment outcomes. Specifically, we want 
the content to be more economically relevant, immediately applicable, 
and engaging for participants. Thus far, we've solicited input from 
external content experts and service providers to help us determine 
what should be included in a best-practice employment transition 
program. We are working in close cooperation with our partners at DOD, 
the Department of Veterans Affairs (VA) and the Department of Homeland 
Security (DHS) in this endeavor.
    Late last year, our three agencies engaged in a weeklong working 
group to develop a joint, multi-year, strategic plan for TAP. We're all 
committed to ensuring the plan is action-oriented and will have a 
direct, positive impact on our transitioning Servicemembers. The plan 
will involve an increased emphasis on the employment needs of the 
Reserve components and Servicemembers who have been wounded or injured, 
or who are ill.
        reserve component and national guard employment workshop
    Global military commitments have necessitated a mobilization of 
Guard and Reserve members that is unprecedented in modern times. The 
longer mobilization periods result in these Servicemembers now being 
eligible for Veterans' benefits, including TAP. The employment workshop 
is available for Guard or Reserve Members, along with all other 
Servicemembers, at one of the 215 transition offices located on 
military installations in the United States as well as overseas 
locations.
    However, Reserve and National Guard members usually transition at 
fewer locations, referred to as demobilization sites. Typically the 
demobilization process is rapid, taking a matter of days once the 
Servicemembers arrive back in the United States from overseas. During 
demobilization, Servicemembers may be expected to participate in many 
separate briefings and activities. This leaves little or no time for a 
full two and one-half day employment workshop. Nevertheless, we have 
found that many National Guard and Reserve Servicemembers would benefit 
from such transition assistance. Our State Directors have coordinated 
with each State Adjutant General, and they work directly with the 
individual Reserve and National Guard commanders to make special 
arrangements following demobilization in order to present a modified 
TAP employment workshop to Guard and Reserve Servicemembers. Based on 
requests from Reserve Component Commanders or Adjutant Generals and 
through coordination with our VETS' state directors and local VA staff, 
VETS has offered to tailor the workshops to the identified needs of the 
transitioning Reserve and National Guard members.
    In fact, since 2001 VETS has provided transition services to over 
146,000 National Guard and Reservists. These transition services range 
in size and content from mobilization and demobilization briefings to 
the full-scale TAP employment workshops. They are provided in 43 states 
and the District of Columbia. In some states, National Guard and 
Reserve members have been allowed to attend the regular TAP for Active 
Component Servicemembers. The services provided to the National Guard 
and Reserve are tailored to the needs and requests made by DOD.
    To meet the transition needs of the National Guard and Reserves, in 
FY 2007, DOL directed the NVTI to develop a modular version of the TAP 
employment workshop. The traditional TAP employment workshop was turned 
into a 15-module menu from which Reserve and National Guard commanders 
may select relevant services for their unit members. This modular TAP 
menu includes a mandatory module that covers local labor market 
information, USERRA, the One-Stop Career Center system, small business 
opportunities, and the risks of homelessness. The other 14 modules 
consist of the current TAP employment workshop curriculum broken down 
into logical and connected blocks of instruction. This is not a new or 
separate curriculum for the Reserves and National Guard; rather it has 
been packaged to better serve this community.
    USERRA briefings are conducted upon request and through outreach by 
VETS' staff. This year, VETS already has provided TAP briefings and 
USERRA outreach to the State of Alaska Army and Air National Guard 
units, as well as Marine Corps Reserve.

    In closing, I again thank you for allowing me to address you today 
on this very important issue. I would be pleased to respond to any 
questions you may have.

    Senator Begich. Thank you very much. Again, we'll do the 
same routine. I'll ask each person who testified and then I'll 
come back with a list of questions. The next person on the 
panel is Belinda Finn. Let's move that mic. Thank you very 
much.
    Ms. Finn. Thank you. Can you hear me?
    Senator Begich. Yes.

 STATEMENT OF BELINDA J. FINN, ASSISTANT INSPECTOR GENERAL FOR 
   AUDITS AND EVALUATIONS, OFFICE OF INSPECTOR GENERAL, U.S. 
 DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY BRENT ARRONTE, 
 DIRECTOR, BENEFITS INSPECTIONS DIVISION, OFFICE OF AUDITS AND 
                          EVALUATIONS

    Ms. Finn. OK. Senator Begich, thank you for the opportunity 
to be here today to testify about our inspection of the VA 
Regional Office in Anchorage, AK. With me today is Mr. Brent 
Arronte, who is the Director of our Benefits Inspection 
Division. The Benefits Inspection Program is an initiative to 
ensure our Nation's veterans receive timely and accurate 
benefits and services. The OIG was scheduled to review all 57 
Regional Offices on a 5-year cycle. But we've recently began a 
hiring initiative that will allow us to review all of the 
offices in 3 years. During our inspections, we've reviewed 
functional areas and operational activities using five 
protocols that cover: claims processing; data integrity; 
management control; information security; and public contact. 
We report on our results as a snapshot in time for each era.
    In the summer of 2009 we conducted an inspection of the 
Anchorage office focusing on 14 operational activities and 
found that the office had issues in meeting standards for 13 of 
those areas. We concluded that the management team has 
challenges in the oversight of operational activities, 
improving insufficient network capacity to support business 
processes, providing training to staff, and managing an 
internal claims brokering process. We believe that two issues 
contributed to the challenges in management oversight at the 
office. First, the VARO did not have a veterans service center 
manager for approximately 8 months during fiscal year 2009, 
that position had been filled shortly before our visit. 
Additionally, the director of the office is actually located in 
Salt Lake City and manages from afar. Both of these positions 
are key in managing effective operations in the office.
    Also, as you report, as a result of the capacity issues, 
the employees had difficulty consistently accessing the 
computer applications they needed to perform their jobs. The 
employees told us this problem had been occurring for over a 
year. We also noted that the director was moving claims from 
Anchorage to offices in Fort Harrison, MT, and Salt Lake City, 
UT. This movement of claims made it difficult for the staff to 
manage the workload and associate mail with the corresponding 
claim folder. Because of this movement of work, we compared the 
staffing levels in Anchorage to the Boise VARO, and we found 
that the Boise office had 22 additional full-time employees for 
a comparable inventory of rating and nonrating claims. We 
recommended that the director improve oversight of the quality 
assurance process, develop a mail routing guide to ensure 
proper mail processing, research the causes and solutions to 
improve network capacity issues, and provide additional 
training to staff. The director concurred with all of our 
recommendations, and provided responsive comments and action 
plans.
    Thank you, again, Senator, for the opportunity to be here 
today. Mr. Arronte and I would be pleased to answer any 
questions.
    [The prepared statement of Ms. Finn follows:]
Prepared Statement of Belinda J. Finn, Assistant Inspector General for 
Audits and Evaluations, Office of Inspector General, U.S. Department of 
                            Veterans Affairs
    Senator Begich, thank you for the opportunity to testify today on 
the Office of Inspector General (OIG) report, Inspection of the VA 
Regional Office, Anchorage, Alaska. I am accompanied by Mr. Brent 
Arronte, Director, Benefits Inspection Division, Office of Inspector 
General, Department of Veterans Affairs.
                               background
    The Benefits Inspection Program is a new OIG initiative to ensure 
our Nation's veterans receive timely and accurate benefits and 
services. The Benefits Inspection Division contributes to the 
improvement and management of benefits processing activities and 
veteran services by conducting onsite inspections at VA Regional 
Offices (VAROs).
    Under the current organizational structure, the Benefits Inspection 
Division, consisting of two teams, will complete a review of all 57 
VAROs during a 5-year cycle, performing 12 inspections annually. The 
OIG recently implemented a new hiring initiative to create a second 
Benefits Inspection Division. Tentatively, this new division will be 
operational by the end FY 2010. This initiative would allow the OIG to 
complete a review of all VAROs within a 3-year period.
    For each inspection, we issue a report describing VARO performance 
as measured against current VBA and VA policy. The scope of our 
inspections allows for a narrow review of work performed at each office 
and our reports represent a ``snapshot'' in time. Currently, we perform 
our reviews using five protocols focused on distinct functional areas 
and specific operational activities within the VARO. The protocols are 
claims processing, data integrity, management controls, information 
security, and public contact. We designed these protocols based on a 
risk analysis of previous OIG national audits and Combined Assessment 
Reviews, VBA's Compensation and Pension Site Visit reports, Government 
Accountability Office (GAO) reports, and information provided by the 
Senate and House Veterans' Affairs Committees. Our plan is to review 
the protocol areas annually to identify new high-risk areas and adjust 
as necessary.
                         anchorage varo results
    In late July and early August 2009, we conducted onsite work at the 
Anchorage VARO. Our inspection focused on the following 14 operational 
activities within the 5 protocol areas:

    <bullet> Processing of disability claims for specific service-
related conditions--Post Traumatic Stress Disorder, Traumatic Brain 
Injury, diabetes and disabilities related to herbicide exposure, and 
Haas claims. A Haas claim is a claim affected by a U.S. Court of 
Appeals for Veterans Claims decision that involves veterans who served 
in waters off Vietnam but did not set foot in Vietnam and whether those 
veterans are entitled to the presumption of service connection to 
herbicide agents.
    <bullet> Integrity of VBA's Claims Management Data--Establishing 
correct dates of claim and properly tracking veteran's claims folder 
using VBA's Control of Veterans Records (COVERS) database.
    <bullet> Management Controls over Claims Processing--Systematic 
analysis of operations (SAO), a management driven analysis of key 
business activities designed to identify existing or potential 
problems; systematic technical accuracy review (STAR), an integral part 
of VBA's quality assurance program designed to measure VARO performance 
in processing claims; and accountability for VARO date stamps and usage 
of the claims process improvement business model. This business model 
requires employees to rotate between the different teams within the 
VARO to maintain skills required to process claims.
    <bullet> Security of Veterans' Information--Mail handling 
procedures and controls for the safeguarding of veterans documents to 
prevent unauthorized destruction
    <bullet> VARO Public Contact Functions--Inquiry Routing and 
Information System (IRIS), VA's internet based public message system 
that allows beneficiaries a means to communicate with VA 
electronically.

    During our visit, we interviewed the VARO Director, Veterans 
Service Center Manager (VSCM), supervisors, and employees responsible 
for processing claims and providing benefit services to veterans and 
their dependents. We reported the Anchorage VARO management team faces 
challenges in providing benefits and services to veterans. These 
challenges include addressing oversight of operational activities, 
improving insufficient network capacity to support business processes, 
providing training to staff, and managing an internal claims brokering 
process. The VARO did not meet VBA's standards for 13 of the 14 
operational areas inspected.
    Our analysis of disability claims processing revealed a 29 percent 
error rate at the Anchorage VARO. The error rate represents our 
analysis of 78 disability claims and not the entire caseload of the 
VARO. Of the 78 claims reviewed, processing errors occurred in 23 
claims, of which only three errors directly affected veterans' 
benefits. The VARO underpaid two veterans, one for $288 and one for 
$4,758. The other error did not involve monetary benefits. The majority 
of processing errors involved claims for PTSD and Haas claims. These 
errors occurred because of a lack of training for Rating Veterans 
Service Representatives (RVSR) responsible for making disability 
determinations.
    Of those 13 operational areas that did not meet VBA standards, 9 
occurred because of a lack of management oversight. These areas were: 
tracking veterans claims folders, establishing the correct dates of 
claim, correcting errors identified by VBA's STAR quality assurance 
program, completing SAOs, safeguarding VARO date stamps, safeguarding 
veteran's personally identifiable information (PII), properly handling 
claims related mail, responding to electronic inquiries submitted by 
veterans, and, responding to congressional inquiries.
    For approximately 8-months during FY 2009, the VARO had no manager 
for its Veterans' Service Center, a key management position affecting 
many operational areas in the Anchorage VARO. Further, the VARO 
Director geographically residing in Salt Lake City may have also 
attributed to diminished oversight. For example, the Director could not 
observe the effectiveness of SAO recommendations designed to improve 
station performance and delays in implementing several SAOs occurred 
while waiting for the Director in Salt Lake City to approve the plan.
    In addition to the 14 operational areas inspected, we identified 
serious concerns regarding network capacity to support current business 
processes. Employees reported difficulty maintaining consistent access 
to certain VBA applications required to perform their jobs. These 
difficulties included applications being unresponsive and the need for 
employees to restart their computers several times a day. The employees 
informed us this problem had already existed for over one year. We 
estimated the Anchorage VARO might lose 7.5 productive hours per rating 
specialist a month due to network capacity problems.
    The VARO Director implemented an internal brokering plan that moves 
rating-related claims between Anchorage, AK, Ft. Harrison, MT, and Salt 
Lake City, UT. VBA normally brokers work between VAROs because of 
insufficient resources to process certain types of work. The Anchorage 
VSCM informed us it is difficult to create a workload management plan 
and to control the workload of pending claims brokered to other VAROs. 
A supervisor from the Anchorage VARO indicated brokering impacts mail 
handling procedures and it is difficult to associate claims related 
mail with claims folder located at other VAROs. Currently, the OIG is 
performing a national audit to determine the effectiveness of claims 
brokering across all VBA regional offices.
    Because the Anchorage VARO was moving so much work to other VARO's, 
we compared staffing levels between the Anchorage VARO and the Boise 
VARO to determine if the staffing level was commensurate with similar 
VARO's. Our analysis revealed the Boise VARO has 22 additional full-
time employees while maintaining a comparable inventory of rating and 
non-rating claims. We based this comparison on the total number of 
actual claims pending in each office. We believe this provides the best 
comparison of actual workload, rather than the number of veterans who 
reside in each state or those veterans who might file claims.
    The Benefits Inspection Division completed 6 VARO inspections 
during FY 2009. A comparison of the percentage of claims processing 
errors revealed the highest error rate occurred at the San Juan, PR 
VARO, (41 percent), followed by Anchorage, AK (29 percent), Roanoke, VA 
(25 percent) Baltimore, MD (20 percent), Nashville, TN (19 percent) and 
Wilmington, DE (11 percent). These error rates represent our analysis 
of a sample of disability claims and not the entire caseload at each 
VARO. None of the VAROs inspected complied with 100 percent of the 
operational areas we reviewed. The Baltimore office had the highest 
rate of non-compliance with VBA standards followed by Anchorage, San 
Juan, Nashville, Wilmington, and Roanoke.
    We recommended the Director improve oversight of the quality 
assurance process for several of the operational areas that did not 
meet standards, develop a mail routing guide to ensure proper 
processing of mail, research the cause and solutions to improve network 
capacity issues, and train staff to maintain required skills. The VARO 
Director concurred with all of the OIG's recommendations in the 
inspection report.
                                summary
    Although our inspection found the Anchorage VARO management team 
faces many challenges in providing benefits and services to veterans, 
we believe the Director's comments to our recommendations are 
responsive. The Benefits Inspection Division has not performed any 
follow-up regarding the implementation of these recommendations at this 
time.

    Senator Begich, thank you for the opportunity to testify here 
today. Mr. Arronte and I would be pleased to answer any questions that 
you may have.

    Senator Begich. Thank you very much. Let me ask Mark 
Bilosz, Anchorage Regional Office, VA Benefits Administration, 
Department of Veterans Affairs to testify next.

   STATEMENT OF MARK M. BILOSZ, DIRECTOR, ANCHORAGE REGIONAL 
 OFFICE, VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF 
VETERANS AFFAIRS; ACCOMPANIED BY WILLIE C. CLARK. SR., WESTERN 
  AREA DIRECTOR; AND PATRICK KELLEY, VETERANS SERVICE CENTER 
               MANAGER, ANCHORAGE REGIONAL OFFICE

    Mr. Bilosz. Thank you, Senator. Senator Begich, it is my 
pleasure to be here today to discuss our efforts in meeting the 
needs of veterans residing in Alaska. I will discuss important 
benefits and services provided to veterans living in Alaska as 
well as discuss concerns about the Anchorage Regional Office, 
addressed in the recent VA Office of Inspector General report. 
The Anchorage Regional Office administers the following 
benefits and services: disability compensation; pension 
benefits; vocational rehabilitation and employment assistance; 
and outreach for all veterans and survivor benefits. Our goal 
is to deliver these benefits and services in a timely, 
accurate, and compassionate manner. This is accomplished 
through the administration of a comprehensive and diverse 
benefits program.
    Currently a total of 34 employees work in the Veterans 
Services Center and seven employees work in the vocational 
rehabilitation and employment division within the Regional 
Office. Employees at the Anchorage Regional Office are very 
motivated and provide excellent service to Alaska veterans. 
Performance indicators revealed that the Anchorage Regional 
Office is performing much better than it has in the past, 
completing a greater number of claims each month while 
improving its accuracy. As the out-based director of the 
Anchorage Regional Office, I visit the Anchorage office at 
least quarterly and often more than that. I have also daily 
discussions with division management to maintain an open line 
of communication and provide direction and oversight. A new VHA 
clinic is scheduled to open in May 2010 and VBA has secured 
space at the new site. Anchorage Regional Office is looking 
forward to moving into this new space as it will provide us 
with improved working space. In June 2009 a new Veterans 
Service Center Manager reported to duty at Anchorage. The 
Veterans Service Center Manager position was vacant for 
approximately 8 months. This position was vacant due to the 
difficult task of recruiting an experienced individual to the 
Anchorage area.
    Additionally, the Anchorage Regional Office has recruited 
and hired two new supervisors. The appointment of the new 
supervisors has had a positive impact on the overall management 
and performance of the office this fiscal year.
    For example, rating inventory has trended in a positive 
direction every month this year. Compared to December of last 
year, the Anchorage RO completed 226 more claims this year, 
showing an increase of about 16 percent. In addition, rating 
and authorization quality have both shown improvement.
    In fact, due to the focus on internal training within our 
office, rating quality at the Anchorage RO exceeds the national 
average. The Anchorage vocational rehabilitation and employment 
division is one of the top performing divisions in the Nation. 
It was identified as a top performer in fiscal year 2009 with a 
VA Level II Performance Award.
    In addition to providing improvements in quality, the 
management team has successfully implemented several policies 
pertaining to the workload that I would like to highlight: a 
policy for the timely corrective action of errors identified by 
the VBA; and a national quality review program was implemented. 
A policy outlining control and tracking of claims folder was 
implemented. This policy provides for better control of the 
location of the claims folders. The management team implemented 
a consistent local quality review process to complete timely 
quality assurance reviews that ensure veterans' service 
representatives are establishing direct data claims. A most 
recent review completed in January showed only a 1 percent 
error rate. As VBA has an ethical and legal responsibility to 
maintain adequate controls over all date stamps throughout our 
facilities, two new electronic date stamps with locking devices 
are now in place and both stamps remain in secure locations. 
The Veterans Service Center also has taken action to more 
efficiently safeguard veterans' personal identifiable 
information. All employees will receive training on the proper 
safeguard and destruction of materials, desk inspections of 
work stations and common areas are performed regularly.
    In September 2009 a new work flow plan was implemented to 
ensure Veterans Service Center staff would properly control and 
process all mail. To ensure Congressional inquiries are 
processed in a timely and accurate manner, a new policy for 
handling Congressional correspondence was implemented in 
November 2009. Our goal is to complete Congressional inquiries 
within 5 days. So far this fiscal year we're under that goal at 
4.3 days.
    The VA Office of Inspector General conducted an inspection 
of the Anchorage Regional Office during the summer of 2009. The 
OIG report recommended 12 areas of improvement. Action has been 
taken to correct the deficiencies as identified by the OIG. 
Those items have been addressed in my oral and written 
testimony that you've received today. With the help of OIG 
report findings, specific shortfalls of the Anchorage Regional 
Office have been identified and action plans are in place.
    The VA senior leadership is committed to providing the 
necessary resources, funding and employees and facilities to 
the Anchorage Regional Office which were the best possible 
services provided to the Alaskan veterans and their families. 
I'm fully committed to continue to improve claims processing in 
Alaska, Mr. Chairman.
    This concludes my testimony. I greatly appreciate being 
here today and I look forward to answering any of your 
questions.
    [The prepared statement of Mr. Bilosz follows:]
 Prepared Statement of Mark M. Bilosz, Director, Anchorage VA Regional 
 Office, Veterans Benefits Administration, U.S. Department of Veterans 
                                Affairs
    Senator Begich and Members of the Committee, it is my pleasure to 
be here today to discuss our efforts in meeting the needs of Veterans 
residing in Alaska.
    The Anchorage Regional Office (RO) serves Veterans throughout the 
state. We also provide outreach services to Veterans in Fairbanks, Fort 
Wainwright, Fort Richardson, Elmendorf Air Force Base, and Eielson Air 
Force Base.
    The Anchorage RO administers the following benefits and services:

    <bullet> Disability compensation and pension for Veterans and 
dependents;
    <bullet> Vocational rehabilitation and employment (VR&E) 
assistance; and,
    <bullet> Outreach for all Veteran and survivor benefits.

    Our goal is to deliver these comprehensive and diverse benefits and 
services in a timely, accurate, and compassionate manner.
    The Anchorage RO is responsible for delivering non-medical VA 
benefits and services to over 76,400 Veterans and their families in 
Alaska. Approximately 14,000 of these Veterans receive disability 
compensation. In fiscal year 2009, the Anchorage RO completed more than 
2,100 decisions on Veterans' disability claims.
    The Denver Regional Loan Center (RLC) administers VA home loan 
services to Alaska Veterans. Alaska Veterans are served by a full time 
RLC employee who is stationed at the Anchorage RO. Most Native lands 
are leasehold estates, which qualify for VA's guaranteed loan program. 
VA has guaranteed 65,575 home loans in Alaska with a cumulative loan 
amount of over $9 billion.
                                staffing
    The Anchorage RO hired five employees as a result of the American 
Recovery and Reinvestment Act. The employees are making direct 
contributions to improving claims processing by assisting with 
development of claims and mail processing. Currently, 34 employees work 
in the Veterans Service Center (VSC) and 7 employees work in VR&E.
    Employees at the Anchorage RO are very motivated and provide 
excellent service to Alaska Veterans. Performance measures indicate 
that the Anchorage RO is performing well, completing a greater number 
of claims each month while improving accuracy.
                            management team
    As the out-based Director of the Anchorage RO, I visit Anchorage at 
least quarterly and hold weekly videoconference calls with division 
management to maintain open lines of communication. In addition, I hold 
a weekly conference call with the Veterans Service Center Manager 
(VSCM) to provide direction and oversight. I also communicate regularly 
with the Anchorage VA Medical Center Director, as the Anchorage RO is 
currently co-located with the Medical Center.
    A new VA clinic is scheduled to open in May 2010, and the Veterans 
Benefits Administration has secured space at the new site. The 
Anchorage RO is looking forward to moving into this new space as it 
will allow VSOs and all claims files to be located in the RO. The new 
facility will also include a large training room.
    In June 2009, a new VSCM reported for duty in Anchorage. The VSCM 
position was vacant for approximately eight months due to the 
sometimes-difficult task of finding an individual with the right 
leadership and managerial skills to fit the position. Many times 
relocating an employee and his/her family to Alaska is difficult.
    Additionally, the Anchorage RO recruited and hired two new 
supervisors. The appointment of the new supervisors has had a positive 
impact on the overall management and performance of the office this 
fiscal year.
    For example, rating inventory has trended in a positive direction 
every month this year. Compared to December of last year, the Anchorage 
RO completed 226 more claims this year, an increase of 16 percent. In 
addition, rating and authorization quality have both improved. Rating 
quality at the Anchorage RO exceeds the national average.
    A new training plan was developed and implemented in September 
2009. Rating Veteran Service Representatives (RVSRs) receive weekly 
training from the Decision Review Officer. Training topics are aimed at 
eliminating the errors found during various reviews. All RVSRs attend 
the monthly Systematic Technical Accuracy Review calls to discuss 
commonly found errors and to prevent future errors.
    The Anchorage RO's VR&E division is one of the top performing 
divisions in the Nation. Identified as a top performer in fiscal year 
2009, the VR&E division was awarded Level II performance award.
                            outreach efforts
    Our employees conduct an average of 580 personal interviews per 
month, and last year conducted 47 Transitional Assistance Program (TAP) 
briefings for 1,078 servicemembers. VR&E personnel provide monthly DTAP 
briefings at Elmendorf Air Force Base and Fort Wainwright.
    The Anchorage RO conducted two significant rural outreach 
initiatives in 2009. In February and March, the RO participated jointly 
with the Alaska VA Health Care System to offer Alaska VA Education 
Forums. Teams traveled to Kotzebue, Fairbanks, Nome, Dillingham, 
Ketchikan, Juneau, and Sitka to provide benefits information and 
counseling to Veterans and medical providers.
    We also participated in two Homeless Standdowns at Fort Richardson 
and in Fairbanks in August 2009. An RO representative provided 
information and VA benefits counseling at these events. Earlier this 
month, a Standdown was held to introduce Veterans to the VA Domiciliary 
facility in Anchorage.
    In October 2009, the Anchorage RO teamed with the Medical Center to 
staff an information booth for 500 Veterans and family members via the 
Alaska Federation of Natives (AFN). AFN is the largest statewide Native 
organization in Alaska. Its membership includes 178 villages (both 
federally-recognized tribes and village corporations), 13 regional 
Native corporations and 12 regional nonprofit and tribal consortiums 
that contract and run Federal and state programs.
    As of December 31, 2009, 134 servicemembers were participating in 
the DOD/VA Disability Evaluation System Pilot at Ft. Wainwright, Ft. 
Richardson, and Elmendorf AFB. This pilot is instrumental in 
streamlining disability processing for separating servicemembers.
                    improvements in service delivery
    The new management team successfully implemented several new 
workload management and quality assurance policies and procedures.
    A policy for the timely corrective action of errors identified by 
VBA's Systematic Technical Accuracy Review Staff was implemented in 
November 2009. The VSCM tracks all errors and corrective actions. A 
review process was established to ensure Veterans Service 
Representatives (VSRs) correctly enter claims data into our processing 
systems. Refresher training was provided to all claims assistants and 
VSRs. Weekly training is held on scheduled topics and errors identified 
in quality reviews.
    A policy outlining the use of COVERS, VBA's system to control and 
track claims folders, was also implemented in November. This policy 
requires claims folders to be ``COVERed'' every Monday and also 
requires supervisors to perform weekly spot checks.
    Systematic Analyses of Operations (SAOs) are now completed 
accurately and timely. A tracking mechanism is in place to monitor the 
status of required SAOs and training on SAO writing techniques was 
provided.
    The VSC has also taken action to more efficiently safeguard 
Veterans personally identifiable information. All employees received 
training from the Records Management Officer in August 2009 on the 
proper safeguard and destruction of materials. Inspections of 
workstations and common areas are performed regularly. Two new 
electronic date stamps, with locking devices, are now in secure 
locations.
    In September 2009, the Triage Workflow Plan was implemented to 
include a mail routing guide to ensure VSC staff properly control and 
process the mail. The Triage Coach provides the VSCM with a monthly 
summary of all mail actions as well as any required follow-up actions. 
Triage training is conducted every Thursday to ensure the workflow plan 
is being properly implemented.
    An Inquiry Routing and Information System (IRIS) Quality Review 
Policy was implemented in November 2009 to improve quality assurance 
reviews. The IRIS system is the electronic method Veterans use to 
communicate with VA. The Public Contact supervisor reviews a minimum of 
five IRIS responses per employee every month. The supervisor also 
discusses errors during weekly training sessions with individual 
employees to ensure the highest level of quality and accuracy is 
maintained.
    To ensure Congressional inquiries are processed in a timely and 
accurate manner, a new policy for handling Congressional correspondence 
was implemented in November 2009. The Public Contact Team maintains a 
log of all Congressional correspondence where inquiries are annotated 
within one day and assigned to an employee to review and complete. The 
individual receiving the assignment has two working days to present a 
response for approval by the VSCM. Our goal is to complete 
Congressional inquiries within five days.
    The Anchorage RO reports the results of internal brokering to VBA 
leadership monthly. The Western Area Office is informed monthly of any 
transfers of work. Brokering claims, or sending claims to another RO, 
is done to provide better service to our Veterans. Brokering is a 
short-term strategy to assist ROs with workflow challenges.
                 va office of inspector general report
    The VA Office of Inspector General (OIG) conducted a review of the 
Anchorage RO from July 28, 2009 to August 6, 2009. The five areas 
examined were disability claims processing, data integrity, management 
controls, information security, and public contact. The OIG report 
recommended 12 areas of improvement. Action has been taken to correct 
the deficiencies identified by the OIG.
    The Western Area Director and staff conducted an on-site review of 
the Anchorage RO from January 6, 2010 to January 7, 2010. A major part 
of this visit was to evaluate compliance with the OIG's 
recommendations. All action plans implemented in response to the OIG's 
recommendations were reviewed for compliance and effectiveness. The 
Western Area Director found the Anchorage RO had implemented the 
required actions to be fully compliant with all 12 of the OIG 
recommendations.
                               conclusion
    VA leadership and the employees of the Anchorage RO are committed 
to ensuring the best possible service is provided to Alaska Veterans 
and their families. Mr. Chairman, this concludes my testimony. I 
greatly appreciate being here today and look forward to answering your 
questions.

    Senator Begich. Thank you very much. I know you have two 
individuals with you also. We'd like to introduce them. Willie 
Clark, who is the Western Area Director, and Patrick Kelley, 
Veterans Service Manager for the Anchorage Regional Office. 
Thank you for being here. I will have some questions, though 
now I'd like to now introduce, Brigadier General Tom Katkus.
    General Katkus. Good morning, Senator.
    Senator Begich. If I can make one comment to all Alaskans. 
You should be very proud of the Brigadier General. He was there 
in Washington, DC, last week with the snow as deep as can be, 
but he kept his appointments with his team. I thank you for 
that.

          STATEMENT OF BRIGADIER GENERAL TOM KATKUS, 
            ADJUTANT GENERAL, ALASKA NATIONAL GUARD

    General Katkus. Senator, I have more snow in my front yard 
at home.
    Senator, I'm a member of an organization, a very proud 
privileged position that takes a holistic view of its 
membership. We have programs in place to mentor and develop 
young children and young adults into the military. We take care 
of our military members through paid compensation training, and 
then we take care of those veterans who leave the organization 
through retirements, national cemeteries, et cetera. What I'd 
like to report on is one particular portion that was very small 
but has been a very intricate part of Alaska, and that's the 
Alaska Territorial Guard. They didn't fit too many molds out 
there and through a great deal of effort I'd like to report a 
very positive development. As of February 1 the Federal 
Government reinstated all of the ATG members' retirement 
benefits. There was a lot of bureaucratic process to get this 
accomplished. There's been a great deal of confusion about how 
the ATG veterans were credited with this act of service that 
they performed between 1942 and 1947. Each member that received 
his discharge was credited with 5 years again of active Federal 
service. And these 5 years have a monetary impact on veterans 
only if they served in the National Guard or active duty for 15 
or more years and this 5 years of Alaska Territorial Guard time 
made them eligible for a Federal retirement.
    The State of Alaska does not consider the 5 years of active 
Federal service toward the Alaska National Guard State Annuity 
unless this provides the veteran enough credit for the National 
Guard retirement. Of roughly 6,500 members of Alaska 
Territorial Guard between 1942 and 1947, we have received 1,592 
discharge applications from veterans or family members. Of that 
number, 1,057 ATG discharges have been received from the U.S. 
Army. We have over 72 charges that are pending certification by 
the Army Personnel Center. We had 149 discharges of the 163 
living Alaska Territorial members that we've identified. Of 
those, six applications are pending certification in St. Louis 
and eight have not applied as of this time. Our plan is to 
continue presenting these discharges at ceremonies in each 
member's community. In 2009, we had posted over 20 such 
ceremonies in villages throughout Alaska. There are currently 
22 ATG members eligible for military retirement. They each 
spent 20-plus years of active military service with additional 
ATG time that we've managed to credit. That now is calculated 
into their retirement check and adjusted accordingly by the 
defense accounting system. We're continuing our research to 
find other members who now qualify for retirement as a result 
of this act of Federal service. We have found four new ATG 
members eligible. Three will be receiving or have received 
their check on 1 February and the fourth will be receiving his 
check March 1. Another benefit of this investigation into the 
ATG: along with retirements from service, survivors' benefits 
are awarded to widows of those members.
    We've worked hard to dig through the military personnel 
records and found that there were ATG members that had 15 years 
of National Guard service. As a result of this search, we've 
identified 32 spouses that might receive survivor benefit 
payments now. As of 27 January, all 32 packages have been sent 
to the auditors at St. Louis. They'll go through to make sure 
that all time is calculated properly, and those spouses who are 
eligible will start receiving the monthly survivor benefits. 
That's approximately 55 percent of the base pay of their 
spouse. This also includes health care. With those numbers from 
the ATG service, the list goes on. We found that six members of 
the ATG who were eligible for the National Guard are now 
eligible for State retirement with the National Guard. So these 
retirement documents were sent to the Division of Retirement 
for the State, they'll review them and now that they are 
officially retired from the National Guard, they are eligible 
for the State annuity. So it's not 5 years of active Federal 
service, but rather 15 years of State annuity as they were 
members and in employment of the State after 1969.
    The VA offers a grave marker free of charge for each 
veteran. We initially had problems last summer when the VA 
would not send markers to the Post Office boxes. After 
discussing this issue with the director of mortuary services, 
this was corrected and our ATG veterans now receive this 
honorable benefit.
    I would be remiss if I did not mention the Alaska National 
Guard military funeral honorary team, which is supported by 
National Guard Bureau. The team has a motto of honoring those 
who serve, which is reflected by their willingness to serve any 
place any time. Last year the funeral honors team provided 158 
services to servicemembers throughout Alaska.
    Additionally, as it applies to ATG veterans, if they did 
not receive an honor ceremony in the past, the team will go out 
and have the service and present the flag to the family. 
Senator, thank you for your time today, and thank you, 
personally for the efforts that have been made by the 
Congressional delegation over the past years to make sure that 
this very small, but very important piece of Alaska's history 
and our veterans was reflected positively and service to them 
could be completed.
    [The prepared statement of General Katkus follows:]
   Prepared Statement of Brig. Gen. Thomas Katkus, Adjutant General, 
Alaska National Guard; and Commissioner, Alaska Department of Military 
                          and Veteran Affairs
    Good Morning, I'm Brigadier General Thomas Katkus, the Adjutant 
General for the Alaska National Guard and Commissioner for the Alaska 
Department of Military and Veteran Affairs.
    This morning I would like to provide a status update on the Alaska 
Territorial Guard. Effective February 1, the Federal Government 
reinstated ATG member's retirement benefits.
    There has been a great deal of confusion among the ATG veterans due 
to a poor understanding on how time is credited for their active 
Federal service between 1942 and 1947. Each member upon receipt of 
their discharge is credited five years of active Federal service. These 
five years have a monetary impact on the veteran only if they served in 
the National Guard or active duty military, for 15+ years and the five 
years of ATG time made them eligible for Federal retirement. The state 
of Alaska does not consider the five years of active Federal service 
toward the Alaskan National Guard state annuity unless this provides 
the veteran enough credit for a National Guard retirement.
    Of the roughly 6,500 original ATG members, 1,592 ATG discharge 
applications have been received by DMVA from veterans and family 
members.
    1,057 ATG discharges have been received from the U. S. Army. Over 
72 discharges are pending certification by the Army Personnel Center.
    149 discharges have been issued to the 163 living ATG members that 
we have identified. Six applications are pending certification in Saint 
Louis and eight have not applied.
    We plan is to continue presenting these discharges at ceremonies in 
each member's community. In 2009, we hosted 20 of these ceremonies in 
villages throughout Alaska.
    There are 22 ATG members eligible for Federal military retirement. 
They each spent 20+ years in active military service and with the 
addition of the ATG time now receive a combined retirement check from 
the Defense Accounting System.
    We are continuing the research to find other members who now 
qualify for retirement. To date we have found four new ATG retirement 
eligible veterans. The first three started receiving their new check on 
the first of February. The last member will be receiving his check by 
the first of March.
    Along with retirements come survivor's benefits for widows. We have 
worked hard to dig through our military personnel records to find all 
the ATG members who served 15+ years in the National Guard. As a result 
of this search, we've identified 32 spouses that might receive 
survivor's benefits payments. As of 27 January have all 32 packages are 
on the desks of the auditors in St. Louis. Once they go through the 
verification process, those spouses who are eligible will start 
receiving the monthly survivor's benefits. This includes pay and 
healthcare.
    We also found six members of the ATG who were eligible for National 
Guard state retirements. These retirement documents were sent to the 
Division of Retirements. There are no surviving members or spouses 
found and the benefit will be paid to the next of kin.
    The VA offers a grave maker free of charge for each veteran. We had 
a problem last summer when the VA would not send the markers to Post 
Office boxes. After discussing this issue with the Director of Mortuary 
Services this was corrected and our ATG veterans now receive this 
honorable benefit.
    I would be remiss in not mentioning our Alaska National Guard 
Military Funeral Honors Team along with the VA grave markers. This team 
has a motto of ``Honoring Those Who Serve'' and this is reflected by 
their willingness to serve any place any time. They performed over 158 
services in 2009 alone and are projecting even more services this year. 
Additionally, if an ATG veteran did not receive an Honor Ceremony in 
the past, the team will go out now and do the service and present the 
flag to the family.

    Thank you for your time today to bring you up to date on this very 
important Alaskan issue.

    Senator Begich. Thank you very much, General. Let me ask 
the last presenter, Jan Myers, Director of Family Programs, 
Alaska Department of Military Veterans Affairs. We want to see 
how that mic works. We may do a little swap. We'll see how that 
works.

   STATEMENT OF JAN MYERS, DIRECTOR, FAMILY PROGRAMS, ALASKA 
            DEPARTMENT OF MILITARY VETERANS AFFAIRS

    Ms. Myers. Good morning, sir. My name is Jan Myers, and I 
would like to thank you for the opportunity to speak to you 
today. I serve as the Alaska National Guard State family 
program director and as such have oversight of programs 
designed to assist and care for our military veterans and their 
families. We are available 24 hours, 7 days a week and 365 days 
a year with high quality troop and family support to meet the 
needs of our servicemembers, veterans, and their families. I 
will briefly describe some of those programs pertinent to 
today's discussion.
    The Alaska National Guard family assistance centers offer 
information and referral services to troops and families from 
all military branches, whether active, guard, reserve, retired, 
or not. Professional consideration and confidentiality are 
fundamental elements found at each family assistance center. 
With topics running the gamut from personnel issues requiring 
advice to difficult challenges resulting in referrals to 
outside researches. We have nine family assistance centers 
throughout Alaska that are ready to serve military members, 
veterans, and their families in building strong resilient 
communities. Our sexual assault prevention and response 
program's mission is to end sexual violence and ensure high-
quality comprehensive and preventative measures, encouraging 
competent servicemembers and families. We also promote change 
that fosters a military environment that is responsive to 
victims and survivors of sexual assault. The suicide prevention 
program recognizes the seriousness of suicidal behaviors and 
potential within the military. The mission is to implement 
appropriate control measures that address and minimize the risk 
factors of suicide while strengthening the factors that 
mitigate those risks.
    We aid and equip commanders and leaders with skills and 
resources necessary to combat suicide by providing quality 
interactive training on prevention, intervention, and 
postvention. We work to ensure early identification and 
treatment of emerging deployment-related health concerns for 
our troops and veterans. Through our military life consultants, 
we provide short-term nonmedical solution-focused counseling 
services to individuals, couples, and families. We advocate 
psychological fitness for our members and their families 
through the office of our psychological health director. We 
also provide training on topics related to military life and 
everyday issues. The child and youth program helps our youth 
understand why family members serve in the military and 
introduce coping skills to deal with the stresses of 
deployment.
    Employer support of Guard and Reserve seeks to promote a 
culture by which all American employers support and value the 
military service of their employees. The Alaska committee 
conducts employer and military outreach and an ombudsman 
program to recognize outstanding support, increase awareness of 
the law, and resolve conflicts through mediation. We are 
evolving now to assist troops with finding jobs. The transition 
assistant adviser is the Statewide point of contact to assist 
members in assessing veterans' affairs, benefits, and health 
care services. They provide assistance in obtaining 
entitlements through the TRICARE military health system and 
access to community resources whether our troops are going from 
civilian life to active duty or retiring. We are there to help 
them through the process.
    We also provide assistance with education benefits to 
ensure all members have an opportunity to attain their 
educational goals. Our Honor Guard, as the General mentioned, 
performs funeral honors in accordance with service tradition to 
all eligible veterans when requested by an authorized family 
member. Our Yellow Ribbon Program provides information and 
referral for servicemembers, families and employers throughout 
the deployment cycle. The Yellow Ribbon Reconnecting Veterans 
Outreach Program is a partnership constituted between Alaska 
National Guard, Alaska Veterans Affairs, and Veterans Service 
Officers from the State and was funded through a Federal 
appropriation. This program has been operating since January 
2009 and the goal is to visit every village in our great State 
while assessing our veterans' needs. To date nearly 125 
villages have been connected and 1,021 veterans or family 
members have been personally briefed, questions answered, and a 
survey filled out. We also provide VA applications for our 
veterans. The outreach team has found older veterans, including 
the Alaska Territorial Guard or their family members to be our 
biggest audience. They appreciate our effort and applaud the 
follow-up.
    All 42 of our folks are available to travel where the need 
is and we service all branches no matter what status. I 
appreciate, again, your time for me to be here.
    [The prepared statement of Ms. Myers follows:]
  Prepared Statement of Jan Myers, Director, Family Programs, Alaska 
                Department of Military Veterans Affairs
    Good Morning. I am Jan Myers and I would like to thank you for the 
opportunity to speak to you today.
    I serve as the AKNG State Family Program Director and as such have 
oversight of programs designed to assist and care for our Military, 
Veterans and their Families. We are available 24 hours, 7 days a week, 
365 days a year, with high quality Troop & Family Support to meet the 
needs of our Servicemembers, Veterans and their Families. I will 
briefly describe some of those programs pertinent to today's 
discussion.
    The Alaska NG Family Assistance Centers (FACs) offer information 
and referral services to Troops & Families from all military branches, 
whether active, Guard/Reserve, retired or not. Professional 
consideration and confidentiality are fundamental elements found at 
each FAC, with topics running the gamut from personal issues requiring 
advice to difficult challenges resulting in referrals to outside 
resources. We have 9 FACs throughout Alaska that are ready to serve, 
assisting military members, veterans and their Families in building 
strong resilient communities.
    Our Sexual Assault Prevention and Response Program's mission is to 
end sexual violence and ensure high quality, comprehensive, and 
preventative measures, encouraging competent Servicemembers and 
Families. We also promote change that fosters a military environment 
that is responsive to victims and survivors of sexual assault.
    The Suicide Prevention Program recognizes the seriousness of 
suicidal behaviors and potential within the Military. The mission is to 
implement appropriate control measures that address and minimize the 
risk factors of suicide while strengthening the factors that mitigate 
those risks. We aid and equip commanders and leaders with the skills 
and resources necessary to combat suicide by providing quality 
interactive training on prevention, intervention, and postvention. We 
work to ensure early identification and treatment of emerging 
deployment-related health concerns for our troops and veterans.
    Through our Military Life Consultants, we provide short term, non-
medical; solution focused counseling services to individuals, couples, 
and Families. We advocate psychological fitness for our members and 
their Families through the office of our Psychological Health Director. 
We also provide training on topics related to military life and 
everyday issues.
    The Child and Youth Program helps our youth understand why Family 
members serve in the military and introduce coping skills to deal with 
the stresses of deployment.
    Employer Support of the Guard and Reserve seeks to promote a 
culture in which all American employers support and value the military 
service of their employees. The Alaska Committee conducts employer and 
military outreach, and an ombudsman program to recognize outstanding 
support, increase awareness of the law, and resolve conflicts through 
mediation. We are evolving now to assist troops with finding jobs.
    The Transition Assistance Advisor is the statewide point of contact 
to assist members in accessing Veterans Affairs benefits and healthcare 
services. They provide assistance in obtaining entitlements through the 
TRICARE Military Health System and access to community resources. 
Whether our troops are going from civilian life to active duty or 
retiring, we are there to help them through the process.
    We also provide assistance with education benefits to ensure all 
members have an opportunity to attain their educational goals.
    Our Honor Guard renders professional military funeral honors, in 
accordance with service tradition, to all eligible veterans when 
requested by an authorized Family member.
    Our Yellow Ribbon Program provides information and referral for 
servicemembers, Families and employers throughout the deployment cycle. 
The Yellow Ribbon, ``Reconnecting Veterans Program'' is a partnership 
constituted between Alaska National Guard, Alaska Veterans Affairs, and 
the Veteran Service Officers from the state and was funded through a 
Federal Appropriation. This program has been operating since January 
2009 and the goal is to visit every village in our great state while 
assessing our veteran's needs. To date, nearly 125 villages have been 
connected and 1021 Veterans or Family members have been personally 
briefed, questions answered, and a survey filled out. We also provide 
VA applications for our veterans. The outreach team has found older 
veterans, including the Alaska Territorial Guard or their Family 
members, to be our biggest audience. They appreciate our effort and 
applaud the follow-up.
    All 42 of our folks are available to travel where the need is and 
we service all branches, no matter their status.

    I appreciate your time and I am available for any questions.
                                 ______
                                 
                                Addendum

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Begich. Thank you very much. We're going to be 
tight on time. I'm going to walk through a few things here. I 
don't want to go too far past noon. I know the Anchorage 
assembly and the mayor would not want me to sit in the seat too 
long. They have so much business to take care of tonight. I'll 
leave it at that. [Laughter.]
    First, thank you, Ray, for coming this long distance and 
being part of Alaska. One thing you mentioned which I wanted to 
follow up on--it wasn't here that you talked about, it was 
outside the building while we were talking about the tour of 
the VA building. You talked about new job opportunities in 
regard to technology and the Internet. Can you put on the 
record what you envision there?
    Secretary Jefferson. Yes.
    Senator Begich. I thought that was interesting, especially 
for us here in Alaska--a new avenue.
    Secretary Jefferson. Sir, one of the things I've been 
looking at is: How do we provide value and help veterans in 
rural America? Communities where you don't have Fortune 1000 
companies, have smaller enterprises, and where people are 
geographically dispersed. It's hard to move around. We're going 
to be in Kotzebue on Wednesday and Thursday. What could be an 
innovative solution? One of the things that I want to explore 
is the value of e-commerce: Internet-based home businesses, 
where an individual using the Internet can create a whole 
business around us. There's actually an interesting book out 
which has been a New York Times best seller maybe a year now 
called The 4-Hour Workweek that lays out the whole model. I 
think you'd want to spend more than 4 hours a week on it.
    Senator Begich. We're looking for that job.
    Secretary Jefferson. This individual has done quite well 
for himself, for no other reason than for the book. On a 
serious note what we want to look at if this is a model that 
can be used for veterans in rural America. One of the things I 
mentioned as I'm working out in Washington, DC, is to bring all 
the government agencies that touch most of the business 
development together so we can work as a synergistic team. The 
Department of Commerce, Small Business Administration, the 
Minority Business and Development Agency, et cetera, for all of 
us to come together and ask: How can we better serve veterans 
in America? What do we currently have? Let's make sure that all 
veterans are aware of everything that's out there. What are 
some of the new opportunities such as this e-based commerce in 
a home-based business?
    Senator Begich. All of those agencies have aspects that 
they're working with in some form or another.
    Secretary Jefferson. Yes, though we are not communicating 
with one another. We need to break that stovepipe down and I'm 
working on that now.
    Senator Begich. Are you going to try to be the lead 
convenor of that----
    Secretary Jefferson. Yes.
    Senator Begich. I know about local bureaucracy; Federal is 
even a much different ball game when defining who takes the 
lead and puts effort into it. Is that what you're thinking you 
should be able to do? Or are you looking for a partner to do 
that?
    Secretary Jefferson. In the short time I've served in this 
position, we do like to be action oriented. My understanding is 
that all heads are stepping up to bring the meeting together. 
We're working to make it happen, before the holidays, though 
it's a little challenging with people's travel schedules. We're 
working right now. My goal is to get the agency heads together, 
get commitment at the senior level, and cascade that down to 
all the States.
    Senator Begich. You will start with the convening of that?
    Secretary Jefferson. Yes.
    Senator Begich. Can you keep us informed, at least myself 
and the Committee?
    Secretary Jefferson. Yes, sir.
    Senator Begich. The other comment is that I appreciate your 
review of your 268-page PowerPoint.
    Secretary Jefferson. Page by page.
    Senator Begich. I don't know if I've ever seen or done a 
268-page PowerPoint. I can only imagine the effectiveness of 
that. I say that because it sounds like you understand that 
just doesn't work.
    Secretary Jefferson. It doesn't work, sir. And this was a 
well-intentioned program. One of the things that we talk about 
as an agency is, one, transformation; and two, incorporating 
best practices. So, what are the adult learning principles? We 
know it's having people do things. We want to have them doing 
and practicing their skills during employment workshops and 
then bringing in the best practices which I previously 
mentioned so there's new content. They enjoy it; they can use 
it immediately, and it has long-lasting benefits to the 
servicemember.
    Senator Begich. Very good. Thank you. Belinda, first, I 
appreciate the report that was done. I think, you know, for 
your capacity, to do reviews not every 5 years but now every 3 
years is probably a huge benefit for the Regional Offices, 
because I think there's always room for improvement no matter 
what you're doing. Your office went through a lot of issues, 
and I want to follow up to make sure I understood what you 
said, and that is regarding the areas of concern. The Regional 
Office has accepted those as areas of concern and are taking 
action to do something. Is that--did I hear you say that right? 
That there was no disagreement, necessarily, but they 
recognized them. They acknowledged them. Am I saying that 
correctly?
    Ms. Finn. Yes, sir, they accepted all of the 
recommendations. While the team was on staff, there was 
discussion back and forth on the various issues that we found. 
But the office did concur with all of our recommendations and 
proposed appropriate actions.
    Senator Begich. And what will be the follow-up from your 
agency and your staff? How are you making sure that what they 
have committed to is fulfilled and there's actually results? In 
other words, the plan may be a good paper plan, but what 
happens to make sure that you can come back and say this is 
exactly what we hoped for and what's your mechanism to do that?
    Ms. Finn. In this case, our mechanism generally will be our 
second visit to each Regional Office that hopefully will take 
place somewhere between 3 and 5 years, depending on how soon we 
hire everybody and how the schedule works out.
    Senator Begich. Is there anything we can do? Especially 
when I was mayor we did audits all the time; we always had a 
team that would follow up on a regular basis. If you wait too 
long, the systems don't get corrected as quickly as you like. 
They may get corrected, but they're not really producing 
results. Is there a mechanism to speed that up at all, or is it 
just really a staffing issue that you have to make sure that 
you have a lion's staff to follow up?
    Ms. Finn. The Senate and the House Veterans' Affairs 
Committee have been very supportive of our inspection program 
and provided more resources so that we could increase our 
cycle. I think the other action is to continue to keep the 
focus on our findings through hearings such as this.
    Senator Begich. Excellent. Do you think the types of 
recommendations that you've made are--assuming from your 
perspective--reasonable; do you think it's what is going on in 
the Anchorage region? How do we compare, I guess, to other 
regions that you're reviewing? I'm not sure what the right 
phrase is. Are we in the middle, in the bottom, on the top? How 
do we rank in the bigger picture of Regional Offices when it 
comes to the VA and its administration?
    Ms. Finn. We did cover that in our written testimony that 
will be part of the record, and Anchorage is somewhere in the 
middle. I will say that our inspection--our protocols and our 
team, they are pretty tough, because all of our inspectors are 
folks who used to work at VBA and so they know the process.
    Senator Begich. They know it all.
    Ms. Finn. They know where the errors occur. Brent, our 
director here spent 8 years with VBA before coming to the IG. 
So, none of the offices that we have inspected so far have 
gotten a clean bill of health. Everybody--every office has had 
some type of issue.
    As far as the percentage of errors, Anchorage is in the 
middle. Baltimore was the highest office with issues, and 
Anchorage followed them. However, I will say that when we 
looked at particular claim folders and looked at the errors on 
those, we had only--of the errors we found, a number of those 
are procedural, and Anchorage had three errors that actually 
affected veterans' benefits. I think, Brent will correct me if 
I'm wrong, that in several other offices that rate has been 
much higher with where the errors affected benefits a lot more.
    Senator Begich. So, a lot of what was occurring here was 
process and as you shook it down, all the way down to the 
levels of the benefits they received there was minimal or there 
was still benefit impact, but not like some others.
    Mr. Arronte. Yes, normally, that's correct. There was a 
higher rate of procedural problems, like Belinda said. There 
were three disability claims that actually affected the 
veteran's monthly benefit. And I believe that's probably one of 
the lowest rates of the seven or eight offices that we had 
visited.
    Senator Begich. I want to thank you. I'm going to zip over, 
take a few minutes and go until about ten after. Mark, if I can 
ask you a few questions. Thank you for the tour of the office 
today. I do have to say the office is small and cramped and I 
know you're looking forward to better space to actually be able 
to better process the claims; and it's in a better environment. 
I can tell you I can only imagine what that's like when the 
load gets heavy. I want to ask verbally for the record: What 
efforts are you making with regard to the training? I thought 
you pointed out in the report that training was one of the 
issues for employees. What are you doing to train your 
employees to be better qualified or better prepared to handle 
these?
    Mr. Bilosz. We're making an investment. We are taking the 
time to have weekly training sessions with our employees. We're 
reviewing the errors that are being found on national quality 
reviews and also the errors that are being found on our local 
quality reviews and incorporating those as part of our training 
program. This has helped us to really improve our training. We, 
again, appreciated the Office of Inspector General's report 
where we took all of the areas that they found which we needed 
to improve on and incorporated that as part of our review 
period. We've used that.
    Senator Begich. As you've reviewed, I know they're in your 
testimony. Are those the measurements that your employees know 
that you're measuring to? These are some of the measurement 
metrics you're going to use in the long term, or is it more of 
a management knowledge? Do the employees understand how they're 
being measured?
    Mr. Bilosz. Yeah. We share that. That's part of their 
training--to understand what we're doing, how what we do 
affects our services to veterans. You may not have noticed as 
you zipped into the office, but there was a big white board 
where we walked in and it had a lot of the data on it. The 
employees see it when they come in. They know how what they do 
affects the claims process and how what they do affects the 
quality of the claims process, too.
    Senator Begich. During the tour, I forget which one 
mentioned to us, but the staffing levels that you now have, how 
many of those folks are new to the process in the last year? 
Some discussions occurred, I don't remember----
    Mr. Bilosz. We have six rating specialists that actually do 
the rating decisions for veterans; and three of those have less 
than 6 months of experience. We feel that six is adequate to 
get the job done, but they have to be fully trained, so we are 
ramping up the training with those folks so that they're able 
to process claims as quickly as they can.
    Senator Begich. Do you have a high turnover rate that is 
caused by some factor that's explainable? I went through one 
office of the VA. What is it like there?
    Mr. Bilosz. It hasn't been a high turnover rate. I think 
that we've had a few people leave over the past year which 
we've replaced, obviously. We've also increased our staffing 
level from about 28 or 29 to 34, so we've had new people come 
on board. We've also promoted some folks. As I said we have two 
new supervisors that came up through the ranks and, again, 
that's left a little bit of a void there in the short term.
    Senator Begich. Do you have a question, comment, Patrick?
    Mr. Kelley. I do not feel--we do not have a high turnover 
rate, but we have people that will transfer down to the Lower 
48 and get out of the VA down there which is generally when 
their spouse transfers through the military or circumstances 
such as that. But we haven't had anyone just quit with the 
exception of one employee.
    Senator Begich. Very good. One of the comments was the 
review from Salt Lake City and kind of how that connection is. 
Comment on that?
    Mr. Bilosz. Pat is the Veterans Service Center Manager. 
He's responsible for the day-to-day operations of the office. 
Me being the director there, I have oversight over Pat to 
ensure that he and the service center are performing the way 
they should be, making sure that when we have a process in 
place that it's being accomplished. So, again, Pat and I talk 
daily. We have more formal meetings a couple times a week. So, 
we're all on the same page as to what is occurring in the 
office.
    Senator Begich. Is it possible--I'm going to move to two 
last questions for a couple of folks remaining here--but I want 
to first thank you folks for testifying for the record. Mark, 
you had some interesting statistics that you had mentioned this 
year already. Can you, by June, prepare a data point report 
that you could present at least to me and the Committee to give 
us an understanding of kind of where you're at compared to a 
year ago? And how that also addresses some of the concerns that 
the IG has brought up. Is that something you can do?
    Mr. Bilosz. Absolutely.
    Senator Begich. I'd be very interested in that. The metrics 
you used to measure were impressive the last 9 weeks of this 
year. I want to compare a longer period of time and compare a 
flow. And if you wouldn't mind presenting it, that would be 
fantastic.
    Mr. Bilosz. Absolutely.
    [The additional information requested during the hearing 
follows:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Begich. Two quick things, then we're going to 
close. First, General Katkus, I want to thank you all for the 
effort with the ATG. I'm impressed that you are finding more 
folks who are eligible for benefits, so I want to thank you for 
that.
    Is there anything more we can do in the system from the 
Federal end to help with regards to this, or what we've done in 
the change of law to kind to give you the tools you need?
    General Katkus. Sir, there was one last area of concern. 
That was the Federal association to use National Guard 
resources to help on this. Your letter to General Carpenter 
resulted in my being notified on the way over here that he has 
funded a Federal position to assist on that. I think that was 
the last hurdle we had.
    Senator Begich. Did he know you were coming to this 
hearing?
    General Katkus. I think it was just timing, sir.
    Senator Begich. The position will be funded by them?
    General Katkus. Yes, sir.
    Senator Begich. Excellent. That will assist you in your 
efforts. Fantastic. That's great news. Thank you and your team 
and all the folks.
    The other thing I wanted to ask is what Rich Owens brought 
up, and that is maybe a dual question to you and Jan. You heard 
the concern that the well times, the deployment times are 
having more of an effect especially on the small businesses, 
not necessarily the large businesses, but the smaller 
operations. They're starting to see the impact. Are you 
preparing or are you looking at that issue in a--kind of a 
vetted measure, rather than waiting for it to grow into a 
bigger problem? Is that something that is a concern to you? I 
heard from Rich. It makes me nervous, a little bit, to be 
frank.
    General Katkus. I'll start off before Jan. I'm sure she's 
got some answers on that, also. As commander of the National 
Guard, we're going to affect soldiers and airmen in their 
career paths, because they're going to be away from the job. 
Those businesses have to be engaged. We have to engage them in 
a positive way. We try to do that in recognition programs. We 
try to keep them informed. We try to keep them involved and 
stress the importance of each drill. I think that the Nation as 
a whole, all is in concert that we are at war and they're 
making sacrifices. But those small businesses continue to make 
sacrifice after sacrifice. Now after 8 years, it is a concern, 
and we'll do our level best to continue to engage them. But if 
anyone has ideas on how to better compensate the businesses or 
make up for that loss of an employee, we'd certainly be open to 
support that and try to engage on those areas.
    Senator Begich. Jan, do you have anything to add to that?
    Ms. Myers. Just that they are moving toward finding jobs 
and different jobs that possibly they can do with the rotation 
that we have coming up. More to come.
    Senator Begich. Ray, you gave some good commentary on kind 
of bridging this larger group of agencies and maybe part of 
that could be--I'm assuming you're thinking this. If not, I 
don't want to assume the obvious--the Guard and how they 
participate in that small business community, maybe there's an 
opportunity to figure out the work you're doing and getting 
this connection together. It does make me nervous. My wife runs 
four small businesses. I was a small businessperson for many, 
many years. The plumber example you gave, I actually had that 
situation with my plumber. He has three employees, and one has 
gone away off and on. When that happens the workload shifts, 
and you end up at the bottom of the list, literally.
    Secretary Jefferson. We actually met with the national 
director of ESGR right before the storm a week and a half ago, 
and we're going to talk about looking at some things, because 
it's a challenge. Use Hawaii as an example, because Hawaii and 
Alaska have a lot of similarities: 90 percent of the companies 
are small businesses; 90 percent of those have less than 10 
employees. What do you do when one or two of those are 
deployed? I think what General Katkus was talking about is 
exactly the way to look at this: Are there some ways we can 
provide a temporary fill or a temporary solution? So we want to 
talk to ESGR about that and see what options we can come up 
with.
    Senator Begich. Could you keep us informed on that?
    Secretary Jefferson. Yes, sir.
    Senator Begich. Very good.
    Jan, I'd be very interested in the information on the work 
you're doing with regard to suicide prevention. It's a growing 
concern from my other role as a member of the Armed Services 
Committee. We have had this on our agenda a couple of times, 
and it's a growing concern of how we handle it, especially 
since the numbers have not decreased; they're increasing. What 
do we do regarding preventative work? I know from the 
Department of Defense they're having mental health workers now 
in the field, which is a huge plus. They have a lot to hire. 
They're going to the field rather than waiting for the back 
end. I'd be very interested, if you wouldn't mind, to maybe 
share with our staff at some point some of the ideas that 
you're working on, some of the work you're doing specifically, 
and things that you think we could be doing in this area to 
have a positive effect, not only for veterans, but, obviously, 
our active military. What we can do more as preventative work? 
If you're willing to do that--I was very intrigued by some of 
your conversation on that.
    Ms. Myers. Sure. Love to, sir.
    Senator Begich. Thank you very much.
    Let me end there. Thank you. We've run over a little bit.
    Secretary Jefferson. Sir, if I could make one comment. We 
have our State director for veterans employment and training 
here, if I can just briefly introduce him. For any veterans who 
are unemployed or who know someone who is unemployed, or just 
seeking a job change, this is our State director for veterans 
employment and training. Please contact him. He will get you 
access to the employment representatives for Alaska. This is a 
portal, and we are ready and eager to help those veterans in 
Alaska find meaningful employment in their careers.
    Senator Begich. Thank you very much. Thank you to all those 
that traveled a great distance to be here. Thank you for being 
at the hearing today. I appreciate all the commentary. Again, 
all your statements, written and verbal, will be in the record 
to be shared with the Committee. Thank you very much.
    At this time the meeting is adjourned.
    [Field hearing adjourned at 12:15 p.m.]
                            A P P E N D I X

                              ----------                              


     Statement Submitted at Hearing by Steven Clapp, AFGE National 
                   Representative, Anchorage, Alaska
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Statement Submitted at Hearing by Zulene Simmons of Chugiak, Alaska
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Prepared Statement of Russell N. Kell, Vietnam Veterans of America
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                    SERVICES FOR VETERANS IN ALASKA

                              ----------                              


                      WEDNESDAY, FEBRUARY 17, 2010

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                     Fairbanks, AK.
    The Committee met, pursuant to notice, at 1 p.m., Fairbanks 
North Star Borough Administrative Center, Hon. Mark Begich, 
Member of the Committee, presiding.
    Present: Senator Mark Begich.

            OPENING STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. We'll call this meeting to order. This is a 
Field Hearing on Services for Veterans in Alaska for the 
Veterans' Affairs Committee of the U.S. Senate.
    First, I know that we have two mayors here. Mayor Hopkins, 
thank you very much for being here. Mayor Isaacson from North 
Pole, there you are. Thank you both for being here today and 
for your interest in veterans' issues, and thank you for the 
great weather. I have come from the deep cold of Washington, 
DC, where there is fifty-plus inches and 25 to 30 degree 
weather. It's amazing to come to Alaska and be in warmer 
weather with less snow, I have to tell you.
    I also have some folks here I'll introduce in a second from 
Washington, DC, and I did tell them that they will be able to 
come to the tropics if they can come with me to Alaska in 
February. So, they are here. We want to give them special 
recognition for, one, traveling to Alaska, but, two, for 
traveling in February. We give them extra credit points, just 
so you know that. When they come in the summer, they don't get 
any extra points for that.
    Let me make a few comments and then I'll describe what 
today is going to be about and how it will work. This hearing 
will focus on the State's services for veterans in Alaska, 
including support of returning veterans, job opportunities for 
veterans, benefits for veterans, and the December audit by the 
VA Office of Inspector General of the VA Regional Office in 
Anchorage.
    The Committee has had multiple hearings on VA benefits, 
health care, and services; however, this is the first time we 
are specifically focusing on the unique challenges confronting 
returning Alaskan veterans of Operations Iraqi and Enduring 
Freedom.
    I'm pleased that the Committee is joined today by Assistant 
Secretary of Labor Ray Jefferson. Ray, just raise your hand. I 
know you'll be on our second panel. He was with me in Anchorage 
for a field hearing. We've been to Wasilla, today we're in 
Fairbanks, and then we're off to Kotzebue tomorrow. So, we're 
giving him a full, rounded Alaskanized approach to getting 
people familiar with what's going on here in Alaska. In 
addition, you'll hear when he testifies a little bit about the 
Department of Labor and some of the efforts and work they're 
doing.
    We are also joined by Dr. Susan Pendergrass, the Director 
of Veterans' Integration Service Network, or VISN 20. Dr. 
Pendergrass is responsible for the VA Northwest Health Network. 
Thank you again. She'll be on the second panel.
    I want to give you a little bit of statistics though most 
of you know this already: Alaska has over 70,000 veterans; 
about 11 percent of our population. We are the highest per 
capita in the Nation. The Alaska population is very diverse, 
but also spread not only in the urban areas, but into the rural 
areas. So we have very unique situations that face our veterans 
in the challenges that they face, not only in employment, but 
other services that they need. Along with that, each year about 
1,500 individuals from the military, especially from our recent 
conflicts, move out of active service and into veteran 
capacity.
    I want to applaud the VA employees in Alaska for the work 
they do--and the VA does a lot of very significant work in 
making a difference for Alaskan veterans; however, there is 
always room for improvement, as evidenced by the recent VA IG 
report dated December 7, 2009, that showed the Anchorage VA 
Regional Office failed to meet requirements in 13 of the 14 
areas covered during the inspection. This concerns me deeply 
because providing accurate, timely, and comprehensive services 
to our veterans is one of my top priorities as a Member of the 
Veterans' Affairs Committee. More work needs to be done.
    I hope that both of our panels will shed some light on the 
issues, such as why we continue to hear from some veterans that 
are not aware of their eligibility for VA benefits and 
services; why some veterans are not receiving appropriate VA 
services; and why veterans have such a tough time finding 
employment. I hope to discuss these and other important issues 
with our panels today.
    Indeed, our unique geography, diversity, and way of life 
require the VA develop a unique strategy to care for our 
veterans, especially those who reside in rural areas. Back in 
Washington, we have worked hard to ensure that the VA has the 
resources to provide the best care possible. Congress has 
provided record-breaking funding increases to the VA. Last 
year, I supported the VA's Veterans Health Care Budget Reform 
and Transparency Act to ensure funding for veterans' health 
care 1 year in advance of the regular appropriation process. 
This bill was signed into law in October 2009.
    We have followed up on that success with passage of the 
Caregiver's Bill, which would help wounded warriors and their 
families who care for them. This bill, which also improves care 
for women veterans, those who reside in rural areas, and those 
who are homeless, has been sent to the House of Representatives 
for their action and we expect action later this year.
    Finally, I know there are veterans here in the audience. As 
you know, back some time ago I came up and had a veterans' 
roundtable at one of the facilities here. Today is a little 
different. Today is a congressional hearing that I'm chairing 
here on behalf of the Senate Veterans' Affairs Committee. The 
process, just so everyone is aware, is we will have two panels 
that will present testimony? You will see diverse thoughts and 
views on the services of the VA. This hearing will help us 
create a congressional record to understand specifically 
Alaskan issues that we can then bring back to Washington, DC.
    I know there are individuals who would like to testify. 
This congressional hearing does not allow for individual 
testimony; but saying that, we have created a document to allow 
anyone to submit testimony. Anything presented today will be 
part of our congressional record, shared with the rest of the 
Committee, as well as with my office. There is a form we put 
out front that you can fill out and put down additional 
comments, concerns, or questions that you're not getting 
answered by the Veterans Administration. Let us know that. The 
staff will collect those or you can put them on the table. 
Would every staff member raise your hand. These are the folks 
that you want to hand that term to, please give it to them so 
we can make sure we keep a record of it.
    Again, it's not the normal process that a lot of people are 
familiar with when they walk into an assembly chamber like this 
where people line up for 3 minutes to give testimony. This 
hearing is for the Committee to learn what we can do to improve 
veteran services.
    So, that's the process here. Several of us in between our 
next appointment, leaving from here to our next one, will have 
available time for people to come up to our special guests to 
give them additional information.
    I will now introduce panel 1.
    Linda, I practiced your name; I think I got it right. 
Boisseau. Is that----
    Ms. Boisseau. Boisseau, yes, sir.
    Senator Begich. Very good. Today we have Linda Boisseau, 
Department Service Officer, Disabled American Veterans. We also 
have Robert Roof, an OIF veteran; Joe Sheehan, a Lieutenant 
Colonel, U.S. Army Retired, and Chairman of the Northern Alaska 
Military Retiree Council; and Ron Woolf, Unit Representative, 
Employer Support of the Guard and Reserve. We're going to have 
a ceremony afterwards with some other folks that are anxious to 
sign up, we're very excited about that.
    The order will be just that, and we'll start with Linda, 
who will give her presentation. As I said to the people who are 
testifying, just imagine we're in your living room, all of us. 
Keep it casual. That's what we try to do here: to give you the 
flexibility to express your views on things that we can do to 
improve service. Linda.
    Ms. Boisseau. I would like to have a Miller Lite, sir.
    Senator Begich. A Miller Lite for Linda.
    [General laughter.]

   STATEMENT OF LINDA BOISSEAU, DEPARTMENT SERVICE OFFICER, 
                   DISABLED AMERICAN VETERANS

    Ms. Boisseau. Mr. Chairman and Members of the Committee, 
I'm glad to be here on the behalf of the Disabled American 
Veterans. I know that the VA has problems and there's no need 
in continually ragging on it and saying, OK, you failed 13 out 
of 14 things. So, if possible, I would like to just bring up a 
few instant issues that we're having problems with.
    First of all, sir, we're having to broker out our claims. A 
lot of them go to Salt Lake City. They also go to Seattle, WA, 
and they also go to San Diego, CA. I cannot overemphasize how 
horrible San Diego, CA, is on their claims. I wish the OIG 
would go in there and pull a lot of the claims that are being, 
you know, done down there to come back to Alaska. They result 9 
times out of 10 is a Notice of Disagreement or appeals. It's 
like they give vets zero percent or they deny them. There's no 
in-between. It's really very, very poor.
    That's been one of--we have problems with Salt Lake City 
and Seattle, but not half as much as we do with San Diego, CA, 
rating our claims.
    Another issue that I have is mail continues to be 
misplaced. Instructions to VA by the veterans are overlooked 
and communication is non-existent. We've had a rash of people 
supposedly not showing up for their C&P exams. I don't know if 
it's a miscommunication from the people that are supposed to be 
sending out the notices to people who have C&P exams, but 
there's been no mail forthcoming to--these people have missed 
appointments and are being denied their claims through the VA 
because of this supposed mailed-out notice of C&P exam missed. 
That's been another big issue that we're having. Some of these 
are pretty serious with Post Traumatic Stress Disorder that 
they have had since 2000. Now they're doing a review and 
threatening to take them down from 100 percent to 50 percent, 
assuming that their GAF has changed--their GAF score. Which is 
not 52, it's 42, according to the records, but it was quoted as 
52. It's just a--it's very irritating and when people have Post 
Traumatic Stress Disorder, they haven't worked since 1989, they 
even have trouble coming to some of the groups, and don't even 
speak but have to sit in the corner. Yet they still need the 
camaraderie because they can't continue staying in the dark, 
shall we say, all the time. I find that so offensive, and they 
need to fix that supposed C&P notification. I don't believe 
it's happening, honestly, for the majority of them.
    The phone centers cannot provide the information to 
veterans other than what is input into the system, and that is 
the problem. When we call 1-800-827-1000, we usually get 
Phoenix, AZ, out of Alaska. We have a problem with Phoenix in 
the fact that here in Alaska if you get 50 percent or higher 
rating, you receive up to $170,000 property tax exemption.
    When my veterans asked for the property tax exemption 
paperwork and the civil service preference letter, Phoenix 
seems to have a terribly difficult problem understanding what 
in thunder the property tax exemption letter is that has to be 
presented to the borough no later than the 31st of March. So, 
that is a delay for my veterans receiving those benefits. I 
would like to have that fixed. Somebody needs to educate those 
people that we live in Alaska and maybe some of--as you noted 
before, sir, when you came in--our circumstances are quite 
different from the Lower 48.
    Notes are not updated on a regular basis. We have a veteran 
that was awarded disability pension in August 2009. The veteran 
has a VA medical appointment scheduled back in November 2009 
and again in February at the Fairbanks medical clinic. All 
right. He lives in Northway, which is 258 miles from the 
medical clinic here in town. The winter bus schedule out of 
Northway is such that the veteran has to stay in Fairbanks for 
at least four nights. He has to arrive on Wednesday and depart 
on Sunday, through no fault of his own; there's no other 
transportation for this gentleman. The veteran has to have paid 
this out of his pocket, $776.10 out of his pocket, because his 
file did not reflect--it was not put into the computer that he 
was awarded disability pension. His annual income other than 
the pension that he receives is from social security, which is 
only $3,072, sir. He's in poverty through no fault of his own. 
He hasn't got the money to pay for something that should be 
taken care of by the Veterans Administration.
    There are some claims that haven't had a progress note or 
action for approximately 6 months and the claims are still 
active. That's another huge problem. An example: a Notice of 
Disagreement received and dated, stamped by the Anchorage VA, 
July 30, 2008. On December 10, 2008, the spouse received a 
letter from the VA indicating that the Notice of Disagreement 
procedure would be sent. On November 13, 2009, after a service 
officer inquiry as to the status of the claim, the VA indicated 
that the file had been closed and shipped to St. Louis, MO, 
prior to the date originally received and the date stamped. No 
communication on this death benefit for the spouse has been 
received as of this date.
    Thank you for your time, sir.
    [The prepared statement of Ms. Boisseau follows:]
   Prepared Statement of Linda Boisseau, Department Service Officer, 
            Department of Alaska, Disabled American Veterans
    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to present testimony on the current state of veterans 
services available to Alaska's 76,000 veterans. Before I begin my 
formal statement, I would like to thank Senators Begich and Murkowski 
and Representative Don Young for their support of funding reform and 
Senator Murkowski for her special interest and support of women 
veterans.
    In Alaska and across the country, the Department of Veterans 
Affairs (VA) offers a comprehensive array of benefits and services to 
military veterans and their survivors, including health care, 
vocational rehabilitation, readjustment counseling, disability 
compensation and pensions, educational assistance, home loans, life 
insurance, and burial services.
    Disabled American Veterans (DAV) Department Service Officers assist 
our National Service Officers (NSOs) in representing veterans and their 
families with claims for benefits from government agencies, including 
VA, and the Department of Defense. Veterans need not be DAV members to 
take advantage of this assistance, which is provided free of charge.
    NSOs function as attorneys-in-fact, assisting veterans and their 
families in filing claims for VA disability compensation and pension; 
vocational rehabilitation and employment; education; home loan 
guaranty; life insurance; death benefits; health care and much more.
    One of the biggest problems facing Alaska's veterans today is their 
inability to get correct or timely decisions on claims for disability 
compensation. As you are aware, VA's Office of Inspector General (VA 
OIG) recently completed an inspection of the disability compensation 
claims processing and Veterans Service Center (VSC) operations at the 
VA Regional Office in Anchorage. During this review, the OIG found that 
the Anchorage RO did not meet the requirements for 13 of 14 operational 
areas reviewed. While this may come as a surprise to some, it is 
consistent with what is been happening at VA Regional Offices across 
the United States.
    During recent inspections of other Regional Offices, as well as in 
reviews of Veterans Benefits Administration (VBA) operations in 
general, the VA Inspector General found the same problems as those 
identified in Alaska: inaccurate decisions, too much workload, not 
enough trained staff, inadequate oversight and quality control, and 
insufficient IT capability to handle the mountain of paper claims.
    In March 2009, VA OIG reported on the overall system and found that 
almost a quarter (22%) of all veterans' claims for disability 
compensation were decided incorrectly in the 12-month period reviewed. 
During that period, over 200,000 veterans received inaccurate decisions 
on disability compensation. Here in Alaska, the OIG found that 29% of 
the cases reviewed had errors resulting in veterans being denied 
compensation due to them. Equally troubling, of the cases which the 
Regional Office itself found, 42% of those errors were not corrected. 
The chart attached at the end of my testimony depicts the result of the 
last six VA OIG visits.
    And while errors go uncorrected, the volume of claims is rising 
faster than VA's ability to address this growing workload. As of 
January 11, 2010, there were 466,985 claims for disability compensation 
and pensions awaiting rating decisions; 162,352 (37.3%) of the claims 
have exceeded VBA's 125-day strategic goal. In fact, the average time 
to approve a rating has exceeded 180 days for more than a decade. And 
to complicate the problem even further, claims folders for almost 
300,000 veterans were misplaced and claims for 141,000 veterans are 
lost.
    VA today continues to rely on a cumbersome paper-based system to 
review and evaluate claims for disability compensation and pension. 
Beginning with the application for benefits, which is now a 23-page 
document, the system has become increasingly complicated. Moreover, in 
the past several years, there has been about a 50% increase in the most 
complex disability compensation applications, those in which a veteran 
cites eight or more disabilities, requiring even greater time and 
expertise to correctly reach a correct, equitable decision.
    Unfortunately, the VBA has yet to develop a modern information 
technology (IT) system to begin to move from such a paper-centric 
system to a contemporary electronic system. Regional Offices are being 
overwhelmed with massive amounts of paper, from the applications 
themselves to piles of medical evidence supporting those claims.
    In fact, after a recent inspection at the Roanoke, Virginia VA 
Regional Office, the VA OIG found nearly 11,000 folders sitting on top 
of file cabinets already filled to capacity with the paper claims and 
supporting evidence of tens of thousands of veterans. After calling in 
the building engineer to look at the situation, they determined that 
the load on floors 10, 11 and 12 of the 14-story building was double 
what is considered safe and heavy enough to cause the entire building 
to collapse.
    Mr. Chairman, too many disabled veterans and their survivors must 
wait too long for disability compensation and pension rating decisions 
that are too often wrong or inaccurate. If we do not address these 
problems and reform the claims processing system here in Alaska and 
across the United States, the entire system is in danger of collapsing 
on itself just from the sheer weight of the workload.
    Congress must reform the claims processing system so that disabled 
veterans and their survivors are able to apply for benefits through a 
simple, uniform and modern IT-based process that enables VA to make 
accurate decisions within acceptable timeframes. Active duty 
servicemembers should be able to apply for benefits before discharge 
and receive accurate decisions by the time of their discharge.
    To accomplish these goals, VBA must develop a work culture that 
emphasizes quality at all steps of the process. It must begin with the 
development of a management culture that measures and rewards the 
quality of results, not just the quantity, and that provides sufficient 
training of both VA's management and workforce in order to arrive at 
correct decisions.
    VBA must modernize its IT infrastructure and optimize its business 
processes. The current paper-centric system must be replaced with a 
secure and accessible paperless system that rapidly moves and organizes 
information necessary to help rating specialists reach correct 
decisions. The new system must optimize both the workflow and the 
business processes.
    VBA must also implement a simpler and more transparent benefits 
application and approval process. There should be a universal and 
simple application procedure that provides veterans with regular 
updates on the progress of their claims and allows them to access their 
records and pending claims securely from any location.
    In the short term, there are several reforms that VBA could begin 
to immediately implement either on its own, or consonant with 
Congressional action. For example, VBA wastes significant time by 
ordering a VA medical examination for virtually every claim for 
compensation, even when sufficient medical evidence from the veterans' 
private physician already exists. VBA should create standardized 
templates for private physicians so that private medical evidence can 
be developed and delivered in a standardized manner that meets VBA 
requirements and allows VBA rating specialists to use that private 
medical evidence to make determinations without the need for redundant 
VA examinations.
    VBA should also take advantage of their existing authority to 
provide deferred rating decisions quickly to veterans when there is 
sufficient evidence to establish a compensable service-connected 
condition. This would allow VBA to quickly adjudicate those issues 
where the service connection matters and levels of disability are clear 
cut, assign an interim rating so that the veterans could begin to 
receive financial support and access VA health care services. Then, at 
a later date VA can schedule any necessary exams and develop the 
evidence necessary to determine the final rating for other more 
complicated disabilities.
    VBA must also take steps to establish comprehensive and uniform 
systems to train and provide continuing education to its workforce, 
including more substantial on-the-job-training. They must develop and 
implement a new quality control regime that places emphasis on the 
quality of decisions made, rather than only on the quantity of work 
completed and reward employees accordingly. A renewed commitment to and 
investment in training and quality control will help to ensure that 
benefits decisions are done right the first time, which will save time 
over the long run. For a more detailed explanation of these 
recommendations and their origins, please refer to the Independent 
Budget for fiscal year 2011, in which DAV is a major participant and 
partner along with AMVETS, Veterans of Foreign Wars of the United 
States and Paralyzed Veterans of America.
    Although DAV NSOs and Department Service Officers do not heavily 
focus on the VA health care system, I would like to make a few comments 
on the state of medical care available to Alaska's veterans. Today, VA 
operates a medical center in Anchorage, and Community-Based Outpatient 
Clinics (CBOCs) in Fairbanks, Kenai and Matanuska-Susitna Valley, in 
total providing more than 130,000 outpatient visits a year. We 
recognize the unique challenges our veterans face in Alaska and I am 
pleased DAV Resolution 247, adopted by the delegates to DAV's last 
National Convention, assembled in Denver, Colorado, August 22-25, 2009, 
fully supports the right of rural veterans to be served by VA. Our 
resolution further notes that funding for additional rural care options 
and outreach be sustained and not be the cause of reductions in highly 
specialized VA medical programs.
    Public Law 109-461 authorized VA to establish the Veterans Health 
Administration Office of Rural Health to promulgate policies, best 
practices and innovations to improve services to veterans who reside in 
rural areas. We strongly urge this Office to coordinate with VA medical 
care facilities and veterans service organizations in Alaska to ensure 
alternative and creative programs and services are developed to meet 
the unique needs of sick and disabled veterans residing in this area.

    Mr. Chairman, this completes my written testimony.
                               Attachment
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Begich. Thank you very much. You did very well. 
What I'll do is take the testimony from all four and then I'll 
come back with questions.
    Ms. Boisseau. Thank you for your time on this, sir, very 
much.
    Senator Begich. Very good. Thank you very much. Robert. 
Robert and I had a great conversation just before we started, 
and I told him, don't worry, just say what's on your mind.

          STATEMENT OF SPC ROBERT L. ROOF, USA (RET.)

    Mr. Roof. I'll do the best I can, sir. I do want to say 
before I go on with my tirade, pointing fingers and attempting 
to describe the flaws in the system, I'd like to mention that I 
do so humbly. For despite the errors of a few and the system as 
a whole, there have been many more instances of good 
individuals, many who are sitting in this room today, that I 
have come across that have done their best to aid in my path of 
recovery and transition.
    I would also like to acknowledge the idea that my 
generation of veterans has the greatest understanding and 
support than any generation of the past. It is with the utmost 
respect to the warriors that have come before me, those 
individuals who have tirelessly helped me to navigate my 
recovery and to you, Senator, that I dare to voice my 
complaints. Sadly, there are still issues that must be 
addressed, particularly health care issues.
    I've found that there lacks available counseling. In order 
to get in and see anybody or to be prioritized, you must 
basically be a harm to yourself or someone else. There's just a 
lack of people available. And when I was seen in counseling, it 
was once a month at best. A few times I had appointments 
canceled without being notified until I was walking through the 
door, yet I continually got reminded that, you know, if I'm 
going to miss an appointment that I need to notify them so that 
someone else can have my time slot, or if I fail to go to a 
certain number of appointments, then, you know, I'm at risk of 
losing my counseling, which I've never heard of happening, but 
the threat is always there.
    Numerous times because of the lack of VA facilities here in 
Fairbanks, I've had to fly to Anchorage, missing--you know, 
taking time off of work and losing days' worth of wages and/or 
missing out on school. To get down there and find my meds that 
I was supposed to be receiving not be there and then be told by 
the nursing staff that I need to do my best to, next time I 
have an appointment, to call and let them know, to remind them 
to order my medication, when I thought that's what my patient 
record was for. As someone suffering from the disabilities I 
have, I have trouble remembering if I locked my door when I 
leave the house each day, let alone trying to worry about if me 
flying to Anchorage and losing out on my day, if, you know, I'm 
going to get the care that I went down there for.
    Since my transition out of the military--I was a gunshot 
wound victim and receiving OT and was meeting with surgeons 
before I left Fort Campbell, but after receiving my orders to 
get out on a medical board there has been no follow-up care on 
my injury, which at this point I'm sure there's not much that 
could be done. But it was a simple fact that I fell through the 
cracks, basically. There was no further attention paid to my 
gunshot injury. The only issue that has somewhat been addressed 
is the PTSD.
    I mentioned the lack of VA facilities here in Fairbanks. 
You know, you have to go all the way out on post and--which is 
a hassle in itself at times just trying to go through the gate.
    I've been trying to go back to school since I returned to 
Alaska and I enlisted the help of the voc rehab program as 
opposed to the GI Bill because as a disabled veteran, I thought 
it was the goal of the voc rehab program to provide the 
additional support needed for disabled veterans such as myself, 
and that has not been the case. When I first went to set up my 
voc rehab, I was told by the counselor that I needed to go out 
and gather up all this information. As I mentioned, as a person 
with my disabilities, I'm not the most sociable. And, as a 
student, I mean it's--the school system is hard enough to 
navigate on my own, but then with the additional problems that 
I have, basically, I was on this wild goose chase. I brought 
back this information, which I thought he had asked for 
numerous times, and he failed to communicate exactly what he 
was looking for or what I thought he was looking for didn't 
work, and after the third time I was finally able to give him 
what he needed.
    And, let's see, I apologize----
    Senator Begich. No, you're doing fine.
    Mr. Roof. At one point, I enrolled in a class that was 
for--it was a humanities degree requirement for my program. I 
received a phone call from the voc rehab counselor stating that 
this class wasn't listed on my degree requirements and that 
therefore the VA was going to fail--was not going to pay for it 
and that I cannot be out there freelancing my education. 
Honestly, I really don't care for school. I love to learn, but 
school is just really not for me, and I really don't want to 
spend any more time with it than I have to. I'd much rather 
just get on with life and get my degree. So, you know, I felt 
insulted that this accusation was made. The fact is, he just 
didn't have a full understanding, apparently, of how the school 
system works and what was really being asked of me to fulfill 
these degree requirements. How can he sit there and make these 
accusations that I'm out there freelancing my education when he 
doesn't even know what's going on? So, I think part of that is 
lack of understanding, too, on the veterans coordinator up at 
the university who I've tried to speak with on multiple 
occasions and who was always unavailable.
    And the aid needed to navigate the school system. Like I 
said, apparently there's the Office of Student Services for 
Disabilities though I just recently found out that they could 
have been doing a lot more to help me get through my classes by 
tailoring my classes more to my needs. This is all new 
information. Here, I've been faking my way through my education 
now for 2 years just trying to get by and scrape by and get 
whatever little I can out of it. And here, you know, like I 
said, all this stress and all this trouble and failing classes 
could have hopefully been avoided if I would have, you know, 
had the additional aid and support that I felt I needed.
    Speaking of voc rehab and what's disheartening about it is 
that under this new GI Bill--not to sound like a money-grubber, 
but part of the reason why I chose the voc rehab is, like I 
said, is for the additional support I thought I would receive 
as a disabled veteran. And now, I mean, I might as well just 
have done the GI Bill and gotten the additional money so that I 
wouldn't have to try to work and go to school and put this all 
together when, you know, if I'm not getting the help, then I 
might as well just switch over the programs.
    I mean, I can't really touch base on employment. I've found 
a job; I work part-time. Like I said, I've been going to school 
just simply because I got the job with the same company my 
mother works for and they've been more than gracious to give me 
time off for, you know, appointments and to go to class, or if 
I have PTSD flare-ups, as I have had recently. I've taken a 
leave of absence from work now for 2 weeks. So, once I lose 
this job or move on in the world, you know, that's something 
I'll have to face, but as of right now I can't really touch 
base on employment opportunities.
    That's about it. All I can really say, too, is recently I 
was just contacted as part of that PTSD lawsuit saying that I 
was shorted on my medical board ratings. I've only been given 
30 percent for PTSD when the standard was supposedly 50 
percent. And so this makes me, what, you know, out of 4,300, 
not a large number. But I just don't understand why--you know, 
who's accountable for this, the fact that there's supposed to 
be a set standard and--to my understanding, we were all 
shorted. So, it doesn't really pertain to these issues, but, 
basically, you know, I've been getting the short end of the 
stick now for a little while and that's just one more way. So 
thank you for your time.
    [The prepared statement of Mr. Roof follows:]
          Prepared Statement of SPC Robert L. Roof, USA (Ret.)
    To members of the Senate Committee of Veteran's Affairs, I would 
like to first take this opportunity to say thank you for your time, and 
the request to present whatever testimony I may concerning the issues 
that are facing today's recently discharged veterans. I appeal to you 
not only as disabled combat veteran myself, but also as a patriotic 
citizen who truly and rightfully believes in these United States.
    Before I go on my tirade pointing fingers and attempting to 
discriminate every hole in the system I would like to mention that I do 
so humbly. For despite the errors of a few and the system as a whole, 
there have many more instances of good individuals that I have come 
across that have done their best to aid me in my path of recovery and 
transition. I would also like to acknowledge the idea that my 
generation of veterans has had the greatest understanding and support 
then any generation past. It is with the utmost respect to the warriors 
that have come before me, those individuals who have tirelessly helped 
me to navigate my recovery, and to you Senators that I dare begin to 
voice my ``complaints.''
    You've asked to me to share my story of transition, particular 
since leaving active duty, but for the combat wounded veteran our story 
begins the day we are injured. To my understanding some the issues that 
I had to face have been addressed since they occurred but I would like 
to mention them because it will help for a clearer understanding of the 
larger issue and help shine light on why I am so qualified to share my 
concerns.
    Briefly, I was born and raised in the communities of Fairbanks and 
North Pole, Alaska. I graduated from North Pole High School in 2003 and 
enlisted in the US ARMY Delayed Entry Program in March 2004 and shipped 
to Infantry School at Ft. Benning in July 2004. Upon graduation from 
OSUT I was stationed at Ft. Campbell, KY, with the newly stood up 4th 
BCT which would then be flagged the 506th RCT. In November 2005 I 
deployed with B Co, 1/506th In, 101st ABN DIV (AASSLT) to Ar Ramadi, 
Iraq in support of Operation Iraqi Freedom IV.
    I loved the Army, I loved the Infantry. In the short year I was at 
Ft. Campbell prior to deployment I successfully earned my Air Assault 
Badge, my Expert Infantryman Badge, amongst other certificates and most 
importantly the respect of my peers and leaders. My Army career was off 
to an amazing start, I had yet to fail a task that the Army had given 
me and I took pride in playing even the smallest role in the backbone 
of the Army and these United States. I loved being a ``Grunt.''
    But as a Infantryman you also know that you are expendable. That is 
what keeps our military as strong as it needs to be, maintaining the 
fighting force is a first and foremost responsibility, something I 
fully understood . . . the mission must always go on. Yet I had this 
perceived conception that if you fell in battle and were able to 
survive then our government would be there to help stand you back up. 
When America needed its sons and daughters to answer the call there I 
was willing waiting for my orders.
    It is through this detail of my love and success that I hope to 
convey that I poured myself into performing the best I possibly could 
and put my trust in our military and government. But it is because of 
this that made it so difficult to accept the circumstances that I had 
to deal with due to my war injuries and the erosion of my belief in the 
way our military treats it own. The military is tough business to run 
but I feel that there is a certain code that should be used to conduct 
it if America is going to live up to the promise it has made to its 
warriors.
    On 20 May 2006 while manning the .50 Caliber machine gun mounted to 
the turret of a Humvee I took a single enemy sniper round to my left 
chest/axilla. From there I was ground medevaced to my Battalion Aid 
Station where medics attended to me until I was airlifted to Al 
Taqqadium Air Base. From there I moved on to Balad, then was airlifted 
to Landstuhl where I spent my 21st Birthday, and then flown to Walter 
Reed. This is where my difficulties would begin.
    While at Landstuhl I was able to make contact with my mother, who 
was instructed at that time by a member of my nursing staff that she 
should try to meet me at Walter Reed because that was my final 
destination based on all information available at the time. My mother 
attempted to make contact with the Army to see about getting a flight 
to meet me at Walter Reed she was then informed it would take nearly 10 
days to process. This is something that any parent or loved one simply 
can't accept, so instead she was able to purchase her own tickets and 
bring herself and her husband to Walter Reed where they wheeled their 
luggage around the hospital waiting for me until they were finally able 
to find assistance and get lodging. To this day my mother was never 
able to get reimbursed and eventually gave up trying. In the scheme of 
things it isn't that big a deal but a matter of principle that my loved 
ones were told that it would be over a week before the military could 
help her come to my side.
    My first difficulty at Walter Reed was in regards to my immediate 
care by my team of doctors. The resulting surgeries from my injury had 
left a fairly large hole in my chest/arm and when trying to discuss a 
treatment plan with my doctors, there was a lack of. At first it was 
presented to us that I would have this large whole in chest/arm for the 
rest of my being and that was just no getting any answers out of my 
doctors. Again, I know the Army has its way of doing things and that at 
the time I was lowly PFC, who am I to ask questions? But I did not nor 
do not believe that is the most beneficial approach if we are truly 
concerned with the mental and physical wellbeing of our injured troops. 
I can honestly say that it wasn't beneficial to lie in that hospital in 
that beginning week not knowing what was to become of me. It took my 
mother contacting Senator Ted Stevens office for my doctors to finally 
come in and answer the questions we had, which weren't many, but the 
simple reassurance and insight of the doctors made it a little easier 
to start to accept what had happened to me.
    After my impatient stay I was downgraded to outpatient status and 
attached to the Medical Hold Company where I made it very clear that I 
was only ``attached'' and not ``assigned'' as I was eager to return to 
Ft. Campbell. I had heard the horror stories of fellow soldiers who had 
been at Walter Reed for years waiting to see what the Army had in store 
for them, and I wished not to become part of that trap. Because my 
mother was still at Walter Reed I was able to just stay with her at the 
Mologne House Hotel on the compound and therefore I didn't have to 
suffer the poor living conditions that others had to deal with, but I 
do remember listening to some of the other soldiers discuss how 
terrible their quarters were. My barracks at Ft. Campbell had black 
mold that seemed to get ignored by our chain of command, but then again 
none us had open wounds we had to care for either. I was asked by a 
leader in my Med Hold Company if I could reschedule an appointment so 
that I could stand in formation for a Change of Command ceremony, 
something I refused to do.
    After my last outpatient appointment I was reassigned to my unit 
back at Ft. Campbell where I served on Rear Detachment with many of the 
other wounded soldiers from my company. It is at this time that I began 
my symptoms and was diagnosed with PTSD.
    It was here me and my fellow wounded E-4 and below types was asked 
to trim hedges and run lawnmowers by able-bodied, newly transferred, E-
5 types. But let me mention that my skin graft to my chest/arm hadn't 
healed sufficiently enough to provide me with the strength to properly 
and safely maneuver a push lawnmower. Nor do I think it was the job of 
my friend was ankle was held together by bands and had a flat land 
walking profile to try and drag his bad leg over the uneven ground we 
were asked to cut. Prior to our injuries we would have willingly 
performed these duties, but not like this, not as we were still doing 
our best to heal ourselves.
    We were moved 3 separate times because there were no barracks for 
us as our company barracks were being ``reset'' for the return of our 
company that was still in Iraq. It is also here that we ``discouraged'' 
from attending our appointments because there was painting to be done, 
it is here that we were punished for not showing up to formation or 
flag raising duties, because whatever medication many of us were on 
interrupted or lengthened our sleeping schedules.
    Whatever lack of understanding on the part of the Rear D leadership 
there was, it didn't get much better when my company returned from 
Iraq. Since my departure from Iraq there had been changes in leadership 
on the company and platoon level. So now my new leaders who knew 
nothing of me and prior performance and I were faced with challenge of 
what to do with me until the Army and my injuries dictated what was 
next for me. As it would come to be I would eventually start my Med 
Board due to the permanent damage to my chest/arm and the PTSD both 
which interfered with my responsibilities as an infantryman.
    Looking back I do want to say that I no negative feelings on the 
actions of the leadership and the things were we asked to do on Rear 
Detachment. It was simply the result of untrained leaders who hadn't 
been properly trained in how to deal with those of us who had these 
injuries. I understood it then and I understand it now. Before I was 
discharged, Ft. Campbell was very close to setting up its Warrior 
Transition Unit, and from what I have heard it addresses many of the 
challenges that I and others had to face post-injury with our regular 
line companies. I just feel it is important for me to voice how much I 
agree with the establishment of the WTUs and that I hope that they are 
making a difference in the recovery and even possibly saving the 
careers of injured soldiers. The worst thing that can be done is 
forcing someone to soldier when they haven't fully healed.
    In June 2007 I was placed on the TDRL with a combined disability 
rating of 60%.
    The process of leaving Ft. Campbell was interesting to say the 
least. Once I had received my Med Board findings and received my 
retirement orders then it was all out rush to try and check all the 
boxes that I had to check before I could leave, yet my doctor was a 
little unpleasant with the idea that I was leaving the area while my 
arm/chest injuries were stilling being treated. Since my last 
appointment with him at Ft. Campbell I have not had any further 
treatment or attention paid to my chest/arm, with the exception of 
brief physicals for VA C&P exams and Army Med Boards. At this point I 
don't believe that much there is anything that could be done besides 
continuing my prescription for pain medication that I have to take to 
help numb the daily pain. But the fact that I was doing OT at Ft. 
Campbell, and my doctor was concerned with me not finishing whatever he 
may have had in mind simply makes me wonder.
    Upon leaving Ft. Campbell I returned to Alaska where I enrolled in 
school at the University of Alaska-Fairbanks hoping to keep myself busy 
and to try and move on with my life. I was able to find employment at a 
local liquor store with the help of my mother, as it is the same 
company she works for. I simply took because it was offered to me and I 
had made it very clear that school was my priority and that I may have 
occasional VA appointments to attend.
    (Also upon my return to Alaska I would receive a VA pre-
stabilization rating of 100%, which would eventually be downgraded to a 
stabilization rating of 80% due to the improvement of my hearing. I can 
also say that my PTSD is anything but stabilized and has gotten worse.)
    My PTSD really began to give me even more trouble as I was away 
from my fellow wounded friends and had little support here with the 
exception of a few family members and friends who understood nothing of 
my situation, but I was able to scrape by through the use medication, 
some counseling, and trying to force my way through school, and I 
believe at one point I was making some progress.
    In December 2008 I had my Army PEB re-evaluation where I was 
permanently retired at a stabilized 60% combined rating. But in light 
of recent events I have now learned that I was one of the 4,300 
veterans who were shorted on my PTSD rating. Apparently a 50% 
disability rating is the standard when rating for PTSD, yet I among all 
these others were given less, myself 30%. (So I don't know what this 
will mean for my final rating if it will be increased or not. But why 
were we shorted?)
    You have asked me to describe some of the difficulties I have had 
in the transition from active duty to being veteran and a civilian . . 
. 
    For starters the first difficulty is simply accepting the lowered 
social status that being a veteran is. When you wear the uniform, you 
are easily identifiable. It's all there . . . name, rank, awards, 
combat patches. As veteran you lose that, my physical scars are hidden 
by my clothing; my mental scars are buried even deeper and everything I 
worked so hard for in the Army had been taken away from me and doesn't 
mean anything in the civilian sector. If only it was so easy to walk 
around with a t-shirt that says ``I have PTSD, please don't bother 
me.'' Even if it was, how can I ask society to understand something 
that I don't even understand?
    The foremost difficulty is trying to find a place to fit in and 
people to relate to. I've been trying to go to school for a profession 
that probably isn't suited for me, yet I have been faking my way 
through my courses because I can't actually concentrate to learn and 
retain anything. When I am in class, young 19 and 20 year kids stare at 
me because I remain at my seat during group activities and projects. At 
work, I am berated on a daily basis by alcoholics and other members of 
societies' cesspool. I frequently am told that I need to ``be more 
sociable and friendly.'' I have to listen to people get upset because I 
don't ask them how their day is going, but instead try focus on 
counting money correctly and trying check ID birth and expiration 
dates. At home I find myself sifting through my book, music, and movie 
collections trying to find something to block out the demons, but 
usually find myself staring off into space. The few intimate 
relationships I have been able to maintain are usually hindered by my 
bouts of depression and anxiety. My personal interactions last until 
the Valium wears off. It is hard to accept being a disabled veteran 
since the age 22 and never knowing what tomorrow is going to bring.
    I have tried to use some of the resources available to me when they 
are available. As I have mentioned I have been trying to go to school 
to make something of myself but it has not been an easy process. I 
choose to go the route of VA Voc Rehab when deciding to use my 
education benefits hoping that it would be tailored to the more 
specific needs of disabled veterans such as myself. Yet this hasn't 
been case. When I first went to set up my education plan I was told to 
go out and find all sorts of information that was required to put 
together my future education goals. Naturally I wasn't really sure 
where to start and was further disheartened when my Voc Rehab counselor 
not only couldn't guide me but I felt sent me on a wild goose chase. 
Again I would like to remind you that I thought that by going the Voc 
Rehab route as opposed to the G.I. Bill route I would have access to 
additional resources and aid in the whole planning of my Vocational 
Rehabilitation. I went out and found what I thought was being asked of 
me and returned it to the counselor only to be told it was sufficient 
enough. It was only on the 3rd time that I have apparently gathered the 
necessary information to set up my education plan. I truly felt and 
still feel that there was a complete lack of communication on the 
counselor's part in making it clear what he needed from me. It is 
because of this that I spent time, fuel, and energy searching for 
something that should have been easier to obtain had I been given 
proper guidance.
    I enrolled in a course one semester and again lacking information 
and not knowing how the course withdraw process worked I ended up 
failing a course I could not complete due to a flair up of my PTSD 
symptoms. But instead of getting sympathy, and an air of understanding, 
instead I got the lecture that if I fail another course then we may 
have re-analyze the VA's commitment in my future educational goals. 
Understandable, we can't have the VA dumping tax-payer dollars down the 
drain while I sit around trying to battle my way through my new 
disability. Sadly I had the misconception that I would get a little 
more support being a disabled veteran using the Voc Rehab program.
    As per my degree requirements I have to take humanities elective. 
When I enrolled in this course I then received emails and phone calls 
from the counselor informing me that the UAF Veterans Coordinator had 
informed them that this course wasn't part of my degree and the comment 
was made that I can't just be out there ``free lancing my education.'' 
Let me make it very clear that I hate school. I love learning new 
things, but if I had it my way, I'd be done with school already and on 
with life. When I tried to explain things I became extremely frustrated 
that such an accusation was made toward me especially considering that 
I was going off of the same piece of information that it had been such 
a pain to get a hold of in the first place. It reached the point where 
I decided that I wasn't going to put up with it anymore and I decided 
that I would pay for the course out of my own pocket because I wasn't 
going to deal with any more of the counselor's lack of competence in 
this matter.
    When I contacted a supervisor about some of these issues I was 
basically told that it wasn't the Voc Rehab counselors' job to ``hold 
my hand.'' Fair enough, but then why I am using the CH. 31 Voc Rehab 
benefits which provides no additional support when I might as well use 
CH. 33 G.I. Bill benefits where I stand to at least gain additional 
monetary benefits. But that's not what I am after; I just want to get 
healthy enough to function. As it may not be the job of Voc Rehab 
resources to ``hold my hand.'' At the same time I don't believe it's my 
job to hold theirs. How can accusations of how I am handling my 
schooling be made when these individuals no nothing more of how the 
university works then I do?
    (But I do ask the question: Will we ever see a day when Voc Rehab 
compensation will match G.I. Bill compensation?)
    The VA isn't the only one to blame when in regards to some of these 
issues though, the university has their weight to bear as well. I have 
yet to officially meet with an academic advisor to plan my course of 
action. The Veterans' Coordinator is never allowed to be seen the two 
times I have requested, and it is only in this past semester that I 
have learned the Student Services for Disabilities could have been 
helping me to possibly tailor my courses to fit my needs a little 
better. I just wish there were someone that could say, ``We understand 
you have problems, but we are going to work the best we can to help you 
be successful in school, here is what is available to help you.''
    All of these resources, whether they be for school or for 
healthcare are difficult obtain at times. The first battle is even 
learning they exist, and then trying to access them is a whole 
different battle altogether. It seems like whenever I go anywhere to 
ask for help, there is always someone else I have to talk to first. 
Then when I go to speak to that person, I have first have to talk to 
another additional individual.
    As we all know access to healthcare is probably the largest issue 
concerning veterans. When I have actually been able to get an 
appointment I haven't had too many issues, but have had issues none the 
less.
    Mental health counseling appointments are non-existent. When I was 
receiving counseling it was once month until my counselor left for a 
new job and has yet to be replaced. Unless you are at the very moment 
they ask you, an immediate danger to yourself or others there are no 
time slots available. Instead I have maintained myself with a steady 
stream of Valium until I eventually slide just far enough down the 
spiral that I can honestly say I may injury myself or others.
    I have taken time off work on multiple occasions to go to 
appointments to have them be canceled by the doctor without informing 
me before I walk though the door, or to sit and wait for hours to get 
in for a 10 minute visit. These are appointments requested by the 
doctor mind you. Or better yet I had to take time off of work, skip 
class, fly to Anchorage at 6AM for a 1015 appointment, only to be taken 
into the examination room at 1130 and be told that my medication wasn't 
ordered and I would have to come back the following month. So not only 
had I lost a half day's wage, class room time, but the icing on the 
cake was when the nurse also informed me that I should be sure to call 
next time before I fly down to make sure that VA employees had ordered 
my medication. Mind you I spend half my day trying to remember if I 
locked the house before I left it.
    As far as my employment goes, as I mentioned I was fortunate to 
find a job that has been willing to be more then gracious in letting me 
take time off for school and my injury related issues. But it has come 
at the cost of sanity and overall wellbeing, as of writing this 
testimony I have in fact taken an indefinite leave of absence from my 
work to try to recover from a recent mental breakdown. I am doing my 
best to just manage my simple daily affairs and hope that one day soon 
I might be able to return to work providing I can get my PTSD back 
under control. But these are going to be real concerns if I lose this 
job because I can't work, or what am I going to do in the future when I 
can't find an employer who is willing to give me the time off I need to 
battle my demons and spend my time waiting for canceled appointments.
    I feel terrible, for it seems that all I have provided is a laundry 
list of complaints, and don't feel I have addressed what was asked of 
me. I wish I could provide solutions instead of excerpts of whining. 
Unfortunately, there are no easy answers and filling holes I feel is a 
mighty task and I applaud the efforts given whatever they may be. As 
with much in life there must be some level of attrition when addressing 
who should receive and how much in benefits should be given out. It is 
sad that there are individuals out there that have found a way to take 
advantage of the system, while those of us who fully deserve it are 
forced to fight tooth and nail for what we have earned.
    For me the two biggest problems facing a young, transitional, 
disabled combat veteran such as myself . . . is the understanding of my 
injuries, particularly the PTSD and the availability and utilization of 
resources.
    I don't understand myself, society doesn't understand me, and the 
resources are lacking right now to help bring me back as a 
participating member of society through counseling and education. What 
resources are available, nobody either knows about them themselves or 
they choose to not inform me about them.

    Thank you for your time.

    Senator Begich. Thank you, Robert, very good. I appreciate 
your testimony.
    Lieutenant Colonel Sheehan, why don't you go next. I 
appreciate you being here and good to see you again.

 STATEMENT OF LTC JOE SHEEHAN, USA (RET.), CHAIRMAN, NORTHERN 
                ALASKA MILITARY RETIREE COUNCIL

    LTC. Sheehan. Good afternoon, Senator, and ladies and 
gentlemen. I'm Joe Sheehan, a retired Army officer, a life-long 
Alaskan, and a former inspector general for the Army here in 
Alaska.
    First, sir, I want to thank you all for coming here to 
listen as well as for allowing me the opportunity to contribute 
here today. And, Senator, I'd like to also personally recognize 
you and thank you for your focus on veterans' and retirees' 
issues since you've been in office.
    In the interest of time, I'll let my written submission 
speak for itself. It lays out the same broad issues that are 
unfortunately just as valid today as they were 3 years ago. 
And, frankly, that's truly the problem. I could tell you the 
horror stories of veterans with lost records, delays, and 
denied benefits, et cetera, but I don't want to focus on the 
symptoms of problems in VA. You'll hear that from others, and 
the VA IG report is damning enough.
    Instead, I want to constructively focus instead on laying 
out a vision for the way ahead on systemic issues, for where to 
go from here. How can VA better meet its mission obligations to 
veterans? How can that effort also make a critical difference 
in this fragile but interdependent fabric of health care that 
we have here in Alaska with limited capabilities? And how can 
we leverage VA and interagency capabilities to pioneer a model 
for the rest of the system that might benefit everybody?
    I have five key points I want to take away here. The first, 
Senator, is that I appreciate your determined efforts since we 
talked in November, toward establishing the Alaska Health Care 
Task Force. That is a critical effort. I can't tell you how 
important that is to prioritize and help develop a strategic 
vision up here for improving efficiencies and useful support. 
That can't be done from Washington, DC, in a cookie-cutter 
fashion; it has to be done from the ground level. It will 
significantly improve access to health care for the rest of 
Alaskans in addition to us Federal beneficiaries, of which we 
comprise 43 percent of all Alaskans. And there are many 
examples where veterans, retirees, and our active-duty family 
members in Alaska are unfairly denied both access and delivery 
of health care on a level equitable to other States, and that's 
a proven fact.
    The second critical need, meanwhile, is to take care of the 
low-hanging fruit, such as a few unique and simple frustrations 
that we have that we can't surmount because Congress must allow 
them an actual legislation and word of law. Some of these 
include things like: the inability of TRICARE managers here in 
Alaska to designate patients to civilian PCMs, just as most 
other States do; the lack of reimbursable travel provision and 
TRICARE for life, where people have to travel around from our 
remote regions and have nothing when they get there, and have 
to take their families along with them; proposed distance and 
drive-time limits on TRICARE Prime here in Alaska, which are 
currently on waiver of being threatened again.
    The third issue I want to discuss is that I don't want to 
see all of the dedicated members of VA tarred. Many wonderful 
people, like Linda B. over there, work daily and work very hard 
and there isn't a veteran in this town that doesn't know her. 
However, I do want to say that we do need to change the culture 
of VA as an agency and especially in regard to both its level 
of commitment and its focus of investment here in Alaska.
    I'd love to get specific and I can later if you'd like, but 
the key concerns are in the areas of attitude, capacity, 
access, and outreach. VA has an unhealthy Anchorage-centric 
mentality in a State one-fifth the size of the United States. 
Rural vets do not have acceptable, let alone equitable, access 
to health care. Fairbanks should be a more viable VA hub for 
Northern Alaska and the watershed that it serves.
    VA education programs should be the catalyst for spreading 
a homegrown health care capacity across this State and the 
synergy of these and other task force-style ideas would save VA 
a lot of money while delivering far better access to veterans, 
but would also grow sustainable health care services for all of 
our rural veterans and serve as a foundation for the prosperity 
of this State. We cannot fail to do that. This would be a win/
win for everybody.
    The fourth point is the importance to note that VA, as you 
well know and I know you know this, is not the only subset of 
Veterans' Affairs. Too often, however, hundreds of veterans' 
bills, quote/unquote, focus upon VA, but most of the Members of 
Congress don't seem to understand that these bills usually do 
not include or even help retirees and the families of our 
active-duty military. These active-duty military are on the 
same TRICARE and are not part of the VA system. A young 
specialist or young airman has to go out there and find access 
in the community here in Alaska while they have two kids, and 
they have trouble finding that, and especially doing it 
affordably and a lot of times things are deferred as a result 
of that.
    However, while they're entirely separate systems, there is 
much to be improved by way of mutual support and shared 
efficiencies, and we aren't mining those now, but these must be 
allowed in legislation and by policy.
    This brings me to my fifth and final point. With respect, 
sir, Congress has been part of the problem instead of being 
part of the solution, and that's why I appreciate your direct 
efforts here today and your focus on these issues. Too much of 
the system is based upon stovepipe parochialism and entangling 
regulations which restrict each agency's ability to effectively 
offer a best practices approach to delivering services and 
health care, let alone optimize efficiencies between agencies.
    Then there is the annual fight to sustain things like the 
funding of inadequate band-aid patches for things like 21 
percent Medicare that we spend all that energy on every year. 
And why? Often the best answer is not more money, but to truly 
fix the programs or policies at hand. We need to change the 
paradigm at both VA and in Congress, otherwise, if we do what 
we always did, we'll get what we always got.
    The bottom line, sir, is we can do better, we should do 
better, we must do better.
    Senator, and ladies and gentlemen, I could cover more, but 
my 5 minutes are up. So, subject to your questions, this 
concludes my initial statement. Thank you.
    [The prepared statement of LTC. Sheehan follows:]
          Prepared Statement of Joe Sheehan, Northern Alaska 
                        Military Retiree Council
VA/AFAP 2010 ISSUE SHEET
                                                                FWA 2010

    Two related issues submitted by the Northern Alaska Military 
Retiree Council:

    1. ISSUE TITLE/SUBJECT: TRICARE authorization to designate patients 
to a civilian PCM.
    SCOPE: Bottom line: Alaska TRICARE managers need authorization, 
like other states already have, to designate to civilian PCMs (primary 
care managers) for care unavailable locally or too distant for the 
members who are in TRICARE Prime. This greatly affects both our active 
duty military families and retirees in Alaska, as well as having a 
direct impact upon the ability of local military medical capacity to 
optimally manage patient requirements and demand using best practices. 
In addition to providing many efficiencies for the TRICARE system as 
well as the promised and equitable level of service/care for retirees 
and active duty family members, this would benefit the entire fragile 
interrelated fabric of health care in Alaska by supporting a more 
robust medical capacity in these under-served areas. TRICARE managers 
in other states can and do establish civilian PCMs, but Alaska has no 
such authority within the TMA or contract at this time, even though we 
are arguably in the greatest need due to remote and far flung health 
care facilities with very limited capabilities that are not now 
sufficient or mutually supportive. This is yet another example of where 
Alaska has been excluded, by policy, from levels of care standards 
equitable to that provided to the rest of the US.
    RECOMMENDATION: Approve authorization for Alaska TRICARE managers 
to designate patients to a civilian PCM and best manage their available 
resources.

    2. ISSUE TITLE/SUBJECT: Modify the TMA proposed rule change 
language which allows exclusion of Alaska's TRICARE Prime enrollees who 
are not within drive time waiver areas.
    SCOPE: The TRICARE Management Activity (TMA) has proposed a rule 
change (below) which rightly codifies the current reimbursement rate 
demonstration project as permanent. That highly successful demo project 
has been sustaining our critical local rates and access to care since 
we asked for that as an interim band-aid solution to the access 
concerns of our active duty military families and military retirees who 
all rely upon TRICARE access. However, our concern with this current 
proposal is the wording at the end which would allow TRICARE to 
specifically exclude Alaska's Prime enrollees who are not enrolled to a 
military treatment facility and thus can be subject to losing 
eligibility for Prime based upon an arbitrary drive time (distance) 
concept which is inappropriate for Alaska. This problem is especially 
critical to both our active duty family members and retirees who are 
just outside this limited drive time area, which has recently been 
waived for now. This issue is directly related to our other submitted 
issue (see issue # 1, above) regarding the need to allow TRICARE 
managers to designate to a civilian primary care manager (PCM). The 
availability of care in Alaska's remote areas does not fit a cookie 
cutter approach appropriate for more densely populated regions of our 
Nation and this part of the TMA rule would be highly detrimental to 
Prime enrollees who truly have no other valid option for promised and 
equitable levels of care. They should not be forced to reduce their 
policy to TRICARE Standard due to location. A fair and more effective 
alternative solution is proven by the example of other states who can 
establish civilian PCMs, but Alaska has no such authority within the 
TMA or contract at this time. In addition to hurting our active duty 
family members and retirees who reside outside these drive time limits, 
approval of this proposed rule will result in the certain failure by 
TMA to allow TRICARE managers the flexibility to manage for best 
practices in the best interests of its patient population which must 
rely upon TRICARE PRIME, since there is no other equitable level of 
promised health care available.
    TMA's Proposed Rule:

          ``TRICARE Management Activity published a proposed rule in 
        the Federal Register <http://edocket.access.gpo.gov/2009/E9-
        28357.htm> on Nov. 27, 2009, to incorporate current practices 
        from an ongoing demonstration project as permanent changes to 
        the administration of the TRICARE program in Alaska.''
          ``TRICARE has recognized the unique circumstances existing in 
        Alaska, which make the provision of medical care to TRICARE 
        beneficiaries through the TRICARE program operated in the other 
        49 states unrealistic. Recognizing these unique conditions and 
        circumstances, the Department of Defense has conducted a 
        demonstration project in the State of Alaska since 
        implementation of the TRICARE program under which certain 
        exceptions have been made for administration of the program in 
        Alaska.''
          ``This rule proposes no change to the TRICARE benefit or to 
        those who are eligible for it. However, the rule does eliminate 
        the financial underwriting of health care costs in the State of 
        Alaska by a TRICARE contractor. In addition, TRICARE Prime may 
        be limited to those eligible beneficiaries enrolled to a 
        military treatment facility and those eligible for TRICARE 
        Prime Remote.''

    RECOMMENDATION: Modify the TMA rule proposal to specifically 
eliminate any potential to restrict Alaska's TRICARE Prime enrollment 
or coverage using a drive time limitation. Instead, specifically allow 
Alaska's TRICARE managers to more flexibly resolve the problem by 
designating these enrollees to a civilian PCM (see issue #1).

    CONTACT INFO: Joe Sheehan, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f69c9993d8859e93939e9798b691959fd8989382d8">[email&#160;protected]</a>

    Senator Begich. I want to thank you, Joe, for your 
testimony. And just to remind folks, as you do testify and you 
have that written statement, that is also part of the record. 
Again, thank you for visiting Washington, DC, that one time. It 
gave me a great idea and I appreciate you sharing that number 1 
choice because we moved it forward. I thank you for that.
    LTC. Sheehan. Thank you for your efforts, sir.
    Senator Begich. Absolutely. I'll have some questions I know 
on that. Ron Woolf, thank you for being here with the ESGR and 
a great group of supporting our employers supporting the Guard.
    Oh, you know what we need to do, we need to slide that 
microphone over. I apologize. One, we want to make sure the 
people can hear you, but also that it's on the record. There we 
go. So, please.

 STATEMENT OF RON WOOLF, CONTROLLER AT GOLDEN VALLEY ELECTRIC 
 ASSOCIATION; AND UNIT REPRESENTATIVE, EMPLOYER SUPPORT, GUARD 
                          AND RESERVE

    Mr. Woolf. I'd like to thank you for the opportunity to 
testify here today. In my real job, I'm the controller at 
Golden Valley Electric Association and I volunteer to support 
men and women serving our Nation's National Guard and Reserve. 
I think I'll just read my testimony.
    Senator Begich. Sure, please.
    Mr. Woolf. Thank you. Members of our local Employer 
Supported Guard and Reserve met to discuss my testimony and the 
message we'd like to share. ESGR is a Department of Defense 
organization that seeks to promote a culture in which all 
American employers support and value the military service of 
their employees.
    The Nation's reserve components, referring to the total of 
all National Guard members and reserve forces from all branches 
of the military, comprise approximately 48 percent of total 
available military manpower. The current national defense 
strategy considers the National Guard and Reserve as full 
partners in the fully integrated total force. ESGR's mission 
focuses on building relationships between guard members and 
reservists and their employers. We strive to educate employers 
about the Uniform Services' Employment and Reemployment Rights 
Act, USERRA, while promoting the benefits of hiring military 
personnel.
    USERRA is a Federal law intended to ensure that persons who 
serve or have served in the Armed Forces, reserves, National 
Guard, or other uniform services are not disadvantaged in their 
civilian careers because of their service, are promptly 
reemployed in their civilian jobs upon their return from duty, 
and are not discriminated against in employment based on past, 
present, or future military service. The Federal Government is 
to be a model employer, as it says in the act.
    Our experience with Fairbanks employers is excellent. As 
you've mentioned, we have a lot of veterans and a lot of 
military in Alaska. The Federal and State upper management are 
very well versed on USERRA, but mid- and low-level managers do 
not receive training on the Act's requirements. This is an 
opportunity where the Veterans' Affairs Committee can help our 
returning soldiers.
    When I first started with ESGR, our mission was to educate 
employers about their traditional National Guard and Reserve 
employees who are gone for short periods of time. We've 
informed employers about the importance of those missions. The 
extended deployments now being experienced by our soldiers has 
created new challenges for our men and women returning to the 
workplace. I'd like to share the following experiences with 
you.
    Deploying or returning servicemembers are often put in 
situations that make the transition difficult due to their 
immediate supervisors' lack of knowledge. They are not provided 
authorized benefits, they're excluded from consideration for 
promotion, and forced to provide written documentation to 
justify the rights they are granted under the law.
    Servicemembers have had to educate their immediate 
supervisors on their rights. The Federal Government is to be a 
model employer under USERRA and yet large entities like Federal 
and State agencies often have the largest number of inquiries 
or requests for assistance after deployment due to lack of 
knowledge of mid- and low-level managers. Co-worker 
relationships are challenging for many National Guard and 
Reserve servicemembers. Deployed servicemembers return to a 
work environment that sometimes is hostile due to lack of 
knowledge on the part of the co-workers, co-workers who have 
had to pick up additional workloads or wonder why the deployed 
employee received a benefit or seniority when they are not at 
work. Co-workers hired while a servicemember is deployed often 
have the hardest time understanding the situation because they 
did not see the support the deployed worker received prior to 
deploying, all the effort made by the deploying servicemember 
to help the employer prior to their departure.
    When servicemembers return to this type of workplace 
negativity, it is hard to readjust to their jobs and their 
deployment can be seen as a cause of strife in the workplace. 
When one local soldier returned to work with an employee that 
was temporarily promoted to backfill his position during his 
deployment, that employee enlisted the support of several other 
personnel in the office in an attempt to keep himself at the 
higher grade. This led to a very negative work environment 
until several months later when the temporary replacement was 
moved to another position in the department.
    Businesses and organizations have a difficult time 
temporarily replacing National Guard and Reserve members who 
are educated and trained for their jobs that need to be filled 
by other employees. Some businesses and organizations are 
unable to find temporary employees and will fill from within or 
for a current employee the opportunity to work temporarily in 
another position at a higher level, which still leaves the 
employer short of personnel.
    The Veterans' Affairs Committee can help National Guard and 
Reserve members by rallying the support of mid- and low-level 
managers for our soldiers. While this is an overall task to 
educate all employers, you do have influence over our Federal 
managers and front line employees. Education will be the key to 
understanding perhaps federally mandating supervisor training 
that includes USERRA. It would benefit the employer, employee, 
and the co-workers.
    We at ESGR have posters that identify basic USERRA rules 
directed primarily to the employer. We could use the same 
medium directed toward co-workers to provide an understanding 
and to obtain their support rather than a disdain for our 
soldiers and airmen. Thank you.
    [The prepared statement of Mr. Woolf follows:] 
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Begich. Thank you very much. That was very good, 
Ron. Thank you for your testimony. Thank you, all four of you, 
for your testimony and presenting it. I have some questions. 
I'll randomly go through them and then as I finish this, we'll 
have a second panel with some questions you have generated for 
me to ask them, which is good. That's part of the process here, 
and so you have given me some good thoughts.
    Linda, you had mentioned several areas that claims are sent 
out or brokered to, but the one that really stuck out for you 
was San Diego.
    Ms. Boisseau. Oh, the claims are horrible, sir.
    Senator Begich. And is it that once they receive them, it's 
the process they take? Or is it a combination of things, how 
long it takes them to do it, or lack of communication? What are 
the----
    Ms. Boisseau. It's a little bit of both.
    Senator Begich. OK.
    Ms. Boisseau. First of all, it's not necessarily the length 
of time. It's the caliber of the rating decision that they 
render.
    Senator Begich. Because you said there's a high rate of 
appeals off of those.
    Ms. Boisseau. Absolutely, because of--they have not looked 
at the evidence that was presented in the medical records. It's 
like they didn't even open the darn thing.
    Senator Begich. Is there something you have at your 
disposal and if not I'll be asking some other folks on the next 
panel, but these claims get brokered out to, you said, Salt 
Lake, Seattle, and San Diego as examples. Do you have in your 
capacity to report, well, San Diego, 70 percent go to appeal? 
Or Seattle, 20. Do you have any of that hard data? If you 
don't, that's OK, I'll ask the next panel to----
    Ms. Boisseau. No, not at this time, but the thing of it is 
we have to broker those claims out because we do not have the 
people trained in Anchorage----
    Senator Begich. Right.
    Ms. Boisseau [continuing]. To handle obviously the rating 
systems. I'm not being disrespectful and I do understand that. 
I'm not dinging the VA here for that, you know, because to 
become a rater, it's a very long process if you're worth your 
salt; and it's really an intense system, you know. But for some 
reason they have a lot----
    Senator Begich. They always have a high appeal rate.
    Ms. Boisseau. A very high appeal rate as compared to the 
other sources, yes, sir.
    Senator Begich. That's a good point. I mean part of what 
the process of this hearing is, is to not only look at some of 
the VA services, the employment services, those issues, how we 
can look to improve them, but this is good information. I'll--
--
    Ms. Boisseau. It's like having to do the claim all over 
again because you're trying to start from square one because 
then you've got the official Notice of Disagreement. They have 
to go through the process, and we win anywhere from 63 to 82 
percent of those claims on appeal or Notice of Disagreement. I 
mean, like from February of last year to this year, we have 
done over $8 million in claims just for the disabled veterans 
in the State of Alaska.
    I mean, we're out there humping and trying really hard----
    Senator Begich. Right.
    Ms. Boisseau [continuing]. I mean I'm just at a frustration 
level, which I know also for Anchorage because they don't have 
control over those raters from those other places.
    Senator Begich. Other places.
    Ms. Boisseau. I don't know that it's being brokered out 
until I receive the final determination on that claim. So, it's 
nothing like, hey, wait a minute. Should I put a note on this: 
Do not broker out. I can't do that. I can't do that. That would 
be ludicrous.
    Senator Begich. Right. But you don't get noticed on when 
they----
    Ms. Boisseau. I get no notice until the claim comes back.
    Senator Begich. Until completion.
    Ms. Boisseau. Absolutely. Yes, sir.
    Senator Begich. So you don't know where it's actually being 
dealt with at that point?
    Ms. Boisseau. Correct.
    Senator Begich. Let me ask you one other question and that 
is--I thought it was interesting--the Call Center. I don't want 
to put words in your mouth, but what I heard was your concern 
that the Call Center, when there are questions they may not be 
aware of some of Alaska's, kind of unique situations----
    Ms. Boisseau. Absolutely.
    Senator Begich [continuing]. Like the property tax 
exemption is a great one.
    Ms. Boisseau. Absolutely.
    Senator Begich. And you're right, it's 170,000.
    Ms. Boisseau. Uh-huh.
    Senator Begich. And, you know, how does that work?
    Ms. Boisseau. Hunting, fishing license, all the other stuff 
that goes with it.
    Senator Begich. Right. The hunting license, the fishing 
license.
    Ms. Boisseau. But they can't get any of that without that 
letter stating, you know, that----
    Senator Begich. Right.
    Ms. Boisseau. You know. And they have to be handled in a 
timely manner, by the 31st of March. And if it's not, then----
    Senator Begich. Yeah, you lose the year.
    Ms. Boisseau. Absolutely.
    Senator Begich. There's no two ways about it.
    Ms. Boisseau. They do not acknowledge the property tax 
like, let's say that somebody filed in January of this year. It 
was granted, you know, all the way. But I mean retroactively 
they still have to pay those taxes. So I mean----
    Senator Begich. That's right, yeah.
    Ms. Boisseau [continuing]. For that delay, it's a big loss 
of revenue for the veteran's family.
    Senator Begich. And is it your sense, and I'll ask this as 
we get to the next panel, but is it your sense that maybe some 
additional training for those call centers----
    Ms. Boisseau. Perhaps on Alaska's unique situation. I 
don't----
    Senator Begich. Right, for those that handle Alaska calls.
    Ms. Boisseau. It should not be that difficult. But who is 
to say? The VA may take it any time and say, OK, we're not 
going into Phoenix anymore on the 1-800 number; maybe we're 
going to go to blah, blah, blah. So it's an easy fix, but it's 
frustrating because the veterans are not getting that paperwork 
in a timely manner.
    It's a simple, easy fix if the training includes, ``Alaska 
is unique with the property tax exemption ladder.'' It 
shouldn't take a rocket scientist to figure that out--to make 
sure that if it says Alaska, let's just say, OK; Alaska, the 
benefits associated with 50 percent or higher. That's an easy 
fix for a telephone person.
    Senator Begich. Yeah. And the good thing about Alaska is we 
just have one area code, so it's not complicated to figure----
    Ms. Boisseau. No, it's not.
    Senator Begich. I'm learning that in DC, you can be calling 
just a few miles and have a whole different area code.
    Ms. Boisseau. I'm not trying to be mean about it, but it 
does----
    Senator Begich. No, no, that's good information.
    Ms. Boisseau. It does need to be fixed. I mean, these 
little things add up to frustration levels at----
    Senator Begich. Yeah.
    Ms. Boisseau. But, I mean, $170,000. I would be chewing 
somebody's foot off. OK?
    Senator Begich. Yeah. No, I hear you. Thank you, Linda. 
That was very good. That helps me with some additional work. 
But let me ask Robert.
    You did a great job. You had good testimony. You clearly 
are anxious to be productive, have a job, work, get educated, 
do all the things that you want to do to be successful in life.
    I noted you found additional services through student 
services within the university that you were unaware of, but 
not until later down the road, where you had a veterans' 
coordinator maybe not as aware of some of those services. Is 
that a fair statement or am I----
    Mr. Roof. Well, she works in financial aid. It's just one 
of those things that you----
    Senator Begich. Two different----
    Mr. Roof. You tag ``veterans'' onto something and so 
automatically I say, oh, that's for me. You know, like that's 
who I think I should be talking to----
    Senator Begich. Gotcha.
    Mr. Roof [continuing]. Naturally. Because like I said, 
navigating this whole system, that's all I spend my time doing, 
you know, trying to find some guidance. So I've tried talking 
to them, you know, as far as asking is this the correct 
paperwork I'm filling out; is this what I need to be doing?
    Senator Begich. Right.
    Mr. Roof. Is there anything else I need to know as a 
student, as a disabled veteran going to UAF, is there anything 
else I need to know that can help me be successful? Like that's 
all I'm trying to do, is get on with my life and move past, you 
know, these things that have happened to me. I don't regret any 
of this, but I'm trying to now make a new path in life and any 
help I can have doing that--and, like I said, in dealing with 
all these things--I'd be more than grateful.
    And not knowing about them until after all this time--you 
know, I've probably taken years off my life just stressing out 
about this stuff; and it's unfortunate to me, I feel, that I've 
had this much trouble in trying to--like I said, I'm not 
looking for handouts, I'm not looking for people to sit there 
and do my homework for me.
    Senator Begich. Right.
    Mr. Roof. But just tailoring these classes--I mean, I don't 
know how to learn some of the ways some of these other students 
do. I mean, everybody has different learning styles, but 
coupled with the PTSD and my own learning style, it's very 
frustrating. Like I sit in class, yet I can't concentrate and 
just----
    Senator Begich. Well, let me ask this, Robert. Was the 
assumption that when you saw the veterans' coordinator, you had 
a broader sense of what they were offering, but learned it was 
really about financial aid.
    Mr. Roof. Correct.
    Senator Begich. And when you went to student services, it 
was much broader and suddenly you saw some opportunity there.
    Mr. Roof. Well, all that I really got out of student 
services--my VA counselor at the time had told me that, you 
know, the university has something, but basically all that was, 
was I went in and they asked, oh, what is it that you feel? And 
I said, well, I have terrible anxiety. You know, there's times 
where I may just need to get up and walk out of class because 
I'm having whatever issues. And so, it's basically a letter 
that's written up and you get two choices. It says this student 
might choose to leave class for a few minutes to, you know, 
bring himself back together and then return; or this student 
likes to work in smaller groups because he can't deal with 
large groups at this time. And that was all it was. There was 
no additional explanation that I have these difficulties 
concentrating and, you know, whatever. I wasn't informed that 
there could be more that was done.
    Senator Begich. Sure.
    Mr. Roof. Say I was, you know, an autistic student or, you 
know----
    Senator Begich. Well, let me ask you this, Robert, if I 
could. Would it have made a difference if when you walked in to 
the university for the first time and you wanted to be a 
student, that there was a person that said they work with 
veterans and they worked on everything: financial aid, 
services, stuff that students need. They said I'm going to be 
your partner while you figure out what you want to do and help 
you through this early stage of getting started. Would that 
have made a difference to you?
    Mr. Roof. Sir, what's the voc rehab program for? That's my 
question. That's what I thought I would be getting from them. 
That's why I elected to use the voc rehab program. And I may be 
wrong. I----
    Senator Begich. Well, we're going to ask some folks next 
up, so----
    Mr. Roof. Apparently, I was wrong because when I--I failed 
to mention before, but when I made a call to the supervisor 
explaining that I was basically told that they--the voc rehab 
program--weren't there to hold my hand. So, therefore, I feel 
that it's not my job to hold voc rehab's hand.
    Like why am I going out and being sent to find all this 
information and all these inner workings of the school system 
when--and constantly, you know, being forced to prove that I'm 
doing the right thing, like I don't have enough problems going 
on. I don't need to be harassed by people that are supposed to 
be helping me.
    Senator Begich. Right, right.
    Mr. Roof. So yes, basically, it would be nice if there was 
someone there at the university or in-house at the VA that 
says, OK, this is your goal, this is what we want to do, this--
you know, make you a productive member of society again. And, 
say these are the necessary steps that you'll be taking.
    Senator Begich. Right. Kind of guide you.
    Mr. Roof. Right.
    Senator Begich. To give you the freedom to figure it out, 
but also be there to kind of say, well, here's the 20 services 
that are available for you. Kind of help you select, but yet at 
the end of the day you're ultimately responsible for it, though 
helping guide you through that.
    Mr. Roof. Right. Well, just being aware of the information. 
Like I said, I just now found out about the whole disability 
thing----
    Senator Begich. Sure.
    Mr. Roof [continuing]. And the tailoring of this. To say 
these are certain things someone that better understands. 
That's just it; I think part of the problem with voc rehab is 
he doesn't fully understand the whole----
    Senator Begich. The whole picture.
    Mr. Roof. The whole picture of my disabilities and the 
school system. Like I said, when you put those two things 
together there's a reason why I failed my class. It's not 
because I didn't show up or I didn't want to be there or I 
didn't do the work. It's because I had other issues going on. I 
have symptoms, flare-ups, or whatever, and things happen. It's 
not me wanting to go burn, you know, taxpayer dollars and 
freelancing my education, as they put it. I'm just trying to 
get on with life.
    Senator Begich. Yeah. That's very good, Robert. Thank you 
very much for some of that information.
    Let me go to Joe. When you were in my office, you were 
like, bam, bam, bam, and once again you are consistent with 
that, which clearly shows your military background; that is, 
about mission, accomplishment, and goals.
    So, I want to pick one of them out and comment on one. I 
agree with you on the efforts of--on the issue of the Congress 
and how they can really mess things up because there are 
multiple jurisdictions; they try to, you know, package a little 
bit here, package a little bit here--stovepiping.
    So, in your situation of your description, the culture 
change which is probably the most difficult to do in any 
organization--military/non-military, government/non-
government--what would be the one thing that you could say 
here's that would make a difference to really help change the 
culture of the VA to understand what we need to be doing? This 
may be a bigger question than you can answer in a very simple 
way, but could you try to do that? Give me a thought there.
    LTC. Sheehan. Yes, sir. I honestly don't know if I'm in a 
good position to judge that. I can give you a spectator's 
viewpoint----
    Senator Begich. Sure.
    LTC. Sheehan [continuing]. And I think that would give a 
fair assessment. I would say, you know, it's a large and 
ponderous bureaucracy that's tied down by politics and cultural 
inertia, if you will, which is not anybody's fault in 
particular. You've got some wonderful people leading it: 
General Shinseki and General Peake before him at the very top. 
In the trenches every day, like I said, there are wonderful 
people like Linda B., who, you know, are caring and dedicated, 
are making it happen, and they know where the rubber meets the 
road, what they need on the ground.
    Unfortunately, what you have in between there, and I don't 
want to tar everybody, is a lot of people who are invested in 
the status quo and there's rice bowls to protect and there's 
budgets that come down from Congress, and it's the typical 
thing in any typical bureaucracy.
    Senator Begich. Organization, yeah.
    LTC. Sheehan. And I don't mean that as a pejorative. I mean 
it as a----
    Senator Begich. No, no, no, that's good.
    LTC. Sheehan [continuing]. As a definition of a 
bureaucracy. And so the question is, are you listening? Do you 
have a cycle and a process for self-improvement? And even if 
you do, are you able to fit that into the paradigms that are 
given to you by Congress and the mandates for roles and 
missions and say this is what you must do and you can't cross 
money over to other agencies and everything like this.
    So it's real easy to tar people with saying they're not 
doing whatever, and I think in many ways people have their arms 
tied behind their backs yet there are some people who outright 
need to be fired. I'll just give you that perspective. On the 
other hand, you know, 99 percent of them out there are working 
hard and they have effective leadership. They just need to have 
the sort of task force effort we've been discussing----
    Senator Begich. Right.
    LTC. Sheehan [continuing]. To be able to say----
    Senator Begich. To kind of shake it up a little bit.
    LTC. Sheehan [continuing]. How can we make this work on the 
ground? What kind of culture do you have? And going back to, 
you mentioned my military background, so this is my 
perspective. How can you win the battle if you know that you're 
losing it and you aren't listening to your commanders out there 
on the ground who are decisively engaged every day? That's what 
they've got to do. We don't do that well, I'll tell you, which 
is a charitable way of saying it.
    Senator Begich. Thank you very much. Ron, I just wanted to 
comment and then you can comment if you want to. I was very 
intrigued by your comments about the Federal Government and 
that we could be doing more with our mid-level management 
regarding education on the importance of the program. It seems 
like what I was hearing is there's just an information gap. Is 
that----
    Mr. Woolf. Exactly. I think the training needs to go down 
to the managers that are on the front lines that deal directly 
with our deployed soldiers. Get some education for them plus 
something that would give the rest of the employees 
understanding of what's going on and the rights that their 
fellow employees who choose to be in the guard and reserve----
    Senator Begich. I want to ask at a later time, maybe not 
during the hearing here, but for my staff to follow up on a 
question. And that is, I know when I was mayor of Anchorage, 
every Monday we had new employee orientation. You know, we'd 
have a high turnover rate in one department, low in others, but 
generally you have new people always coming in. And because of 
the conflicts we're engaged in, how engaged everyone is, I'd be 
very curious as we talk to the Federal workforce what kind of 
orientation do they offer at that first point of entry for a 
new employee, for example. Because there are all ranges, 
everything from the entry-level staff to management and 
everything in between.
    So you've given me some real good food for thought here. I 
greatly appreciate that.
    Mr. Woolf. Thank you.
    Senator Begich. Let me end this panel. Again, thank you all 
very much. You did a great job in helping shed some light on 
the positives and the negatives and where we can make some 
improvements. So thank you very much.
    We're going to switch out panels. Again, thank you all for 
being here, absolutely.
    [Pause.]
    Senator Begich. If the next panel can line up, that'd be 
great. As the next panel is coming up, I want to say we're 
going to run a little bit behind, so I want to keep things 
rolling along here. We have five presenters, some with 
additional staff. Go ahead and take your seats, those that are 
participating in the next panel.
    This next panel will be five individuals: the Assistant 
Secretary of Labor, Ray Jefferson, Secretary of Labor for 
Veterans' Employment and Training; Mark Bilosz, Director, 
Anchorage Regional Office, Veterans Benefits Administration, 
U.S. Department of Veterans Affairs; Verdie Bowen, Sr., 
Administrator, Office of Veterans Affairs, Department of 
Military and Veterans Affairs, State of Alaska; Belinda Finn, 
Assistant Inspector General for Audits and Evaluations, Office 
of Inspector General, U.S. Department of Veterans Affairs; and 
Dr. Susan Pendergrass, Director of the VISN 20, Veterans Health 
Administration, Department of Veterans Affairs.
    We have other folks who will be joining them for the 
question portion if there are questions that they need to 
answer.
    What I'd like to do at this time, if Borough Assembly 
Member Hank Bartos is still here. He was here earlier. We want 
to thank him for joining us in this presentation and meeting 
today.
    We will lead off with Assistant Secretary Ray Jefferson. 
Ray, you have been around a little bit in the last couple days 
and I really appreciate you coming here to Alaska. For those 
that are unaware of what enthusiasm is, you are about to feel 
it and see it. I'm always nervous now going to meetings with 
Ray because I always thought I was impromptu with ideas and 
getting things done. He, by far, exceeds me by light years.
    So, Ray, you're on.
    Mr. Jefferson. All right.
    Senator Begich. Thank you very much for coming here, Mr. 
Secretary.

  STATEMENT OF HON. RAYMOND JEFFERSON, ASSISTANT SECRETARY OF 
 VETERANS' EMPLOYMENT AND TRAINING SERVICE, U.S. DEPARTMENT OF 
                             LABOR

    Mr. Jefferson. Thank you, sir, it's my pleasure. So, 
Senator Begich, thank you very much for the invitation. And to 
those behind me, veterans and citizens of Alaska and the 
Fairbanks community, I'm thrilled to be with you here today.
    Let me tell you a little bit about who we are and what we 
do and how we can be helpful. Myself, a veteran, served with 
one of the ranger battalions, through the ranger bat, and also 
1st Special Forces Group. I lost my hand in the line of duty 
trying to protect some colleagues from a hand grenade, went 
down through the voc rehab program through the Department of 
Veterans Affairs, and right now I have the privilege of serving 
with this great agency.
    What we do is we proudly serve veterans and transitioning 
servicemembers. We prepare and guide them in their quest for 
meaningful employment; we protect their employment rights; we 
maximize their employment opportunities. How do we do that? We 
have 240 people around America, so we do it in partnership with 
Congress, sir, with the Department of Defense, Department of 
Veterans Affairs, ESGR and State workforce agencies, the 
veterans service organizations, the private sector, and 
nonprofits and other government agencies around America.
    So, what are some of the programs that we have that are 
relevant here and can help veterans in Alaska? First let's 
start with a program that we call Jobs for Veterans State 
Grants. In simple terms, we have 2,000 employment 
representatives around America; 13 of them are in Alaska and 8 
of those 13 can be accessed through Anchorage or through 
Fairbanks. So if you're a veteran who is seeking employment or 
who wants to make a change, contact one of our 13 employment 
representatives. Tom Hall, I'm going to quickly ask if you 
could just stand up. This is my State director. This is the go-
to person in Alaska for employment opportunities.
    Number 2, homeless veterans. We do one stand-down a year. 
It is in Anchorage, but we can connect you with opportunities 
if you are a homeless veteran. Three, Rob Roof, I hope you're 
still here.
    Audience Member. He stepped out.
    Mr. Jefferson. All right. I would like to connect him with 
a program we have called America's Heroes at Work. If you know 
a veteran who has PTS or PTSD or TBI, we have a program that 
can help them find meaningful employment. It gets rave reviews 
from the servicemembers who are in it and also from the 
employers. I also want to connect Rob and any other veteran 
taking advantage of the new GI Bill in Alaska with Student 
Veterans of America. Sir, this is a new veterans service 
organization. Their whole job is to make sure that when 
veterans like Rob hit campus that they can assimilate easily to 
the culture, the programs, the resources there. That's what 
it's set up for and it's a great dynamic new, young veterans 
service organization.
    Let's shift to Native American veterans. I, myself, am part 
Penobscot. My great-grandfather was 100 percent Native 
American. This is an issue that's near and dear to my heart. 
We've recently invited a core group of tribal leaders to the 
U.S. Department of Labor. The Secretary and all the agency 
heads were there to begin learning how we can better serve 
tribal leaders throughout America. But that's what's happening 
in Washington.
    Right here in Alaska this morning we met with a variety of 
Native Americans and Native American veteran business leaders, 
and we are doing an assessment right now to determine the best 
ways to serve Native American veterans in America. And, as of 
today, I am instructing that team to make contact with the 
tribal council leaders in Alaska to make sure that the issues, 
recommendations, and suggestions of tribal council leaders here 
are heard. Sir, I want to thank you for bringing me to that 
meeting this morning.
    We are also going to be out more on the tribal lands and to 
the major convening events and conferences of Native Americans 
and Native American veterans this year, 2010.
    Next, rural outreach. You know, it's great if you have a 
lot of fancy companies in your city, but suppose you're in 
Kotzebue where we're going tomorrow, or in the villages? So we 
want to be exploring the power of e-commerce and Internet-based 
home businesses to provide employment opportunities for 
veterans in rural America, and, sir, as you've educated me, 
highly rural Alaska.
    Two more quick things--USERRA, protecting employment 
rights. You know, I was very glad to know that the employer 
community in Alaska is very supportive of the guard and 
reserve. In this entire State with this tremendous number of 
veterans, there's only five to six complaints a year. That's 
incredible. But we also know that there's tremendous stress 
being placed, so we want to look at how we can work to help 
employers that have very small numbers of employees where some 
of those are guard and reserve that are going for extended 
deployment. We are meeting with the head of ESGR in DC to begin 
a dialog to try to get to some action items and see if there 
are some things we can do even as a demonstration project.
    Finally, we have 165,000 servicemembers who leave the 
military every year. They go to a 3-day transition assistance 
program. I'm really changing this to a transition acceleration 
program. The bottom line is this program hasn't been modernized 
in 17 years. Right now it's a 240 slide Power Point show over 3 
days. You can imagine how exciting that is. We're going to go 
ahead and transform the entire thing, bring in best practices, 
improve the facilitation. We want to make it economically 
relevant, immediately useful, more engaging, and even fun--let 
me bring that word in--for participants.
    So this is my first trip to Alaska. I'm a kama'aina of 
Hawaii. Hawaii is home. I look forward to this being the 
beginning of a relationship, this being the beginning of a 
journey; and also the opportunity to learn from all of you here 
in this room regarding decisions of Alaska and how we can do a 
better job.
    Thank you, sir.
    [The prepared statement of Mr. Jefferson follows:]
  Prepared Statement of Raymond M. Jefferson, Assistant Secretary for 
      Veterans' Employment and Training, U.S. Department of Labor
    Senator Begich and Distinguished Members, thank you for inviting me 
to appear before you today to discuss the employment assistance and 
outreach services provided to the Veterans in Alaska.
    The mission of the Veterans' Employment and Training Service (VETS) 
is to provide Veterans and transitioning Servicemembers with the 
resources and services to succeed in the workforce by maximizing their 
employment opportunities, protecting their employment rights, and 
meeting labor market demands with qualified Veterans.
    We accomplish our mission through three distinct functions: 1) 
conducting employment and training programs; 2) enforcing relevant 
Federal laws and regulations; and 3) providing transition assistance 
services.
                             vets' programs
    VETS administers a formula grant program to States that directly 
meets the goals of its mission. The Jobs for Veterans State Grants 
(JVSG) program funds two occupations, the Disabled Veterans Outreach 
Program specialist (DVOP) and the Local Veterans Employment 
Representatives (LVER). DVOP specialists provide outreach services, and 
intensive employment assistance to meet the employment needs of 
eligible Veterans. LVER staff conducts outreach to employers and 
engages in advocacy efforts with hiring executives to increase 
employment opportunities for Veterans, encourages the hiring of 
disabled Veterans, and generally assists Veterans to gain and retain 
employment. In Alaska, VETS funds six LVERs and seven DVOPs. Of these 
13 individuals, eight are accessible in Anchorage and Fairbanks.
    To meet the needs of homeless Veterans and help reintegrate them 
into the workforce, VETS administers the Homeless Veterans' 
Reintegration Program (HVRP). In Alaska, VETS sponsors one stand-down 
each year in Anchorage for homeless Veterans. The stand-down provides 
basic services, medical care, food and clothing for Alaska's homeless 
population. Veterans with significant barriers to employment or 
service-connected disabilities are also served through the Veterans' 
Workforce Investment Program (VWIP)--a focused and innovative training 
program that coordinates services available through other VETS 
administered programs.
    Both the homeless and workforce investment Veterans programs are 
funded through a competitive grant process. This year, for the first 
time ever, VETS will issue a Solicitation for Grant Applications (SGA) 
for homeless women Veterans. We also will soon issue an SGA to 
reinstitute the Incarcerated Veterans Transition Program (IVTP) to 
assist Veterans who will be transitioning back to society from 
incarceration. Additionally, we are in the process of developing an SGA 
for both HVRP and VWIP. Service providers for these deserving 
populations in Alaska are encouraged to apply for these competitive 
grants.
                        native american veterans
    To meet the needs of Native American Veterans, especially those on 
tribal lands, Secretary Solis hosted--and VETS participated in--a 
Summit of Tribal Leaders at the Department of Labor late last year. We 
discussed the challenges facing Native American Veterans and potential 
solutions. This event began the process of better serving this 
community. VETS will also participate in a number of major Native 
American outreach events in 2010. Furthermore, we are conducting a 
study on the employment needs of Native American Veterans living on 
tribal lands to identify best practices for serving this population.
                                 userra
    Our compliance programs investigate an average of five or six 
complaints per year filed by Veterans and other protected individuals 
in Alaska under the Uniformed Services Employment and Reemployment 
Rights Act (USERRA). We also assess complaints alleging violations of 
statutes requiring Veterans' Preference in Federal hiring, and 
implement and collect information regarding Veteran employment by 
Federal contractors.
    One of our commitments to Veterans is to increase awareness of 
USERRA, thereby increasing our ability to protect vulnerable 
populations. To improve USERRA's impact, VETS recently completed a 
Lean-Six-Sigma quality enhancement and process efficiency assessment of 
USERRA, with a view toward streamlining, improving quality, and 
increasing responsiveness to our Veteran clients. The goals of the 
assessment were to: 1) identify ways of ensuring a consistent, high 
standard of investigations; and 2) determine other steps to improve the 
program and its outcomes. We have begun work on identifying an 
electronic case management system to eliminate the paper-centric aspect 
of investigations and improve efficiency. Access to this system will be 
shared with our Federal enforcement partners. We are also working 
closely with the Office of Personnel Management (OPM) to ensure that 
the Federal Government serves as a role model for honoring USERRA.
                     transition assistance program
    VETS' transition assistance services are offered through the 
Transition Assistance Program (TAP), which provides employment 
workshops and direct services for separating military members, 
including those who are seriously wounded and injured.
    TAP is a Department of Defense (DOD) program that partners with the 
Department of Labor (DOL), the Department of Veterans Affairs (VA), and 
the Department of Homeland Security (DHS). TAP has four components:

    1. Pre-separation counseling--this is mandatory for all 
transitioning Servicemembers and is provided by the military services;
    2. TAP employment workshops--these are voluntary on the part of the 
transitioning Servicemember and are administered through DOL and its 
state partners;
    3. VA benefits briefing--these briefings are also voluntary and 
administered by the VA; and
    4. Disabled Transition Assistance Program--also voluntary and 
administered by the VA.
                        tap employment workshops
    Since 1991, when DOL began providing employment workshops pursuant 
to section 502 of the National Defense Authorization Act for Fiscal 
Year 1991 (P.L. 101-510), we have provided employment and job training 
assistance and other transitional services to more than one million 
separating and retiring military members and their spouses. DOL was 
further directed to provide these services at overseas locations by 
section 309 of the Veterans Benefits Act of 2003 (P.L. 108-183).
    VETS began facilitating TAP workshops at overseas military 
installations where, by previous interagency agreement, the DOD had 
provided TAP workshops since the program's inception. We are currently 
conducting TAP employment workshops at 55 sites overseas, including 
Germany, Japan, Italy, Korea, Guam and the United Kingdom. Our mission 
is to provide TAP at every location requested by the Armed Services or 
National Guard and Reserve Components.
    VETS provides employment search workshops based on projections made 
by each of the Armed Services and DHS, for the U.S. Coast Guard. DVOPs 
and LVERs are the primary source for TAP Employment Workshop 
facilitation stateside. However, because of the distance between many 
state employment offices and the military installations, as well as the 
rapid increase in Workshop participants, contract facilitators were 
added in early FY 1992 and supplemented by Federal staff in FY 1996. 
Alaska currently does not use contract facilitators.
    DOD recently set a goal for TAP Employment Workshop participation 
of 85 percent of separating servicemembers. Eighty-one percent of 
active-duty transitioning Servicemembers currently attend the DOL TAP 
employment workshops, a 30 percent increase in participation since 
2001. TAP employment workshop participation is expected to increase 
over the next year, and we plan to target workshop delivery to spouses 
and family members of separating Servicemembers, including those with 
limited English proficiency.
    VETS is committed to ensuring a consistently high level of 
instruction, service and quality for all Servicemembers and spouses 
attending TAP Employment Workshops. Therefore, VETS requires that all 
TAP facilitators receive training conducted by the National Veterans 
Training Institute (NVTI) at the University of Colorado in Denver. NVTI 
provides competency-based training to further develop and enhance the 
professional skills of Veterans' employment and training service 
providers throughout the United States.
    An Alaska DVOP or LVER representative attends each TAP workshop 
session here to discuss their respective roles and responsibilities in 
providing job search assistance. Since most transitioning 
Servicemembers return to some other state, this information is provided 
to help the Servicemember contact the DVOP and LVER representative in 
their respective states to assist them directly with their re-
integration into the local job market in their areas.
    Alaska averages more than 60 TAP employment workshops annually with 
approximately 1,500 transitioning Servicemembers in attendance. This 
includes about one work shop per quarter with the Coast Guard. There 
are four major TAP sites, encompassing all military service branches 
plus the U.S. Coast Guard with an additional four sites that vary in 
size and frequency according to need.
    National Guard and Reserve personnel in Alaska are informed that 
they can attend TAP for up to 180 days after they complete their active 
duty commitment. An individual DVOP or LVER can facilitate a TAP 
employment workshop, or they may do so as a unit.
    The Alaska DVET (Director of Veterans' Employment and Training) 
meets annually with the DVOPs and LVERs who facilitate the TAP 
employment workshops to discuss transitioning Servicemember's feedback 
and curriculum updates based on the input provided by these TAP 
recipients.
    In addition to presently reviewing TAP's performance and impact, we 
are also working to modernize the workshop, increase its effectiveness 
and improve participants' employment outcomes. Specifically, we want 
the content to be more economically relevant, immediately applicable, 
and engaging for participants. Thus far, we've solicited input from 
external content experts and service providers to help us determine 
what should be included in a best-practice employment transition 
program. We are working in close cooperation with our partners at DOD, 
the Department of Veterans Affairs (VA) and the Department of Homeland 
Security (DHS) in this endeavor.
    Late last year, our three agencies engaged in a weeklong working 
group to develop a joint, multi-year, strategic plan for TAP. We're all 
committed to ensuring the plan is action-oriented and will have a 
direct, positive impact on our transitioning Servicemembers. The plan 
will involve an increased emphasis on the employment needs of the 
Reserve components and Servicemembers who have been wounded or injured, 
or who are ill.
        reserve component and national guard employment workshop
    Global military commitments have necessitated a mobilization of 
Guard and Reserve members that is unprecedented in modern times. The 
longer mobilization periods result in these Servicemembers now being 
eligible for Veterans' benefits, including TAP. The employment workshop 
is available for Guard or Reserve Members, along with all other 
Servicemembers, at one of the 215 transition offices located on 
military installations in the United States as well as overseas 
locations.
    However, Reserve and National Guard members usually transition at 
fewer locations, referred to as demobilization sites. Typically the 
demobilization process is rapid, taking a matter of days once the 
Servicemembers arrive back in the United States from overseas. During 
demobilization, Servicemembers may be expected to participate in many 
separate briefings and activities. This leaves little or no time for a 
full two and one-half day employment workshop. Nevertheless, we have 
found that many National Guard and Reserve Servicemembers would benefit 
from such transition assistance. Our State Directors have coordinated 
with each State Adjutant General, and they work directly with the 
individual Reserve and National Guard commanders to make special 
arrangements following demobilization in order to present a modified 
TAP employment workshop to Guard and Reserve Servicemembers. Based on 
requests from Reserve Component Commanders or Adjutant Generals and 
through coordination with our VETS' state directors and local VA staff, 
VETS has offered to tailor the workshops to the identified needs of the 
transitioning Reserve and National Guard members.
    In fact, since 2001 VETS has provided transition services to over 
146,000 National Guard and Reservists. These transition services range 
in size and content from mobilization and demobilization briefings to 
the full-scale TAP employment workshops. They are provided in 43 states 
and the District of Columbia. In some states, National Guard and 
Reserve members have been allowed to attend the regular TAP for Active 
Component Servicemembers. The services provided to the National Guard 
and Reserve are tailored to the needs and requests made by DOD.
    To meet the transition needs of the National Guard and Reserves, in 
FY 2007, DOL directed the NVTI to develop a modular version of the TAP 
employment workshop. The traditional TAP employment workshop was turned 
into a 15-module menu from which Reserve and National Guard commanders 
may select relevant services for their unit members. This modular TAP 
menu includes a mandatory module that covers local labor market 
information, USERRA, the One-Stop Career Center system, small business 
opportunities, and the risks of homelessness. The other 14 modules 
consist of the current TAP employment workshop curriculum broken down 
into logical and connected blocks of instruction. This is not a new or 
separate curriculum for the Reserves and National Guard; rather it has 
been packaged to better serve this community.
    USERRA briefings are conducted upon request and through outreach by 
VETS' staff. This year, VETS already has provided TAP briefings and 
USERRA outreach to the State of Alaska Army and Air National Guard 
units, as well as Marine Corps Reserve.

    In closing, I again thank you for allowing me to address you today 
on this very important issue.

    Senator Begich. Thank you very much. I have to tell you, 
when you mentioned that Power Point yesterday, I could not 
imagine sitting in a training program, seeing 240 Power Point 
slides and thinking that's going to get me excited. So I thank 
you for that. Ray also learned today that when he asked the 
question how many people have been to Hawaii, I whispered in 
his ear, that's our second home. So many Alaskans visit Hawaii. 
So thank you again for being here.
    The next person I'd like to hear from is Belinda Finn, 
Assistant Inspector General for Audits and Evaluations, Office 
of Inspector General, who did the report in regards to the VA 
Anchorage Regional Office. She'll give a summary of that.

 STATEMENT OF BELINDA J. FINN, ASSISTANT INSPECTOR GENERAL FOR 
   AUDITS AND EVALUATIONS, OFFICE OF INSPECTOR GENERAL, U.S. 
 DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY BRENT ARRONTE, 
 DIRECTOR, BENEFITS INSPECTIONS DIVISION, OFFICE OF AUDITS AND 
                          EVALUATIONS

    Ms. Finn. OK. Can everybody hear me? OK.
    Senator Begich. Very good. This is much better than the 
Anchorage assembly room, I want you to know.
    Ms. Finn. Yes, it is.
    Senator Begich. You hear that, Fairbanks, what I said?
    Ms. Finn. Senator Begich, thank you again for the 
opportunity to be here today and testify about our inspection 
of the VA Regional Office in Anchorage. With me today is Mr. 
Brent Arronte, who is the director of our Benefits Inspection 
Division.
    The Benefit Inspection Program is a recent initiative to 
ensure that our Nation's veterans receive timely and accurate 
benefits and services. The OIG had been scheduled to review all 
57 regional offices during the 5-year cycle, but we recently 
began a hiring initiative that will allow us to review the 
offices in 3 years.
    During our inspections, we review functional and 
operational activities in each VARO using five protocols that 
cover claims processing, data integrity, management controls, 
information security, and public contact. We report on our 
results of each inspection as a snapshot in time.
    In the summer of 2009, we conducted an inspection of the 
Anchorage VARO focusing on the 14 operational activities and 
found that the office had problems meeting standards in 13 of 
those areas. We concluded that the management team has 
challenges in the oversight of the operational activities; 
improving insufficient network capacity to support the business 
processes; providing training to staff; and managing an 
internal claims brokering process. We felt that two issues 
specifically contributed to the challenges in management 
oversight at the office.
    First, the office did not have a Veterans Service Center 
manager for approximately 8 months in fiscal year 2009 and the 
manager had just recently come to the office when we did our 
inspection. Additionally, the VARO director manages the office 
from afar; he is currently located in Salt Lake City. Both of 
these positions are key to managing the effective operations of 
any regional office.
    As a result of the network capacity issues, the regional 
office employees had difficulty consistently accessing the 
computer applications required to perform their jobs and 
employees told us this problem had been occurring for over a 
year.
    During our review, we noted that the director had moved 
many claims from the Anchorage office to offices in Fort 
Harrison, MT, and Salt Lake City, UT. This movement of claims 
made it difficult for the staff to manage workload and 
associate mail with the corresponding claim folder. Because of 
this, we compared the staffing levels between Anchorage and the 
Boise VA Regional Office. Our analysis showed that Boise had 
about 22 more full-time employees for a comparable inventory of 
rating and non-rating claims.
    I'd also like to add that my office is currently working on 
a national review of VBA's claims brokering process and we hope 
to report out later this year on results from the national 
program.
    In conclusion, we recommended that the VARO director 
improve oversight of the quality assurance process, develop a 
mail routing guide to ensure proper mail processing, research 
the cause and solutions to improve network capacity, and 
provide additional training. The director concurred with all of 
our recommendations and provided responsive comments and action 
plans to our recommendations.
    Senator, that concludes my oral testimony today. Thank you 
again for the opportunity to be here. Mr. Arronte and I would 
be pleased to answer any of your questions.
    [The prepared statement of Ms. Finn follows:]
Prepared Statement of Belinda J. Finn, Assistant Inspector General for 
Audits and Evaluations, Office of Inspector General, U.S. Department of 
                            Veterans Affairs
    Senator Begich, thank you for the opportunity to testify today on 
the Office of Inspector General (OIG) report, Inspection of the VA 
Regional Office, Anchorage, Alaska. I am accompanied by Mr. Brent 
Arronte, Director, Benefits Inspection Division, Office of Inspector 
General, Department of Veterans Affairs.
                               background
    The Benefits Inspection Program is a new OIG initiative to ensure 
our Nation's veterans receive timely and accurate benefits and 
services. The Benefits Inspection Division contributes to the 
improvement and management of benefits processing activities and 
veteran services by conducting onsite inspections at VA Regional 
Offices (VAROs).
    Under the current organizational structure, the Benefits Inspection 
Division, consisting of two teams, will complete a review of all 57 
VAROs during a 5-year cycle, performing 12 inspections annually. The 
OIG recently implemented a new hiring initiative to create a second 
Benefits Inspection Division. Tentatively, this new division will be 
operational by the end FY 2010. This initiative would allow the OIG to 
complete a review of all VAROs within a 3-year period.
    For each inspection, we issue a report describing VARO performance 
as measured against current VBA and VA policy. The scope of our 
inspections allows for a narrow review of work performed at each office 
and our reports represent a ``snapshot'' in time. Currently, we perform 
our reviews using five protocols focused on distinct functional areas 
and specific operational activities within the VARO. The protocols are 
claims processing, data integrity, management controls, information 
security, and public contact. We designed these protocols based on a 
risk analysis of previous OIG national audits and Combined Assessment 
Reviews, VBA's Compensation and Pension Site Visit reports, Government 
Accountability Office (GAO) reports, and information provided by the 
Senate and House Veterans' Affairs Committees. Our plan is to review 
the protocol areas annually to identify new high-risk areas and adjust 
as necessary.
                         anchorage varo results
    In late July and early August 2009, we conducted onsite work at the 
Anchorage VARO. Our inspection focused on the following 14 operational 
activities within the 5 protocol areas:

    <bullet> Processing of disability claims for specific service-
related conditions--Post Traumatic Stress Disorder, Traumatic Brain 
Injury, diabetes and disabilities related to herbicide exposure, and 
Haas claims. A Haas claim is a claim affected by a U.S. Court of 
Appeals for Veterans Claims decision that involves veterans who served 
in waters off Vietnam but did not set foot in Vietnam and whether those 
veterans are entitled to the presumption of service connection to 
herbicide agents.
    <bullet> Integrity of VBA's Claims Management Data--Establishing 
correct dates of claim and properly tracking veteran's claims folder 
using VBA's Control of Veterans Records (COVERS) database.
    <bullet> Management Controls over Claims Processing--Systematic 
analysis of operations (SAO), a management driven analysis of key 
business activities designed to identify existing or potential 
problems; systematic technical accuracy review (STAR), an integral part 
of VBA's quality assurance program designed to measure VARO performance 
in processing claims; and accountability for VARO date stamps and usage 
of the claims process improvement business model. This business model 
requires employees to rotate between the different teams within the 
VARO to maintain skills required to process claims.
    <bullet> Security of Veterans' Information--Mail handling 
procedures and controls for the safeguarding of veterans documents to 
prevent unauthorized destruction
    <bullet> VARO Public Contact Functions--Inquiry Routing and 
Information System (IRIS), VA's internet based public message system 
that allows beneficiaries a means to communicate with VA 
electronically.

    During our visit, we interviewed the VARO Director, Veterans 
Service Center Manager (VSCM), supervisors, and employees responsible 
for processing claims and providing benefit services to veterans and 
their dependents. We reported the Anchorage VARO management team faces 
challenges in providing benefits and services to veterans. These 
challenges include addressing oversight of operational activities, 
improving insufficient network capacity to support business processes, 
providing training to staff, and managing an internal claims brokering 
process. The VARO did not meet VBA's standards for 13 of the 14 
operational areas inspected.
    Our analysis of disability claims processing revealed a 29 percent 
error rate at the Anchorage VARO. The error rate represents our 
analysis of 78 disability claims and not the entire caseload of the 
VARO. Of the 78 claims reviewed, processing errors occurred in 23 
claims, of which only three errors directly affected veterans' 
benefits. The VARO underpaid two veterans, one for $288 and one for 
$4,758. The other error did not involve monetary benefits. The majority 
of processing errors involved claims for PTSD and Haas claims. These 
errors occurred because of a lack of training for Rating Veterans 
Service Representatives (RVSR) responsible for making disability 
determinations.
    Of those 13 operational areas that did not meet VBA standards, 9 
occurred because of a lack of management oversight. These areas were: 
tracking veterans claims folders, establishing the correct dates of 
claim, correcting errors identified by VBA's STAR quality assurance 
program, completing SAOs, safeguarding VARO date stamps, safeguarding 
veteran's personally identifiable information (PII), properly handling 
claims related mail, responding to electronic inquiries submitted by 
veterans, and, responding to congressional inquiries.
    For approximately 8-months during FY 2009, the VARO had no manager 
for its Veterans' Service Center, a key management position affecting 
many operational areas in the Anchorage VARO. Further, the VARO 
Director geographically residing in Salt Lake City may have also 
attributed to diminished oversight. For example, the Director could not 
observe the effectiveness of SAO recommendations designed to improve 
station performance and delays in implementing several SAOs occurred 
while waiting for the Director in Salt Lake City to approve the plan.
    In addition to the 14 operational areas inspected, we identified 
serious concerns regarding network capacity to support current business 
processes. Employees reported difficulty maintaining consistent access 
to certain VBA applications required to perform their jobs. These 
difficulties included applications being unresponsive and the need for 
employees to restart their computers several times a day. The employees 
informed us this problem had already existed for over one year. We 
estimated the Anchorage VARO might lose 7.5 productive hours per rating 
specialist a month due to network capacity problems.
    The VARO Director implemented an internal brokering plan that moves 
rating-related claims between Anchorage, AK, Ft. Harrison, MT, and Salt 
Lake City, UT. VBA normally brokers work between VAROs because of 
insufficient resources to process certain types of work. The Anchorage 
VSCM informed us it is difficult to create a workload management plan 
and to control the workload of pending claims brokered to other VAROs. 
A supervisor from the Anchorage VARO indicated brokering impacts mail 
handling procedures and it is difficult to associate claims related 
mail with claims folder located at other VAROs. Currently, the OIG is 
performing a national audit to determine the effectiveness of claims 
brokering across all VBA regional offices.
    Because the Anchorage VARO was moving so much work to other VARO's, 
we compared staffing levels between the Anchorage VARO and the Boise 
VARO to determine if the staffing level was commensurate with similar 
VARO's. Our analysis revealed the Boise VARO has 22 additional full-
time employees while maintaining a comparable inventory of rating and 
non-rating claims. We based this comparison on the total number of 
actual claims pending in each office. We believe this provides the best 
comparison of actual workload, rather than the number of veterans who 
reside in each state or those veterans who might file claims.
    The Benefits Inspection Division completed 6 VARO inspections 
during FY 2009. A comparison of the percentage of claims processing 
errors revealed the highest error rate occurred at the San Juan, PR 
VARO, (41 percent), followed by Anchorage, AK (29 percent), Roanoke, VA 
(25 percent) Baltimore, MD (20 percent), Nashville, TN (19 percent) and 
Wilmington, DE (11 percent). These error rates represent our analysis 
of a sample of disability claims and not the entire caseload at each 
VARO. None of the VAROs inspected complied with 100 percent of the 
operational areas we reviewed. The Baltimore office had the highest 
rate of non-compliance with VBA standards followed by Anchorage, San 
Juan, Nashville, Wilmington, and Roanoke.
    We recommended the Director improve oversight of the quality 
assurance process for several of the operational areas that did not 
meet standards, develop a mail routing guide to ensure proper 
processing of mail, research the cause and solutions to improve network 
capacity issues, and train staff to maintain required skills. The VARO 
Director concurred with all of the OIG's recommendations in the 
inspection report.
                                summary
    Although our inspection found the Anchorage VARO management team 
faces many challenges in providing benefits and services to veterans, 
we believe the Director's comments to our recommendations are 
responsive. The Benefits Inspection Division has not performed any 
follow-up regarding the implementation of these recommendations at this 
time.

    Senator Begich, thank you for the opportunity to testify here 
today.

    Senator Begich. Thank you both very much for being here and 
I will have some questions. I won't make it Groundhog Day where 
it's the same questions as yesterday.
    Ms. Finn. That's good. Thank you.
    Senator Begich. You betcha. So the next person to present 
is Mark Bilosz, who is the director of the Anchorage Regional 
Office, Veterans Benefits Administration, Department of 
Veterans Administration.

   STATEMENT OF MARK M. BILOSZ, DIRECTOR, ANCHORAGE REGIONAL 
 OFFICE, VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF 
VETERANS AFFAIRS; ACCOMPANIED BY WILLIE C. CLARK. SR., WESTERN 
  AREA DIRECTOR; AND PATRICK KELLEY, VETERANS SERVICE CENTER 
               MANAGER, ANCHORAGE REGIONAL OFFICE

    Mr. Bilosz. Thank you. Senator Begich, it's my pleasure to 
be here today to discuss our efforts in meeting the needs of 
veterans residing in the State of Alaska. Accompanying me here 
today is the Western Area VBA director, Mr. Willie Clark, and 
the Veterans Service Center manager in Anchorage, Patrick 
Kelley.
    I will discuss important benefits and services provided to 
veterans living in Alaska, as well as discuss concerns about 
the Anchorage Regional Office addressed in a recent VA Office 
of Inspector General report. The Anchorage Regional Office 
administers the following benefits and services: disability 
compensation and pension for veterans; vocational 
rehabilitation and employment assistance; and outreach for all 
veterans and survivor benefits. Our goal is to deliver these 
benefits and services in a timely, accurate, and compassionate 
manner. This is accomplished through the administration of 
comprehensive and diverse benefits programs.
    Currently, a total of 34 employees work in the Veterans 
Service Center and 7 employees in the vocational rehabilitation 
and employment division within the regional office. Employees 
at the Anchorage regional office are very motivated and are 
providing excellent service to Alaska veterans. Performance 
indicators reveal the Anchorage Regional Office is performing 
much better than in the past, completing a greater number of 
claims each month, while improving accuracy.
    As the outbased director of the Anchorage Regional Office, 
I visit Anchorage at least once quarterly and have daily 
discussions with division management to maintain an open line 
of communication and provide direction and oversight. A new VHA 
clinic is scheduled to open in May 2010 and VBA has secured 
space at the new site. The Anchorage Regional Office is looking 
forward to moving into this new space, as it will provide us 
with improved working space.
    In June, a new Veterans Service Center manager reported for 
duty in Anchorage. The Veterans Service Center manager position 
was previously vacant for approximately 8 months. This position 
was vacant due to the difficult task of recruiting an 
experienced person to the Anchorage area.
    Additionally, the Anchorage Regional Office recruited and 
hired two new supervisors. The appointment of the new 
supervisors has had a positive impact on the overall management 
and performance of the office this fiscal year, as the station 
is making strides toward improvement in many performance 
measures. For example, rating inventory has trended in a 
positive direction every month this year. Compared to December 
of last year, Anchorage completed 226 more claims this year--an 
increase of about 156 percent. In addition, rating and 
authorization quality have both showed improvements. In fact, 
due to the focus on internal training, rating quality in 
Anchorage exceeds the national average.
    The Anchorage Regional Office vocational rehabilitation 
division is one of the top performing divisions in the Nation 
and it was identified and awarded a Tier II level award last 
year. In addition to the improvements in quality, the 
management team has successfully implemented several policies 
pertaining to the workflow that I'd like to highlight here 
today.
    A policy for timely corrective actions of errors identified 
by the Veterans Benefits Administration's National Quality 
Review Program was implemented. A policy outlining control and 
tracking of claims folders was implemented. This policy 
provides for better control of the location of claims folders. 
The management team has implemented a consistent local quality 
review process to complete timely quality assurance reviews 
that ensure veterans service representatives establish the 
correct date of claim. The most recent review in January showed 
only a 1 percent error rate. As VBA has an ethical and legal 
responsibility to maintain adequate controls over all date 
stamps throughout our facilities, two new electronic date 
stamps with locking devices are now in place and kept in secure 
locations.
    The Veterans Service Center has also taken action to more 
efficiently safeguard veterans' personal identifiable 
information. All employees receive training on the proper 
safeguard and destruction of materials, desk inspections of 
work stations and common areas are performed regularly. In 
September a new workflow plan was implemented to ensure 
Veterans Service Center staff properly control and process all 
mail.
    To ensure congressional inquiries are processed in a timely 
and accurate manner a new policy for handling congressional 
inquiries was implemented. Our goal is to complete inquiries 
within 5 days and so far this fiscal year we're completing them 
within 4.3 days.
    The Office of Inspector General conducted an investigation 
during the summer of 2009. The Office of Inspector General 
report recommended 12 areas of improvement. Action has been 
taken to correct the deficiencies identified by the Office of 
Inspector General and those items have been addressed in my 
oral testimony and my written testimony that you also have 
today.
    With the help of the OIG report findings, specific 
shortfalls at the Anchorage Regional Office have been 
identified and action plans are in place. VA senior leadership 
is committed to providing the necessary resources, funding, 
employees, and facilities to the Anchorage Regional Office to 
ensure the best possible service is provided to Alaska veterans 
and their families. I also am fully committed to continuing to 
improve the claims processing in Alaska.
    Mr. Chairman, this concludes my testimony and I greatly 
appreciate being here today and look forward to answering any 
of your questions.
    [The prepared statement of Mr. Bilosz follows:]
 Prepared Statement of Mark M. Bilosz, Director, Anchorage VA Regional 
 Office, Veterans Benefits Administration, U.S. Department of Veterans 
                                Affairs
    Senator Begich and Members of the Committee, it is my pleasure to 
be here today to discuss our efforts in meeting the needs of Veterans 
residing in Alaska.
    The Anchorage Regional Office (RO) serves Veterans throughout the 
state. We also provide outreach services to Veterans in Fairbanks, Fort 
Wainwright, Fort Richardson, Elmendorf Air Force Base, and Eielson Air 
Force Base.
    The Anchorage RO administers the following benefits and services:

    <bullet> Disability compensation and pension for Veterans and 
dependents;
    <bullet> Vocational rehabilitation and employment (VR&E) 
assistance; and,
    <bullet> Outreach for all Veteran and survivor benefits.

    Our goal is to deliver these comprehensive and diverse benefits and 
services in a timely, accurate, and compassionate manner.
    The Anchorage RO is responsible for delivering non-medical VA 
benefits and services to over 76,400 Veterans and their families in 
Alaska. Approximately 14,000 of these Veterans receive disability 
compensation. In fiscal year 2009, the Anchorage RO completed more than 
2,100 decisions on Veterans' disability claims.
    The Denver Regional Loan Center (RLC) administers VA home loan 
services to Alaska Veterans. Alaska Veterans are served by a full time 
RLC employee who is stationed at the Anchorage RO. Most Native lands 
are leasehold estates, which qualify for VA's guaranteed loan program. 
VA has guaranteed 65,575 home loans in Alaska with a cumulative loan 
amount of over $9 billion.
                                staffing
    The Anchorage RO hired five employees as a result of the American 
Recovery and Reinvestment Act. The employees are making direct 
contributions to improving claims processing by assisting with 
development of claims and mail processing. Currently, 34 employees work 
in the Veterans Service Center (VSC) and 7 employees work in VR&E.
    Employees at the Anchorage RO are very motivated and provide 
excellent service to Alaska Veterans. Performance measures indicate 
that the Anchorage RO is performing well, completing a greater number 
of claims each month while improving accuracy.
                            management team
    As the out-based Director of the Anchorage RO, I visit Anchorage at 
least quarterly and hold weekly videoconference calls with division 
management to maintain open lines of communication. In addition, I hold 
a weekly conference call with the Veterans Service Center Manager 
(VSCM) to provide direction and oversight. I also communicate regularly 
with the Anchorage VA Medical Center Director, as the Anchorage RO is 
currently co-located with the Medical Center.
    A new VA clinic is scheduled to open in May 2010, and the Veterans 
Benefits Administration has secured space at the new site. The 
Anchorage RO is looking forward to moving into this new space as it 
will allow VSOs and all claims files to be located in the RO. The new 
facility will also include a large training room.
    In June 2009, a new VSCM reported for duty in Anchorage. The VSCM 
position was vacant for approximately eight months due to the 
sometimes-difficult task of finding an individual with the right 
leadership and managerial skills to fit the position. Many times 
relocating an employee and his/her family to Alaska is difficult.
    Additionally, the Anchorage RO recruited and hired two new 
supervisors. The appointment of the new supervisors has had a positive 
impact on the overall management and performance of the office this 
fiscal year.
    For example, rating inventory has trended in a positive direction 
every month this year. Compared to December of last year, the Anchorage 
RO completed 226 more claims this year, an increase of 16 percent. In 
addition, rating and authorization quality have both improved. Rating 
quality at the Anchorage RO exceeds the national average.
    A new training plan was developed and implemented in September 
2009. Rating Veteran Service Representatives (RVSRs) receive weekly 
training from the Decision Review Officer. Training topics are aimed at 
eliminating the errors found during various reviews. All RVSRs attend 
the monthly Systematic Technical Accuracy Review calls to discuss 
commonly found errors and to prevent future errors.
    The Anchorage RO's VR&E division is one of the top performing 
divisions in the Nation. Identified as a top performer in fiscal year 
2009, the VR&E division was awarded Level II performance award.
                            outreach efforts
    Our employees conduct an average of 580 personal interviews per 
month, and last year conducted 47 Transitional Assistance Program (TAP) 
briefings for 1,078 servicemembers. VR&E personnel provide monthly DTAP 
briefings at Elmendorf Air Force Base and Fort Wainwright.
    The Anchorage RO conducted two significant rural outreach 
initiatives in 2009. In February and March, the RO participated jointly 
with the Alaska VA Health Care System to offer Alaska VA Education 
Forums. Teams traveled to Kotzebue, Fairbanks, Nome, Dillingham, 
Ketchikan, Juneau, and Sitka to provide benefits information and 
counseling to Veterans and medical providers.
    We also participated in two Homeless Standdowns at Fort Richardson 
and in Fairbanks in August 2009. An RO representative provided 
information and VA benefits counseling at these events. Earlier this 
month, a Standdown was held to introduce Veterans to the VA Domiciliary 
facility in Anchorage.
    In October 2009, the Anchorage RO teamed with the Medical Center to 
staff an information booth for 500 Veterans and family members via the 
Alaska Federation of Natives (AFN). AFN is the largest statewide Native 
organization in Alaska. Its membership includes 178 villages (both 
federally-recognized tribes and village corporations), 13 regional 
Native corporations and 12 regional nonprofit and tribal consortiums 
that contract and run Federal and state programs.
    As of December 31, 2009, 134 servicemembers were participating in 
the DOD/VA Disability Evaluation System Pilot at Ft. Wainwright, Ft. 
Richardson, and Elmendorf AFB. This pilot is instrumental in 
streamlining disability processing for separating servicemembers.
                    improvements in service delivery
    The new management team successfully implemented several new 
workload management and quality assurance policies and procedures.
    A policy for the timely corrective action of errors identified by 
VBA's Systematic Technical Accuracy Review Staff was implemented in 
November 2009. The VSCM tracks all errors and corrective actions. A 
review process was established to ensure Veterans Service 
Representatives (VSRs) correctly enter claims data into our processing 
systems. Refresher training was provided to all claims assistants and 
VSRs. Weekly training is held on scheduled topics and errors identified 
in quality reviews.
    A policy outlining the use of COVERS, VBA's system to control and 
track claims folders, was also implemented in November. This policy 
requires claims folders to be ``COVERed'' every Monday and also 
requires supervisors to perform weekly spot checks.
    Systematic Analyses of Operations (SAOs) are now completed 
accurately and timely. A tracking mechanism is in place to monitor the 
status of required SAOs and training on SAO writing techniques was 
provided.
    The VSC has also taken action to more efficiently safeguard 
Veterans personally identifiable information. All employees received 
training from the Records Management Officer in August 2009 on the 
proper safeguard and destruction of materials. Inspections of 
workstations and common areas are performed regularly. Two new 
electronic date stamps, with locking devices, are now in secure 
locations.
    In September 2009, the Triage Workflow Plan was implemented to 
include a mail routing guide to ensure VSC staff properly control and 
process the mail. The Triage Coach provides the VSCM with a monthly 
summary of all mail actions as well as any required follow-up actions. 
Triage training is conducted every Thursday to ensure the workflow plan 
is being properly implemented.
    An Inquiry Routing and Information System (IRIS) Quality Review 
Policy was implemented in November 2009 to improve quality assurance 
reviews. The IRIS system is the electronic method Veterans use to 
communicate with VA. The Public Contact supervisor reviews a minimum of 
five IRIS responses per employee every month. The supervisor also 
discusses errors during weekly training sessions with individual 
employees to ensure the highest level of quality and accuracy is 
maintained.
    To ensure Congressional inquiries are processed in a timely and 
accurate manner, a new policy for handling Congressional correspondence 
was implemented in November 2009. The Public Contact Team maintains a 
log of all Congressional correspondence where inquiries are annotated 
within one day and assigned to an employee to review and complete. The 
individual receiving the assignment has two working days to present a 
response for approval by the VSCM. Our goal is to complete 
Congressional inquiries within five days.
    The Anchorage RO reports the results of internal brokering to VBA 
leadership monthly. The Western Area Office is informed monthly of any 
transfers of work. Brokering claims, or sending claims to another RO, 
is done to provide better service to our Veterans. Brokering is a 
short-term strategy to assist ROs with workflow challenges.
                 va office of inspector general report
    The VA Office of Inspector General (OIG) conducted a review of the 
Anchorage RO from July 28, 2009 to August 6, 2009. The five areas 
examined were disability claims processing, data integrity, management 
controls, information security, and public contact. The OIG report 
recommended 12 areas of improvement. Action has been taken to correct 
the deficiencies identified by the OIG.
    The Western Area Director and staff conducted an on-site review of 
the Anchorage RO from January 6, 2010 to January 7, 2010. A major part 
of this visit was to evaluate compliance with the OIG's 
recommendations. All action plans implemented in response to the OIG's 
recommendations were reviewed for compliance and effectiveness. The 
Western Area Director found the Anchorage RO had implemented the 
required actions to be fully compliant with all 12 of the OIG 
recommendations.
                               conclusion
    VA leadership and the employees of the Anchorage RO are committed 
to ensuring the best possible service is provided to Alaska Veterans 
and their families. Mr. Chairman, this concludes my testimony. I 
greatly appreciate being here today and look forward to answering your 
questions.

    Senator Begich. Thank you very much. Thank you for your 
testimony. The next person to present is Dr. Susan Pendergrass, 
who is the director of the VISN 20, Veterans Health 
Administration, Department of Veterans Affairs. Dr. 
Pendergrass.

 STATEMENT OF SUSAN PENDERGRASS, DrPH, NETWORK DIRECTOR, VISN 
20, VETERANS HEALTH ADMINISTRATION, U.S. DEPARTMENT OF VETERANS 
   AFFAIRS; ACCOMPANIED BY ALEX SPECTOR, DIRECTOR, ALASKA VA 
                       HEALTH CARE SYSTEM

    Dr. Pendergrass. Thank you very much, Senator Begich. Thank 
you for the opportunity to appear before you and discuss VA 
health care of Alaskan Northwest Network. I'm accompanied today 
by Mr. Alex Spector, who is the director of the Alaska Health 
Care System. I would like to thank you for your leadership and 
the advocacy on behalf of veterans and Alaskan veterans. You 
have continued to show that commitment and we are very 
appreciative of all of the assistance that you have given us.
    My written testimony has been submitted and I will focus my 
remarks on several issues that are important to the Alaskan 
veterans including TeleHelp, rural help outreach, and the 
Veterans Beneficiary Travel Program.
    We provide access to health care to eligible Alaskan 
veterans through an integrated delivery system which consists 
of clinical care sites, joint ventures of DOD facilities, and 
contract care. We have continued to see an increase in the 
number of veterans using VA health care. It has grown by close 
to 14 percent since 2005.
    We have clinics and Vet Centers in Anchorage, Fairbanks, 
Kenai, and Wasilla, and we are providing primary care including 
preventative services, health care screenings, and mental 
health services at all of those sites. Our inpatient care is 
provided through the DOD Joint Venture Hospital on Elmendorf 
Base, contracts with Providence Alaska Medical Center in 
Anchorage, and we purchase care from community hospitals 
throughout the State.
    In addition, we have two outreach clinics. Outreach clinics 
are not clinics that are open 5 days a week, but several times 
during the week, and those are in Homer and Juneau, AK. We are 
expanding the Juneau outreach clinic, which is currently under 
construction and will be completed by mid summer, and the hours 
of that clinic will then expand. We have a new construction 
replacement of our main clinic in Anchorage and that will 
provide expanded capacity to serve the veterans.
    By the end of 2010, we will have a VA clinic presence that 
will serve more than 88 percent of enrolled veterans, who will 
have the care in the borough with which they reside. So 88 
percent of those veterans will have access to care in their 
boroughs.
    We have specialty services and have continued to improve 
our care with homeless veterans. We have inpatient mental 
health services that are provided by contract care and we also 
have specialty VA programs. We use the Lower 48 State veterans 
service capability. We have active programs here and long-term 
care in both for institutional and non-institutional services.
    What we are doing also is to have an active coordinated 
home care TeleHelp program, where 31 percent of the TeleHelp 
users live in highly rural areas, 16 percent live in rural 
areas, and 53 percent in the urban areas. This enables us to 
place an assistant device in the home that the individual can 
utilize to monitor help information, provide that information 
to the VA so they do not have to come in for a visit. We have 
been using that primarily to monitor chronic diseases, but we 
are now expanding to help monitor some conditions such as PTSD, 
substance abuse, and some psychiatric disorders.
    The Alaskan VA health care system has recently also 
expanded TeleHelp in several specialty areas. We have 
implemented a Teleretinal Diabetic Screening program. This 
enables an individual with diabetes to get an eye exam, it's 
read, and the monitoring of any effects of eye disease as a 
result of their diabetes. We also have instituted 
teledermatology so that a picture can be taken of a lesion and 
read by a dermatologist remotely and provide for treatment and 
consultation so that the individual does not have to travel for 
that specialty service.
    We have just recruited a psychiatric nurse practitioner for 
a telemedicine mental health provider. We have just connected 
this month that provider with Anchorage and the Fairbanks 
clinic and through TeleHelp we will allow a VA 
neuropsychologist to screen veterans for TBI. Again, its very 
difficult to provide these specialists within some of the rural 
and remote areas. So using tele-mental health and telemedicine 
is one of our primary options.
    We are also exploring options to partner with other groups 
such as the American Native Health Consortium, the Bristol Bay 
Area Health Consortium, and the Maniilaq Health Corporation. 
We've hung great promise in increasing the use and availability 
of mental health care resources to the Alaskan veteran system 
and the veterans in Alaska.
    We have also established several rural health pilots that 
are reaching out into the Yukon-Kuskokwim area and it is a 
pilot in which we are able to try to enhance primary care to 
rural veterans and be able to contract that service through the 
Tribal Health Consortium. We've also placed tribal veteran 
representatives to assist in outreach to the Alaskan Native 
veterans and in training other VA health care providers of VA 
benefits.
    We have a special outreach to the Alaska Native Tribal 
Health Consortium organizations and a major deployment with--
and also we have the deployment of the Alaskan National Guard 
in our OEF/OIF outreach. We have a Memo of Understanding with 
the State of Alaska Department of Military and Veterans Affairs 
to meet the needs of the returning servicemembers.
    Our final benefit I would like to address is the VA 
Beneficiary Travel Program. In 2009, we spent over $4 million 
to transport Alaskan veterans by ambulance, car, van and air 
travel, as well as mileage reimbursement. Approximately 50 
percent of travel expenses were airline tickets for travel; 77 
percent of that was within Alaska and the remaining were to VA 
facilities in the Lower 48.
    In summary, we continue to increase access to meet the 
needs of the Alaskans residing in--the veterans residing in 
Alaska. We have included not only clinical services, but 
additional sites of care to try to improve that access, and we 
have maintained a high performance rating and quality of care, 
access standards, patient satisfaction, and employee 
satisfaction.
    I thank you again for the opportunity to testify at this 
hearing.
    [The prepared statement of Dr. Pendergrass follows:]
  Prepared Statement of Dr. Susan Pendergrass, Director, VA Northwest 
 Network (VISN 20), Veterans Health Administration, U.S. Department of 
                            Veterans Affairs
    Good Morning Senator Begich and Members of the Committee. Thank you 
for the opportunity to appear before you today to discuss VA health 
care in the Northwest Network (Veterans Integrated Service Network 
(VISN) 20) and Alaska. I am accompanied today by Mr. Alex Spector, 
Director of the Alaska VA Healthcare System (AVAHS).
    First, Senator Begich, I would like to thank you for your 
leadership and advocacy on behalf of Alaska's Veterans. During your 
tenure on the U.S. Senate Committee on Veterans' Affairs, you have 
consistently demonstrated your commitment to Veterans and to improving 
the care and benefits they receive.
    Today, I will briefly review the VA Northwest Network and the 
Alaska VA Healthcare System. I will also discuss several issues 
important to Alaskan Veterans, including telehealth, rural health 
outreach, and VA's beneficiary travel program.
                     va northwest network (visn 20)
    The VA Northwest Network (VISN 20) includes the states of Alaska, 
Washington, Oregon, most of Idaho, and one county each in Montana and 
California. Our 135 counties cover approximately 23 percent of the 
United States land mass. Eighty-six (86) percent of our total counties 
are classified as medically underserved areas or containing medically 
underserved populations.
    Our network of health care facilities is composed of 6 medical 
centers (including 2 complex care hospitals), 1 independent outpatient 
clinic (Anchorage), 1 rehabilitation center, 33 operational community-
based outpatient clinics (CBOCs) or part-time outreach clinics and 2 
mobile clinics. Other services include 5 nursing home care units, 2 
homeless domiciliaries and 16 readjustment counseling centers (Vet 
Centers), as well as 4 mobile Vet Centers operating in Washington, 
Idaho and Oregon.
    Approximately 1,180,000 Veterans live in the Pacific Northwest and 
Alaska, 29 percent of whom received health care services from VA in 
fiscal year (FY) 2009. Our medical centers currently operate 
approximately 1,655 inpatient beds, including acute medical/surgical, 
domiciliary, mental health, nursing home and rehabilitative care, and 
VISN 20 facilities recorded approximately 33,000 hospital admissions 
and 2.7 million outpatient visits in FY 2009. VISN 20's patient 
population has an average age of 60.8 years, and 46.6 percent of our 
patients are service-connected Veterans. Approximately 9.5 percent of 
our patients are women.
    The VA Northwest Health Network continuously strives to improve 
access, quality, patient satisfaction and wellness to better serve the 
Veterans of the Pacific Northwest. Two of our health care systems have 
major academic affiliations and our Network hosts a significant number 
of Centers of Excellence, while also supporting a large and broad 
research portfolio that was funded in excess of $33 million last year. 
We also have expansive and collaborative relationships with the 
Department of Defense (DOD), including two highly successful 
partnerships in Alaska.
    The VA Northwest Network has not only exceeded inpatient and 
outpatient satisfaction goals, but its employee satisfaction scores are 
also strong. For each of the past several survey cycles, VISN 20 has 
received some of the highest scores in the country. We recognize that 
employees who feel challenged and valued are more productive and 
healthier, and we continually strive to make VISN 20 an employer of 
choice. For the second year in a row, VISN 20 ranked highest among 
networks for Diversity Acceptance. Other top satisfiers included: Type 
of Work, Coworkers, Senior Management, Work Conditions, Customer 
Satisfaction and Praise.
    Given VISN 20's large and diverse geographic nature (including 
rural or frontier lands and remote islands), access to care is a 
priority. In FY 2010, the Network will activate five new sites of care 
in three states (California, Oregon and Montana). In FY 2009, we also 
hired two new full-time employees to support Tele-Health and Rural 
Health efforts across the Network.
                      alaska va healthcare system
    The Alaska VA Healthcare System (AVAHS) provides access to health 
care to eligible Alaskan Veterans through an integrated delivery system 
consisting of clinical care sites, joint venture DOD facilities and 
contract care. By FY 2009 estimate, there were over 76,400 Veterans 
living in Alaska; 26,708 are enrolled in VA. AVAHS has continued to 
increase the number of Veterans seeking health care, growing by 13.6 
percent since FY 2005. In FY 2009, AVAHS provided services to more than 
15,000 Veterans; this consisted of 142,246 outpatient visits and more 
than 60,000 visits to private sector providers. This latter effort 
amounted to approximately 38 percent of the FY 2009 budget for VISN 20. 
AVAHS was home to 488 full-time employees in FY 2009 and received a 
five percent increase in its operating budget for a total of $118.1 
million, with a 5.44 percent increase for FY 2010.
    The AVAHS provides medical care to Alaska Veterans through VA 
clinics in Anchorage, Fairbanks, Kenai and Wasilla. These cities are 
also home to VA Readjustment Counseling Centers, or Vet Centers, which 
provide counseling, psychosocial support and outreach to Veterans and 
their families. AVAHS provides or contracts for a comprehensive array 
of health care services. AVAHS directly provides primary care, 
including preventive services and health screenings, and mental health 
services at all locations. AVAHS inpatient care is provided through the 
VA/DOD Joint Venture Hospital located on Elmendorf Air Force Base, as 
well as through a contract with Providence Alaska Medical Center in 
Anchorage. Inpatient care in outlying communities is provided through 
purchased care from local hospitals. AVAHS has hired specialists in 
general surgery, podiatry, orthopedics, urology, cardiology, 
ophthalmology, and inpatient medicine. Specialists in dermatology and 
neurology travel from the Lower 48 and hold clinics at the Anchorage VA 
facility. The Anchorage facility also has a small dental clinic and an 
audiology clinic. Audiologists travel to VA CBOCs and Coast Guard 
clinics in Southeast Alaska to provide better and more convenient care 
to Veterans.
    In addition, we provide care through two VA outreach clinics in 
Homer and Juneau, Alaska. The Homer outreach clinic is an extension of 
the Kenai CBOC and serves Veterans once a week at the South Peninsula 
Hospital under a contract agreement for space and ancillary services. 
The second VA outreach clinic provides care once a month under a 
sharing agreement with the Coast Guard in the Juneau Federal Building. 
Currently, Anchorage-based primary care providers travel to Juneau to 
staff this clinic. Additional space for the Juneau VA outreach clinic 
is currently under construction, and VA expects this will be completed 
by mid-summer. The expanded space will allow for a full-time primary 
care and mental health staff and be operational on a daily basis. AVAHS 
also is constructing a new replacement clinic in Anchorage that will 
offer expanded capacity. It will be located just outside the Muldoon 
Gate entrance to Elmendorf Air Force Base, and it will be connected to 
the Third Medical Group Hospital by a secure, enclosed access point. 
Access to the VA clinic will be outside the Air Force Security 
checkpoint, and the clinic is scheduled currently to open in May 2010. 
VA has located its sites of care in areas of the state with the largest 
concentration of Veterans. By the end of FY 2010, more than 88 percent 
of enrolled Alaskan Veterans will reside in a borough with a VA 
clinical presence.


------------------------------------------------------------------------
                                         FY 2009
                 Area                     Vet.     FY 2009    % Veterans
                                          Pop.    Enrollees    Enrolled
------------------------------------------------------------------------
Anchorage.............................    31,301     12,426        39.7%
Fairbanks.............................    13,182      4,200        31.9%
Mat-Su................................    10,157      3,414        33.6%
Southeast.............................     7,798      1,827        23.4%
Kenai.................................     5,951      3,414        57.4%
West/SW Alaska........................     4,308        804        18.7%
Northern Alaska.......................     1,144        112         9.8%
Kodiak................................     1,343        320        23.8%
Valdez/Cordova........................     1,259        337        26.8%
------------------------------------------------------------------------


    AVAHS also participates in one of nine nationally recognized VA/DOD 
joint ventures at the 3rd Medical Group (MDG), Elmendorf Air Force 
Base, and an Inter-Service Sharing Agreement with Bassett Army 
Community Hospital at Fort Wainwright. If a Veteran requires care that 
is unavailable at an AVAHS clinic or a VA/DOD facility, VA refers the 
patient to the nearest VA facility, the VA Puget Sound Health Care 
System (VAPSHCS) in Seattle, WA, or contracts for care with a local 
provider. VA is required by law to ensure such fee-for-service care is 
consistent with the care provided in the contiguous United States.
    AVAHS offers a comprehensive continuum of care for homeless 
Veterans. VA provides outreach and a 50 bed Domiciliary for Homeless 
Veterans, along with programs in Compensated Work Therapy and Veterans 
Industries, Compensated Work Therapy Transitional Residence, and the 
Department of Housing and Urban Development-VA Supportive Housing (HUD/
VASH) program in Anchorage. This program expanded to Fairbanks in 
December 2009. AVAHS also provides oversight for two grant and per diem 
programs awarded to the Salvation Army Adult Rehabilitation Program in 
Anchorage and the Rescue Mission located in Fairbanks.
    Inpatient mental health services are provided through contract care 
in local community psychiatric facilities and hospitals, as well as 
specialized programs at VA facilities in the Lower 48. There is an 
active contract nursing home program and other non-institutional care 
programs, including adult day care, respite, homemaker/home health 
aide, and skilled nursing. AVAHS started a Home-Based Primary Care 
program in July 2009 that serves more than 60 Veterans within a 20 mile 
radius of the Anchorage VA Clinic.
                                 access
    AVAHS exceeded VA's national performance goals for primary care 
access in FY 2009. Nationally, VA requires that 99 percent of Veterans 
will be scheduled within 30 days of the desired date for an 
appointment. AVAHS has continually exceeded this measure, as less than 
0.12 percent of Veterans waited more than 30 days in FY 2009. In FY 
2010, AVAHS has continued to exceed these standards.
    For most of FY 2009, AVAHS was not meeting the national performance 
measure for mental health access. VA's national standards require 
prompt evaluation of new patients (those who have not been seen in a 
mental health clinic in the last 24 months) with mental health 
concerns. New patients are contacted, within 24 hours of the referral 
being made, by a clinician competent to evaluate the urgency of the 
Veteran's mental health needs. If it is determined that the Veteran has 
an urgent care need, appropriate arrangements, e.g., an immediate 
admission, are to be made. If the need is not urgent, the patient must 
be seen for a full mental health diagnostic evaluation and development 
and initiation of an appropriate treatment plan within 14 days. Across 
the system, VA is meeting this standard 95 percent of the time. 
However, AVAHS was not meeting this performance measure for most of 
FY 2009. In response, AVAHS performed an analysis to identify barriers 
and conducted a systems redesign to remove obstacles and provide timely 
care for these patients. After implementing these corrective action 
plans, AVAHS met or exceeded the measure for the last few months of FY 
2009, and through January in FY 2010, 100 percent of new mental health 
patients are seen within 14 days of their initial evaluation and 97 
percent of established mental health patients are seen within 14 days.
                               telehealth
    Coordinated Care Home Telehealth--AVAHS has an active Coordinated 
Care Home Telehealth (CCHT) program with 223 enrolled Veterans 
throughout the state. Thirty-one (31) percent of telehealth users live 
in highly rural areas, 16 percent live in rural areas and 53 percent 
live in urban areas. Veterans enrolled in the CCHT program receive a 
device that uses a standard phone connection to send information from 
their home to CCHT staff in Anchorage. Types of information sent by 
patients include blood pressure, pulse, weight, blood sugar, and oxygen 
measurements. Patients also answer health-related questions. The CCHT 
registered nurse staff reviews the information on a daily basis and can 
identify early warning signs or ``out of bounds'' measurements before 
the patient even begins to be symptomatic. Initially, CCHT was focused 
on working with Veterans with chronic diseases such as diabetes, 
hypertension, congestive heart failure, chronic obstructive pulmonary 
disease or depression. In recent months, however, AVAHS has explored 
uses of home telehealth to monitor other conditions such as Post 
Traumatic Stress Disorder (PTSD), substance abuse and bipolar disorder. 
Additionally, Veterans who are at risk of losing their independence are 
receiving special attention from CCHT care coordinators.
    Through the daily use of the home telehealth technology, Veterans 
are improving their ability to live in their own home safely, 
healthfully, and for a longer period of time. CCHT results have been 
impressive. Ninety-five (95) percent of CCHT users with diabetes have 
improved their blood sugar control and 93 percent with high blood 
pressure have improved blood pressure control.
    Tele-Retinal Imaging--AVAHS implemented a tele-retinal diabetic 
screening program in FY 2009. This program allows Veterans with 
diabetes to be screened for diabetic eye disease. Images are captured 
at the Anchorage, Fairbanks or Kenai clinics and forwarded to analysts 
at the VA Puget Sound Health Care System for interpretation. These 
analysts later forward a consultative report with recommendations back 
to the patient's primary care provider for implementation. During FY 
2009, 280 patients received these services, and through January FY 
2010, 108 patients have been cared for through this technology.
    Tele-Dermatology--AVAHS started a tele-dermatology program in 
November 2009. This program employs technology to facilitate timely 
dermatology care to Veterans in Alaska. Images of skin lesions are 
captured while the patient is in clinic. Those images, along with a 
request for consultation, are forwarded to the VA Puget Sound Health 
Care System for interpretation. There, a dermatologist writes a 
consultative report with recommendations and forwards this information 
to the primary care provider. Interpretations and recommendations are 
received within 24 to 48 hours. Thus far, 37 consults have been 
completed this fiscal year.
    Tele-Mental Health--During FY 2009, AVAHS successfully recruited a 
psychiatric nurse practitioner for a new position as a tele-mental 
health provider. Currently, a Tele-Mental Health Clinic is held with 
the Kenai CBOC by videoconference 3 to 5 days per month. Approximately 
60 unique patients are being seen through this clinic, and four to six 
additional Veterans are being seen each month.
    VA will open a new Tele-Mental Health this month to connect 
Anchorage and the Fairbanks CBOC to allow a VA neuropsychologist to 
screen Veterans for Traumatic Brain Injury (TBI). A PTSD Tele-Mental 
Health Group Clinic was initiated on January 7, 2010, by a VA 
psychologist/PTSD specialist for Veterans in the Anchorage DeBarr 
Clinic and the VA Domiciliary in mid-town (Anchorage). As a result of 
the successful deployment within the city, AVAHS plans to expand this 
service to its CBOCs in the near future. In addition, AVAHS has 
assembled a working group to explore the best method for expanding 
group counseling opportunities to its CBOCs.
    AVAHS tele-mental health services have been offered to the Yukon-
Kuskokwim Health Corporation (YKHC) in Bethel, AK. A video-conference 
for staff consultation between Anchorage and Bethel has been held with 
educational and screening instruments shared. YKHC has requested peer-
to-peer consultation with VA professional staff as needed. VA has 
visited both YKHC and Maniilaq Health Corporation in Kotzebue to 
educate local health care providers about AVAHS' tele-mental health 
resources.
    A recent VA presentation to the Alaska Federal Healthcare 
Partnership Telehealth and Technology committee resulted in positive 
contacts with staff from the Alaska Native Tribal Health Consortium, 
Bristol Bay Area Health Corporation, and Maniilaq Health Care 
Corporation. This venue holds promise for spreading the message about 
tele-mental health resources at AVAHS.
                             rural veterans
    AVAHS has initiated several programs to meet the needs of Veterans 
living in rural Alaska, including:

    Rural Veteran Liaison--This is a 3-year pilot program to hire a 
full-time VA employee to be a local community-based contact for VA 
questions on health care and benefits. In June 2009, VA hired a Bethel-
based liaison to perform outreach to the Yukon-Kuskokwim area. AVAHS 
has continued to recruit for a Kotzebue-based position since December 
2008 and recently added Nome to the recruitment announcement. So far, 
there have been no qualified applicants for the position to cover the 
northern area of the state, but VA continues to advertise and respond 
to inquiries.
    Rural Health Care Pilot Project--This project is a 1-year pilot 
program that began in August 2009. The goal of the pilot is to enhance 
primary care for rural Veterans through contract care. The pilot areas 
are the Bethel census area, Bristol Bay Borough, Dillingham Census 
Area, Nome Census Area, Northwest Arctic Borough, Wade Hampton Census 
Area, and the city of Cordova. Under the pilot, Veterans may be 
authorized three primary care visits and two mental health visits 
within a 6 month period. If the Veteran requires additional visits, the 
Veteran or health care provider may contact VA to request additional 
care as needed. VA sent letters to 548 enrolled Veterans in the pilot 
areas inviting them to participate, and through January 2010, 
approximately 20 percent have enrolled and 10 have requested 
appointments (eight for primary care and 2 for mental health care).
    Tribal Veteran Representative (TVR) Program--The TVR program uses 
local community volunteers to assist VA in reaching out to Alaska 
Native Veterans. A TVR is an Alaska Native Veteran or recognized 
individual appointed by an Alaska Native health organization, tribal 
government, tribal council, or other tribal entity to act as a liaison 
with local VA staff. The representative is a volunteer unless paid by 
the Alaska Native entity who selects the individual to represent them. 
Collaborative training is provided by VA health care and benefits 
staff. VA has completed two annual trainings, one in Anchorage and the 
other in Southeast Alaska, and as of January 25, 2010, 12 people have 
completed the TVR training.
    Operation Enduring Freedom/Operation Iraqi Freedom (OEF/OIF) 
Outreach--AVAHS made special efforts to reach out to Alaska Native 
Tribal Health Consortium organizations upon the first major deployment 
of the Alaska National Guard in OEF/OIF. A multi-disciplinary group of 
VA staff traveled to rural areas to provide education on PTSD, TBI, and 
Suicide Awareness and Prevention. Audiences included providers, nurses, 
mental health staff, community health aides, behavioral health 
specialists, and village-based counselors. In addition to the 
educational aspect of these sessions, VA staff and Alaska Native Tribal 
health staff focused on providing a pathway of care for each system to 
work together to ensure returning servicemembers and other Veterans 
living in rural areas could seamlessly access their Alaska Native 
health benefits as well as access their benefits through the VA health 
care system. The presentations on the pathway of care focused on the VA 
enrollment, eligibility, and fee authorization process to assist 
Veterans in accessing VA health care and how to bill for reimbursement 
from VA should their health corporation seek authorization to provide 
services to Veterans. Packets of information with contact names and 
phone numbers were given to each participant, and information tables 
were staffed in community settings such as post offices, grocery 
stores, and community gatherings to raise awareness within the general 
community.
    AVAHS has a signed a memorandum of understanding with the State of 
Alaska Department of Military and Veterans Affairs that outlines a 
partnership to work together to meet the needs of returning soldiers. 
OEF/OIF staff members regularly attend Post Deployment Health Re-
Assessment (PDHRA) events and Yellow Ribbon Reintegration Program 
events to deliver information about VA benefits to servicemembers and 
their families. AVAHS actively participates in pre- and post-deployment 
events for active duty servicemembers. VA also participates in outreach 
with the National Guard's ``Reconnection Veterans'' program, which has 
a goal of sending its liaisons to all 237 villages in Alaska within a 
single year. The Rural Veteran Liaison and OEF/OIF staff members have 
accompanied these liaisons on a number of trips to rural Alaska to 
provide information about various VA programs and benefits.
                           beneficiary travel
    Beneficiary travel benefits are a limited benefit for Veterans who 
meet specific eligibility criteria outlined in Federal statute. In FY 
2009, AVAHS spent $4 million for travel for Alaskan Veterans. Types of 
travel include ambulances, cabs, wheelchair vans, mileage 
reimbursement, and air travel. Approximately 50 percent of travel 
expenses were for airline tickets for travel within (77 percent) Alaska 
and to VA facilities in the Lower 48 (23 percent). VA purchased almost 
3,900 tickets at an average cost of $552 per ticket.
    Veterans are eligible for beneficiary travel benefit if they:

    <bullet> Are rated 30 percent or more service-connected;
    <bullet> Are rated less than 30 percent service-connected, but only 
for travel in connection with treatment or care of their service-
connected condition;
    <bullet> Are receiving VA pension;
    <bullet> Have an annual income below the maximum applicable annual 
rate of pension ($11,830 for a single Veteran); or
    <bullet> Are traveling for a scheduled compensation and pension 
examination.
                               conclusion
    In summary, AVAHS has continued to increase access to meet the 
needs of Veterans residing in Alaska. These have included not only 
clinical services but additional sites of care. AVHAS has maintained a 
high performance rating in quality of care, access standards, patient 
satisfaction, and employee satisfaction. Senator Begich, thank you 
again for the opportunity to testify at this hearing.
                                Addendum
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Begich. Thank you very much. Our last person on 
this panel is Verdie Bowen who is the administrator, Office of 
Veterans Affairs, Department of Military and Veterans Affairs 
for the State of Alaska. Good to see you again, Verdie.

 STATEMENT OF VERDIE BOWEN, ADMINISTRATOR, OFFICE OF VETERANS 
 AFFAIRS, DEPARTMENT OF MILITARY AND VETERANS AFFAIRS FOR THE 
                        STATE OF ALASKA

    Mr. Bowen. Thank you, Senator, for inviting me here. I have 
a couple of things that I'd like to address today and the first 
one is the prescription drug coverage that we have at the 
Pioneer Homes; and the next area I'd like to highlight is the 
GI Bill and some of the issues that we have experienced in the 
State.
    First of all, I want to really let you know that your 
staff, especially C.W. Floyd, have been a world of help on most 
of the stuff that we have done. He's sitting back there 
smiling, but it's actually the truth. When I----
    Senator Begich. Don't get his head to grow too large.
    Mr. Bowen. No, I won't. When I was appointed to this 
position in May of last year, I think I was in the office about 
20 hours before my first phone call came in about the denial of 
prescription drugs--VA prescription drugs--to members within 
our VA home. And it specifically dealt with veterans, which at 
that time we had 14 veterans in the homes that the Pioneer Home 
had refused to administer the medications that came to them 
free. They wanted veterans to purchase the medications through 
the pharmacy. It took probably about 3 weeks to determine that 
the reason they had stepped back in time was because someone 
had unearthed a policy that was covered with dust in the corner 
which said that they could not administer medications to those 
people that are unable to administer medications themselves 
from pharmacies outside of the Pioneer Home. I thought that 
this would be an easy fix, that we should be able to just sit 
down and open up the bottles and hand the pills out. But, 
apparently, you know, it shows you how inept I am at 
administering medications, especially in this case.
    We sat down and had a roundtable before the end of that 
month and I thought we had a work-around where we were bringing 
in a part-time physician assistant to help with these issues, 
and that lasted about 2 weeks. Then I went back through the 
process and I--at that time, the unique experience that I had 
was that I discovered that we had 60 representatives in the 
State of Alaska. At that time, I didn't know, but before that 
time they had always spoken to me.
    I had also spoken to probably 20 retired State 
representatives. The last person that called me was Mayor 
George Wuerch to let me know that his neighbor was involved 
with this process as well. But the unique thing about this was 
it fell under the Department of Social Services. Next, I spoke 
to the commissioner of social services, then we had a complete 
roundtable. Bill Hogan, who was outstanding, stepped in and put 
in a large fix. He wrote an Administrative Order to fix the law 
so that they could receive their medications.
    Currently, as I speak today, I am glad to announce that the 
State House has taken ownership of this and it's passed into 
State law so that this will never happen again. And what is 
going to occur for our veterans in the home is that if this 
ever does come into effect, then the State itself will take on 
the cost of the medications, not the patient. But in this 
process, we also uncovered the fact that our patients that were 
in the homes that fell under Indian Health Care Services that 
were receiving medications would also be denied theirs as well 
if they were incapacitated. So this law will also fix that.
    Currently, like I said, it is through both committees in 
the House and Senate and it's now in the Finance Committee to 
get its final review. To me it took too long, really. It gives 
you a point to understand that when you have State and Federal 
agencies involved, there's a lot of bureaucratic nightmares 
that you have to follow through to try to fix. A problem so 
simple as that should have taken just a few hours; instead, it 
took probably about 7 months. So it gives you an idea that some 
of the problems that we're facing within the VA system itself 
are virtually that same kind of nightmare and ownership as you 
trace each one of the problems back to the end of their 
programs.
    The next thing I'd like to talk about is the new GI Bill in 
its current status. I'm a firm believer that if you're in 
Muskogee, OK, today and you're unemployed it's because you 
choose to be. General Shinseki has done such a wonderful job of 
fixing some of the issues that we have with the Post-9/11 GI 
Bill. The first thing I really want to point out about the 
Post-9/11 GI Bill, which is probably the greatest thing that 
has occurred for veterans since the GI Bill that was introduced 
after World War II, are the values that the veteran receives, 
especially here in the State of Alaska--and I'll give you some 
examples.
    Here in Alaska, a veteran will receive up to $159 per 
credit hour, which means if they go to UAA, it's free. They 
receive $13,429 in fees that are covered. That allows them to 
go to the aeronautical school at UAA and it covers all of their 
fees. They get $1,000 each year for their books, for their fees 
for their books. And this is something that's unique that a lot 
of people won't point out, but in rural Alaska where you have 
less than six people per square mile, this program will give 
you $500 to fly into the schools. Also in the State of Alaska, 
we're blessed to have 16 of our universities that are located 
here to be part of the Yellow Ribbon Program, and what that 
means is that if their tuition is higher than the $159, then 
they will utilize the Yellow Ribbon Program to cover that 
extended cost. Who is covered under this cost is any person 
that has accomplished 36 months past 9/11.
    This here, like I said, is an outstanding program. But, you 
know, there are some issues that we have that need to be 
addressed. Robert brought these up and this is something that 
you won't find in my memos, but he did bring up something about 
voc rehab. Voc rehab is probably half of----
    [Microphone feedback]
    Senator Begich. There we go.
    Mr. Bowen. Maybe that's not a good sign. Voc rehab 
virtually is about half of the payment to the veteran. When 
you're dealing with your monthly stipend, if I had my book--I 
bet you Miss B has her book that will tell you that voc rehab 
is probably around six to eight hundred dollars a month stipend 
that they receive, versus the amount that they receive through 
the Post-9/11 GI Bill. You see, under the Post-9/11 GI Bill, 
they receive $1,836 for their monthly living stipend. Under the 
voc rehab program, I, too, was under the impression that voc 
rehab would provide them the services that they need--the 
extended services that they need--to help them get through the 
programs if they have special needs.
    I spoke to the guidance counselor at UAA, Mr. Floyd, 
several months back and we discussed some of the needs and 
resources available for disabled veterans. He was under the 
same understanding--that the voc rehab program could provide 
these guys special assistance. We have disabled veterans 
currently enrolled under the Post-9/11 program that need 
special counseling, that need special tutoring and things like 
that, which are not provided under the new Post-9/11 GI Bill. 
So, this is probably something that we need to look into, 
bringing the benefit levels under the voc rehab program up to 
the level that Post-9/11 is currently.
    This concludes my testimony and I want to thank you for 
having me speak before you.
    Senator Begich. Thank you very much. Our time is running 
short, but I want to walk through a couple things. I'll just 
start first with Ray. We've had lots of opportunities already, 
so I'll just ask you a couple of quick things if I could.
    Mr. Jefferson. Yes, sir.
    Senator Begich. I thought this was interesting on the young 
student vets. Can you expand on what that is within the 
university, not only for me to understand, but also Robert is 
still here and others to kind of hear--explain that to us a 
little bit more.
    Mr. Jefferson. Sure. So, as you know, sir, there's a 
variety of veterans service organizations. Some of them have, 
you know, a long history: American Legion, Vietnam Veterans, et 
cetera.
    Senator Begich. Sure.
    Mr. Jefferson. One of the newer ones is Student Veterans of 
America and I would encourage people to go to the Web site. It 
is an organization created by and created for this youngest 
generation of veterans from OEF/OIF. What they really focus on 
is helping this young generation of veterans take full 
advantage of the new GI Bill, but also I would say to deal with 
all of the potential challenges of going----
    Senator Begich. Like a mentor to----
    Mr. Jefferson. Well, sir, a few things. You can find a 
mentor, you can--they will help you--they are on many campuses. 
So, for example, the way it works is if Robert--if there's a 
Student Veterans of America coordinator of the University of 
Alaska campus, you contact this person. And it was exactly what 
he said. You know, I want to call someone and say, hey, I'm 
here; I came from OEF/OIF, you know, how do I transition here? 
How do I get help with the courses? How do I just navigate this 
huge campus system. And, by the way, when I lost my fingers to 
a grenade, I went through the same process at the University of 
Hawaii, and it takes a while to adjust to being in a room with 
folks who maybe are a few years younger than you who have come 
straight from high school, you know, and you've been doing all 
these other things in the military.
    So Student Veterans of America help with that transition, 
that translation, to make sure that whatever needs you have are 
addressed and they serve as a bridge between the new GI Bill 
and the veteran and the resources and programs of that 
university. So, I would highly encourage folks to take 
advantage of it to connect. I don't know for a fact that 
they're in Alaska. I believe they're in all 50 States. I would 
say they're very dynamic, they're growing, and they're very 
action-oriented.
    Senator Begich. Very good. Now, that's something that we 
can obviously, from our office, too, follow up to see if Alaska 
has----
    Mr. Jefferson. Yes, sir.
    Senator Begich [continuing]. Someone at our university.
    Mr. Jefferson. And we can connect. We have a great 
relationship with the president, sir, so we can make that 
connection this week.
    Senator Begich. Fantastic. That'd be great. The second 
thing real quick, if I can, you mentioned the American Vets at 
Work.
    Mr. Jefferson. Yes, sir. American Heroes at Work.
    Senator Begich. American Heroes at Work. Can you, for the 
audience that's here and because I didn't ask you this 
yesterday, just describe a little bit about how that works.
    Mr. Jefferson. Absolutely. We had a chance, sir, to dialog 
on that yesterday.
    Senator Begich. Right.
    Mr. Jefferson. One of the programs that we have is designed 
to help veterans with PTS and/or TBI and/or PTSD find 
meaningful employment. What we found is the accommodations that 
these veterans want and need tend to be very normal, easy 
accommodations, but the employers themselves just need to be 
educated. So this program connects a veteran with an employer 
and educates the employer on the accommodations.
    And here is what's so interesting about the accommodations. 
Many of them are things such as: I want to be able to get up 
and walk around for, you know, 10, 15 minutes a few times a 
day; please don't walk up behind a veteran, you know, and grab 
him or her from behind or on his shoulders; please don't place 
them in areas where there's lots of loud, unexpected noises or 
very bright lights. When employers hear what the accommodations 
are, it's the same thing anyone would want a great percentage 
of the time.
    The other thing I'd say is we brought the employers and the 
veterans together and they rave about this program. It's called 
America's Heroes at Work. I will connect with your office, sir, 
so you will have access to that. Robert, if you're still here, 
I'd love to connect you with our director for this program and 
also anyone else here in the building.
    And, again, our access point directly is Tom Hall. Tom, 
would you stand one more time, please. You're getting some good 
exercise with me. It's a great program, sir. We just need to 
raise awareness of it. I want to do a lot more with it.
    Senator Begich. That's great. I mean, you told me about it 
a little bit and that's why I wanted you to kind of expand a 
little bit here. But, again, thank you for that. That's a great 
access point and I know people will take advantage of it. 
Robert is here and he's patiently watching and listening. So 
thank you.
    Mr. Jefferson. All right.
    Senator Begich. Thank you, Ron. Now Belinda, I promised you 
I wouldn't have the same questions as yesterday. One thing that 
intrigued me was an item I think you added today and that's of 
a national brokering process review you're doing. You've done a 
pretty significant review on the Anchorage Regional Office in a 
variety of areas, but on a national level you're taking a look 
at brokering as a whole.
    I know Linda B. brought up a lot of issues about brokering. 
Is that what you're looking at, the whole system and trying to 
figure out what's good, what's bad? Is that--it will go on 
automatically [referring to the microphone]. Yeah.
    Ms. Finn. Yes. We're looking at brokering from a number of 
aspects. One of them is to try to determine how much the 
brokering process improves the timeliness of claims processing. 
We would also--I'm not sure whether we've been planning to look 
at error rates or appeal rates, so I've been making notes on 
that to possibly add.
    Senator Begich. Yeah. Why I wanted to ask this question is 
because what I hear from a lot of folks, at least so far in 
this process we've been going through in the last few days, is 
timeliness is not as significant coming from the broker, and 
it's less timely if they get it and then there's an error on 
it, which is like they're repeating the workload.
    To me, the great measurement will be--I'll use the example 
I was given that San Diego sends ratings back and yet of those 
53 to 60 percent, I forget the exact number, are being turned 
right over into being approved, yet 9 out of 10 are being 
appealed. And then you compare that to Salt Lake and Seattle 
where that's not occurring. Why is that?
    You know, that's an interesting question. Is that 
worthwhile to look--I mean I'm not into the appeal process, I 
don't understand all the details, but it sure seems on the 
surface that would be worth looking at.
    Ms. Finn. I would agree, it does sound like it's 
worthwhile. I will mention, about a year ago we looked at the 
National Quality Assurance Program in VBA and one of the things 
we noted was that brokered claims were not included in the 
quality reviews and not included in the national quality rates.
    Senator Begich. Really?
    Ms. Finn. Yes. And so we recommended that VBA establish a 
process to review those brokered claims for accuracy and 
include that in the rate. They agreed with that recommendation, 
but I don't know right this second what action they have taken 
to make that happen.
    Senator Begich. Could you--and maybe someone else might 
have a comment on that--but could you at least at a minimum, if 
we don't hear the answer to that when I move through the panel 
here, get us an answer? See what has happened from that 
recommendation from a year ago.
    Ms. Finn. Yes, sir. I will do that.

    [The information requested during the hearing follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Begich. I think that would be very interesting. The 
second question is in regards to, you said, the challenges in 
the network. Is that the communication network? I'm trying to 
think of how you described that, and I'm now reverting back to 
the Anchorage regional office. You talked about the challenges 
in the network. Can you----
    Ms. Finn. Yes, sir. It's the challenges in the network 
access to--I'm not sure whether it's over the Internet or just 
the VA network.
    Senator Begich. OK.
    Ms. Finn. But the VBA applications that are needed to 
process claims, many of these are run obviously not out of 
Anchorage, but in other locations. And if the folks working in 
Anchorage couldn't access the applications, it's very hard to 
do the job.
    Senator Begich. So it may not be as computerized, in 
essence, is what you're saying?
    Ms. Finn. I believe it was problems with the network 
bandwidth in Anchorage.
    Senator Begich. Right. And, C.W., he's kind of like Radar 
O'Riley on M.A.S.H. C.W. hands me the word ``bandwidth.''
    Ms. Finn. Yes.
    Senator Begich. So I have a feeling that may be the issue. 
Is that part of it?
    Mr. Arronte. Yes, that--when we were on site, correct, it's 
bandwidth.
    Senator Begich. OK.
    Mr. Arronte. It was a T1 line and I think the director had 
indicated that there were going to be three or four additional 
T1 lines brought in. It should help that connectivity problem.
    Senator Begich. Has that occurred, Mark?
    Mr. Bilosz. Yes, I think there were three T1 lines that 
were added and it has improved things dramatically. And we're 
also expecting when we move into the new building in May it 
will even be better. So it has improved.
    Senator Begich. Great. I know in the simple world I live 
in, my mother-in-law just went from dial-up, if you can believe 
this, to cable and you can only imagine what that's like. You 
know, she can actually get a photo in seconds rather than 
hours. That's interesting.
    That's what I was trying to understand. I wasn't real clear 
on that, but now it makes a lot of sense.
    And the last question is you mentioned accessing computer 
issues. Is that the same thing? You had mentioned accessing 
computer issues. Is that similar to----
    Ms. Finn. Yes, accessing the applications.
    Senator Begich. It's all the same.
    Ms. Finn. It requires bandwidth.
    Senator Begich. OK. Same thing. The bandwidth isn't strong 
enough, so therefore the applications weren't as robust as they 
could have been. Is that a fair----
    Ms. Finn. Yes, they couldn't access them.
    Senator Begich. Very good. Well, again, on the national 
brokering, it is exciting that you're doing that and I think 
this hearing, hopefully, brought some ideas to the table that 
we can incorporate. And please let us know, is that 
progressive? It sounds like, you know, several months from now 
you might be down the path on it, but let us know how that 
progresses. I think the Committee would be very interested. As 
you know, appeals have been an issue that percolates at the 
Committee level on a regular basis.
    Ms. Finn. Yes, sir. We will. As a matter of fact, I'm just 
going to take a second to say----
    Senator Begich. Sure.
    Ms. Finn [continuing]. I really appreciate the opportunity 
to be here and out in the field and here with the issues from 
veterans. We work real hard to make sure that when we look at 
an issue, we answer the questions that are important, you know, 
and the issues that need to be fixed. So this has been a great 
opportunity for me and I've been taking a lot of notes.
    Senator Begich. Great. Thank you very much. Thanks to you 
and your team. Mark, again, thank you and your team that's here 
with you. I want to ask you, and I know I asked you this in 
Anchorage, but I want to make sure the Fairbanks folks also 
hear this. And that is, the issues that were brought up in the 
report and the items of concern, there is no disagreement to 
fix those problems; you agreed with the recommendations. Is 
that a fair statement?
    Mr. Bilosz. Yes.
    Senator Begich. And that you're taking active steps to move 
forward to--as you identified in your written testimony in more 
detail than your verbal, but you basically are taking steps to 
get this process cleaned up and moving in the right direction. 
Is that a----
    Mr. Bilosz. Yes, we----
    Senator Begich. I don't want to put words in your mouth. I 
just want to make sure the Fairbanks folks hear exactly what we 
talked about in Anchorage also.
    Mr. Bilosz. Yes. We implemented action items to address all 
of the issues and we're monitoring those, and they are having a 
positive impact on our performance.
    Senator Begich. We agreed yesterday when I asked Belinda 
the question on, you know, when their next site review might 
be, she had indicated that since they have more resources, they 
can go from 5-year review cycles down to 3 years, which is 
great. And what I have asked is that you report back to me and 
the Committee by June the progress that you have had in all 
these metrics of measurement. That is still a commitment that 
you're comfortable with making?
    Mr. Bilosz. Yes, sir, I had a note.

    [The information requested during the hearing follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Begich. OK. Good. Again, that was for the Fairbanks 
audience to know that, you know, sometimes we have these great 
reports and they're not--you know, in a lot of ways they're 
criticisms, but they're also about how to improve the system 
because no matter what we do in life, there's always room for 
improvement. And what happens sometimes is those reports kind 
of move on and then people will do their own work, and the next 
thing you know the report isn't reviewed by the public and they 
then call us and say, well, what happened? And then we say, 
good question, and then we call and they say, well, geez, 
there's--of those 13 items, seven of them got implemented, we 
don't know why the other six didn't.
    So this process of bringing it back in June will allow us a 
chance to publicly say here's a success or here are areas that 
just aren't working out as well as we thought. Is that fair?
    Mr. Bilosz. Fair--very much so, yeah.
    Senator Begich. Very good. Again, I want to thank you for 
the willingness to kind of step up to it. Rating qualities is, 
I think, the phrase you used. How do you measure rating quality 
or rating qualities? I may not have written that down exactly 
the way you said it, but I remember that phrase.
    Mr. Bilosz. Yeah. We have a National Quality Review program 
that's located in Nashville and every month a series of rating 
decisions gets sent to that facility.
    Senator Begich. Is it a random selection of those?
    Mr. Bilosz. It's a random selection. Every regional office 
in the country sends files there.
    Senator Begich. So they send them off to this location?
    Mr. Bilosz. Yes, and they have a group of folks there with 
experience review the files and determine if there are errors 
or if there aren't errors. Some errors, just as the IG found in 
their inspection, some errors affect payment, others are just 
administrative type of errors. But they report that back on a 
monthly basis to the regional office and in my office, for 
example, we use that data to train people to make sure that 
those mistakes aren't repeated.
    Senator Begich. I know you and I talked about this 
yesterday. In your office, and I didn't see it, but you pointed 
it out to me, and that is you keep a wall chart basically to 
make sure people understand what the measurements are that 
we're measuring for success.
    Mr. Bilosz. Yes. You know, it's vital that we are providing 
quality service to veterans, timely service to veterans, and if 
our employees don't know what that is, then they can't perform 
to the level that they need to. So we update that daily with 
our performance measures and it allows our employees to know 
how what they do day in and day out affects the veterans in the 
State of Alaska.
    Senator Begich. Very good. Dr. Pendergrass, I'm going to 
move to you, if I can. I appreciate the shopping list of items 
you're working on, and it is impressive. One thing I'd love to 
get if I could--again this is very parochial, obviously, it's 
Alaska and I'm more interested in Alaska issues and what's good 
for Alaska veterans--but I think this would be also important 
for many of my colleagues on the Committee who are from rural 
States.
    I'd be curious if you could give us, not right now, but 
later, more of a written report on the several demonstration 
projects we have with you, especially with the Tribal Health 
Consortium, with Maniilaq and other organizations we're doing 
work with. Because one of the things that I am hopeful for is 
that we will be able to prove that a veteran in a small village 
can go to an Indian Health Services facility, get the services 
they need rather than having to fly or be transported all the 
way across to maybe Fairbanks or to Anchorage or to Seattle or 
wherever else they might have to be sent. There might be a 
facility right next door to their home that is run by Indian 
Health Services, paid by the same taxpayers as the VA, and 
available.
    A good example of that is in Nome. The Indian Health 
Service will be building $170 million health care facility, 
brand new, starting this spring. It will be a state-of-the-art 
Indian Health Service provider. It would be a shame to have a 
veteran who lives literally right there to be forced to go to 
another place because we don't have arrangements with IHS. And 
I know you are using Alaska as kind of a pilot. As Ray and I 
talked today, if you can do it in Alaska, you can do it 
anywhere. That's our attitude here.
    So I'd be curious, if you'd give a report to the Committee 
on how these demonstration projects are working and how they've 
been implemented. Because one of the complaints I've heard is 
it's taking a while to get through the bureaucracy which I know 
is because of the stovepiping that goes on, and we want to make 
sure these move forward if they are successful. Do you have any 
quick comment?
    Dr. Pendergrass. Well, in my--I have a briefing document 
from last week that we didn't present, but----
    Senator Begich. Because of a little snow----
    Dr. Pendergrass [continuing]. I do have it. I do have an 
expanded version----
    Senator Begich. Excellent.
    Dr. Pendergrass [continuing]. Of what the rural initiatives 
are. The challenge for us is both access and efficiency of the 
VA system and balancing that with VA's--it's similar to an HMO 
in that we have very specific internal services and 
capabilities that we need to use first. And sometimes that 
requires--and sometimes we are prohibited from providing 
services outside of our system.

    [The information requested during the hearing follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Begich. That's only a function of the laws that 
people like myself can pass.
    Dr. Pendergrass. Yes, that's right.
    Senator Begich. And so, I guess, here's why. I think you 
will find in Alaska, those who are familiar with our Indian 
Health Services here, it is a robust and very successful 
program. It's run by Tribal Consortium.
    Dr. Pendergrass. Right.
    Senator Begich. It is very unique in its delivery system. 
There's a program in our facility in Anchorage called Nuk which 
is a holistic medicine program. It has reduced emergency care 
injury by 68 percent, a great statistical data. And because it 
provides such good quality service, they get incredible reviews 
across the country. So, it just seems that there's an 
opportunity here.
    So, I would say to you don't limit what the potential is if 
there's a law that says you can't cross the line because the 
real end product here is about service to the veteran.
    Dr. Pendergrass. Right. And I think the task force group 
will be able to----
    Senator Begich. Help us.
    Dr. Pendergrass [continuing]. Sort that out because the 
pilot is a pilot, and it would require some legislative 
changes.

    [Update to the requested information, dated June 2010, 
follows:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Begich. Exactly. Well, I'll look forward to that. 
One last thing, just a quick question on mental health service 
professionals. What are you finding in recruitment in a sense 
of trying to get folks to be in that service? Because what I 
hear, it's a problem.
    Dr. Pendergrass. It's----
    Senator Begich. In all areas, not just----
    Dr. Pendergrass. It is a major problem. We have not been 
able to entice the professionals up here full-time. We're using 
opportunities for traveling up for short periods of time. We 
did that to do some of the mental health C&P exams.
    Senator Begich. Is it----
    Dr. Pendergrass. We're using locums.
    Senator Begich. Is it--and, you know, you can be very frank 
here. Is it because they have to go to Alaska or is it because 
of the cost, or that the income is not as great as they could 
get doing it elsewhere, or it's a family--what's the draw here? 
What's the----
    Dr. Pendergrass. Well, it's a number of factors. First of 
all, the supply of professionals----
    Senator Begich. Is already small?
    Dr. Pendergrass [continuing]. Is small. The compensation 
that working for a private or even a State facility--state 
salary is different than private sector, and so the salary is 
an issue.
    Senator Begich. Not competitive.
    Dr. Pendergrass. It's not competitive. And then you're in a 
very rural, highly rural, medically underserved area which is a 
problem----
    Senator Begich. It's tough.
    Dr. Pendergrass [continuing]. Across a number of States, 
but Alaska especially.
    Senator Begich. Brian Rogers just walked in. He's our 
chancellor for the university here. Where did he go? Oh, there 
you are, over there. I point that out only because I think what 
we have to figure out is what we can do in the education arena 
to try to entice people, one, to enter the field at the front 
end because if we can create the supply then at least some who 
still don't want to, you have a larger supply to work from. 
This is something that I know I'll see the Board of Regents 
tonight at a reception and maybe it's an idea which we can have 
more discussion.
    Dr. Pendergrass. The VA has an ability to help offset some 
of the student loans as part of the employment. It may be 
additional incentive to that, working in a rural area.
    Senator Begich. Very good. That's a good point. I again 
apologize because of the timing. We're real close, but Willie, 
did you have some additional comments? [Gesturing to the 
microphone.] That's about as far as it will go; so you just 
speak and you'll be OK.
    Mr. Clark. OK. All right. Good. Thank you, sir, for 
allowing me the opportunity to speak.
    Senator Begich. Sure.
    Mr. Clark. I am Willie Clark. I'm in charge of VA Benefits 
Operations for the Western U.S., which includes Mr. Bilosz' 
office and now Mr. Kelley's office here in Anchorage.
    Three things quickly I'd like to bring up. You talked about 
the--or asked a question about brokering quality.
    Senator Begich. Yes.
    Mr. Clark. We started that last year. So as a result of the 
IG report, we are measuring quality on our brokered cases.
    Senator Begich. Excellent. Good.
    Mr. Clark. The second thing is the San Diego office that 
Linda brought up----
    Senator Begich. Yes.
    Mr. Clark. The San Diego office, believe it or not, is one 
of our best performing stations in VBA. This is the first that 
I have heard of that. I asked Mr. Bilosz and Mr. Kelley.
    Senator Begich. Well----
    Mr. Clark. They had not heard anything from Linda. So what 
we're going to do----
    Senator Begich. You have today.
    Mr. Clark. Well, we're certainly going to talk to her about 
that and we will address any concerns that she has.
    Senator Begich. Will you share that with the Committee?
    Mr. Clark. Yes, sir. We'll certainly do that. Last, we 
talked about the call center in Phoenix.
    Senator Begich. Yes.
    Mr. Clark. At all of our call centers we have State 
benefits books that speaks to tax exemption letters, a license, 
and the full gambit for each State. So I--that's another one 
that surprises me. I will certainly get with the Phoenix 
office, that's under my responsibility as well, and make sure 
that they are trained and providing those letters.
    Senator Begich. Let me ask you quickly, on the books that 
you provide to those trainers, are those--before the trainers 
utilize them for those States like in Alaska, are people like 
Linda at that level reviewing them to give you--to make sure--
because they--you know, sometimes what we do is--and I had this 
actually with the VA recently in a Committee hearing. They were 
saying, well, we notify veterans, we put the legal notice in 
the paper and so forth. And I said, well----
    Mr. Clark. Yes, sir.
    Senator Begich [continuing]. You know, no one pays 
attention----
    Mr. Clark. Yes, sir.
    Senator Begich. No offense. I mean, my father-in-law is a 
retired colonel.
    Mr. Clark. I understand, I understand.
    Senator Begich. You know, he's not looking in the want ads 
for classifieds by the VA, he's looking, you know, elsewhere.
    So do you kind of reverse it back and say, you know what, 
here's the book, let's go back to the people on the front line 
in Alaska. Have them look at this; how would you use it? Is 
there something missing here? Or even how it's laid out to make 
sure it's readily usable. Do you do that?
    Mr. Clark. Well, we have certain people that we do it with. 
I don't know at Linda's level what happens.
    Senator Begich. OK.
    Mr. Clark. But, certainly, in this case because, again, all 
States are different.
    Senator Begich. Absolutely, oh, yeah.
    Mr. Clark. These call centers, they're set up to get a call 
from any State, so they must know. And all they do is open the 
book to that particular index that speaks to that State----
    Senator Begich. Right.
    Mr. Clark [continuing]. And then they are to give out those 
letters. But I will check that to be sure that in all cases, 
but specifically Alaska, that we have the correct information.

    [The information requested during the hearing follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Begich. Very good. And I'm just a big fan of 
encouraging because we have--it's no criticism to the VA; it's 
a criticism to kind of our bureaucracy of how we do business. 
Sometimes we get closed in and we forget that the person on the 
line may get that exact same index and say, you know what, you 
know, they're never going to find it the way you have it listed 
here. Because they see it from a different perspective of the 
caller who is going to make that call.
    So I would just encourage, as I do with all agencies, you 
know, I do it through the Commerce and others that this is a 
technique I used when I was mayor and it made a big difference 
in usability of the documentation.
    Mr. Clark. OK, sir.
    Senator Begich. Just a little thought there.
    Mr. Clark. Yes, sir. We'll do that.
    Senator Begich. The only thing I'll say and end here, 
which, Verdie, I have two parts. One is to say thank you for 
the work I know you did along with C.W. on the ATG, making sure 
those individuals received the benefit that they justly deserve 
that was taken away for a short period of time.
    And I want to thank you for the hard work you did to kind 
of plow through it, find these folks, find the recipients, find 
their dependents. I know between you and the work you did out 
of your office, through our office wit C.W. and some others 
that were really helpful there. I just want to say thank you 
for doing that.
    Mr. Bowen. Thank you, sir.
    Senator Begich. And you laid out some good thoughts here. 
So I'm going to not burn up time here, but I do want to have 
some follow-up on the voc rehab which we'll do through our 
office and your office.
    Mr. Bowen. Yes. As a matter of fact, sir, I wrote myself a 
note here that my voc rehab person will send a memo over to 
C.W. and compare the two programs.
    Senator Begich. That would be great, so we can kind of see 
what we need to do to improve on it.
    Mr. Bowen. Yes.
    Senator Begich. Let me end there. Again, to the panel, 
thank you all very much. As we try to--as I attempted to do in 
the last 2 days in these hearings is to bring out ideas and 
not--you know, we can spend a lot of time pounding on each 
other, which is not hard to do in the world we live in it seems 
today; but it's better to find those ideas, see where we can 
improve, recognize criticism is not a negative, but it's a 
positive to improve a system that's delivering service to 
thousands, and in this case millions, around the country.
    And so I thank you all for your public service. Thank you 
for your willingness to step up and say here's what we can do 
to make it better.
    Also I think an example that, Belinda, you laid out which I 
really appreciate that you like these field hearings because it 
gives you a little food for thought and that's why I like them: 
to get out and hear what people have to say. So thank you all 
for being here.
    Thank you to the audience that is here. We are going to go 
next door? Right through that door. We're going to do a press 
event in regards to the folks that are signing on to support 
our Guard and their employment. It's just another opportunity 
to highlight the great work that our business community is 
doing.
    So, again, thank you all very much. This meeting is 
adjourned.
                            A P P E N D I X

                              ----------                              


      Statement Submitted at Hearing by William ``Ladd'' McBride, 
                Senior Chief Petty Officer, USNR (Ret.) 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

         Statement Submitted at Hearing by Charlotte M. Davis, 
                          Vietnam-era Veteran
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Statement Submitted at Hearing by William McDonald, Colonel, USAF 
                                 (Ret.)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Statement Submitted at Hearing by Hugh Twig Tordoff
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
